<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
CHARLES H. TAYLOR, North Carolina  DAVID E. SKAGGS, Colorado
RALPH REGULA, Ohio                 JULIAN C. DIXON, California
MICHAEL P. FORBES, New York        
TOM LATHAM, Iowa                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Jim Kulikowski, Therese McAuliffe, and Jennifer Miller, Subcommittee Staff
                                ________

                                 PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER

                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-904 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          






                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director





                           W I T N E S S E S

                               __________
                                                                   Page
Akhter, M. N.....................................................   290
Allen, W. R......................................................   533
Avery, Martin....................................................   308
Barr, Hon. Bob...................................................   132
Bill, Raphael....................................................   466
Boehm, K. F......................................................   777
Bonner, T. J.....................................................   438
Boyd, Merle......................................................   302
Brown, D. C......................................................   729
Bruner, J. L.....................................................   603
Burton, Hon. Dan.................................................     1
Calhoun, J. A....................................................   276
Callaghan, Mary..................................................   246
Cannon, Hon. Chris...............................................   169
Capps, Hon. W. H.................................................13, 90
Chase, J. K......................................................   530
Clark, B. M......................................................   543
Clarke, Judy.....................................................   841
Cole, Dr. M. L...................................................   819
Cramer, Hon. R. E., Jr...........................................    97
Deane, Robert....................................................   926
Deets, H. B......................................................   834
Delahunt, Hon. W. D..............................................    27
Dickson, David...................................................   405
Dixon, M. A......................................................   834
Dodson, D. D.....................................................   717
Dowdell, L. Q....................................................   884
Edwards, Priscilla...............................................   874
Egginton, Everett................................................   366
Eisenberger, Peter...............................................   668
Engel, Hon. E. L.................................................   160
Erickson, A. G...................................................   911
Evans, George....................................................   571
Eyring, E. J.....................................................   473
Faleomavaega, Hon. E. F. H.......................................    29
Farley, Terrance.................................................   314
Farr, Hon. Sam...................................................    13
Flemming, David..................................................   450
Foley, Bettie....................................................   903
Frost, Hon. Martin...............................................   217
Gaebe, M. J. W...................................................   515
Gekas, Hon. G. W.................................................   150
Gilchrest, Hon. W. T.............................................   150
Gilman, Hon. B. A................................................    65
Glover, P. W.....................................................   438
Grant, G. A......................................................   750
Greenwood, Hon. J. C.............................................     8
Harrison, E. A...................................................   238
Hastert, Hon. J. D...............................................   220
Helfert, Dr. M. R................................................   870
Hout, Eldon......................................................   788
Hubbard, Dr. K. G................................................   870
Hunter, Hon. Duncan..............................................    34
Hurt, Nathan.....................................................   590
Jackson-Lee, Hon. Sheila.........................................   179
Jennings, E. L...................................................   854
Johnson, Hon. Sam................................................    30
Jollivette, C. M.................................................   806
Knapp, Dr. W. W..................................................   870
Kunkel, Dr. K. E.................................................   870
Lampson, Hon. Nick...............................................    13
Leach, Hon. J. A.................................................   160
Lehman, Hon. W. L..............................................515, 819
Levine, F. J.....................................................   260
Little, Brian....................................................   694
Litton, Gary.....................................................   797
Lower, D. E......................................................   860
Lowey, Hon. N. M.................................................   168
Lynch, G. P......................................................   316
Malloy, Dennis...................................................   481
Maloney, Hon. C. B...............................................   137
Marti, J. V......................................................   338
Mauderly, J. L...................................................   865
Meek, Hon. C. P..................................................   805
Miller, Traci....................................................   458
Mink, Hon. P. T..................................................    46
Molnar, L. A.....................................................   632
Moser, A. N., Jr.................................................   924
Muller, Dr. R. A.................................................   870
Pacelle, Wayne...................................................   645
Pallone, Hon. Frank, Jr..........................................    39
Pease, Hon. E. A.................................................   197
Pelosi, Hon. Nancy...............................................    72
Peterson, R. M...................................................   890
Phillips, David..................................................   831
Pickett, Hon. Owen...............................................   201
Reinhardt, Dr. R. L..............................................   870
Reyes, Hon. Silvestre............................................   140
Richardson, M. C.................................................   581
Rousseau, Roland.................................................   876
Rowell, E. M.....................................................   392
Sanchez, D. V....................................................   851
Sanders, D. L....................................................   920
Sanders, Hon. Bernard............................................   206
Sargent, D. J....................................................   879
Saxton, Hon. Jim.................................................    91
Scalet, C. G.....................................................   824
Schmidly, D. J...................................................   940
Shays, Hon. Christopher..........................................   166
Sherman, F. S....................................................   428
Sherwood, William................................................   926
Shilton, Mary....................................................   223
Sierra, R. I.....................................................   558
Snow, John.......................................................   757
Subkis, Edward...................................................   493
Tanner, Hon. J. S................................................   246
Taylor, Amy......................................................   676
Taylor, Gary.....................................................   420
Vallone, J. A....................................................   815
Visclosky, Hon. P. J.............................................    53
Waters, Hon. Maxine..............................................    84
Wharton, A. C....................................................   654
Whitebear, Bernie................................................   352
Williamson, Deborah..............................................   609
Woodford, D. K...................................................   740
Woolsey, Hon. Lynn...............................................    13






               DEPARTMENTS OF COMMERCE, JUSTICE, AND
                STATE, THE JUDICIARY, AND RELATED 
                AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Rogers. The Committee will come to order. We will hold 
this Subcommittee's final, yet most important, hearing in this 
budget cycle at which individual Members will present their 
views on various aspects of the Administration's budget request 
for fiscal year 1998.
    Today we are on a really tight time constraint due to a 
Full Committee meeting on the supplemental that took up most of 
the day, so your statements will be made a part of the record, 
and we hope you can keep your remarks to a 5-minute time frame.
    We are pleased to have with us, to start off, our friend 
from Indiana who is a valued member of this Congress and holds 
a very important position in it. We are delighted to have Dan 
Burton with us.
    Mr. Burton. Thank you, Mr. Chairman. I will try to stay 
within the time constraints, and what I do not get done, I will 
put in the record, without objection.
    On July 19, 1995, late at night--and I think the Chairman 
was there an agreement was reached between key appropriators, 
authorizers, conservatives and moderates, as well as House 
leadership, concerning the future of the Legal Services 
Corporation. This agreement phased out the LSC over a 3-year 
period: $278 million for fiscal year 1996, $141 million for 
1997, and zero for fiscal year 1998.
    On July 24, 1996, the House passed the fiscal year 1997 
Commerce, Justice, State and the Judiciary Appropriation Act, 
providing $141 million for the LSC, which stuck to the 
agreement.
    Unfortunately, in the final fiscal year 1997 Omnibus 
Appropriations bill, because I allowed points of order to be 
waived, the LSC funding for 1997 was increased from the agreed 
$141 million to $238 million.
    The LSC has always been a very controversial organization 
and has not been reauthorized since 1980. The LSC is limited to 
acting only in civil cases, not criminal cases, and has certain 
restrictions against lobbying, political activities, class 
action lawsuits, cases involving abortion, school 
desegregation, draft registration, desertion from the military 
and representation of illegal aliens.
    However, LSC routinely represents violent criminals, HIV-
infected prison inmates and illegal aliens at the expense of 
women and children, effectively disregarding the most 
vulnerable segment of our society that they are charged to 
help. Let me give you a couple of examples.
    On December 24, 1996, congressional efforts to depoliticize 
the Federal Legal Services program were dealt a serious setback 
when a New York State judge ruled that it was unconstitutional 
for Congress to force Legal Services lawyers to withdraw from 
class action lawsuits. Irate at having to drop a Medicaid class 
action suit, the Legal Services for the Elderly of New York 
became the first LSC program to challenge the class action suit 
restrictions when it filed a lawsuit claiming they were 
unconstitutional and unethical.
    The liberal judge ruled in favor of the Legal Services 
program and permitted Legal Services for the Elderly, 
continuous involvement in the Medicaid suit. Mr. Bert Neuborne, 
the lawyer who brought the suit, confidently predicts that the 
judge's decision will inspire other programs to challenge the 
restrictions in violation of the charge of the LSC.
    On January 9, 1997, five Legal Services programs filed suit 
in Federal court in Hawaii to challenge the congressional 
reforms that forbid the LSC programs from engaging in 
prohibited practices with outside funds.
    On February 14, 1997, U.S. District Judge Alan Kay in 
Hawaii issued a preliminary injunction permitting the LSC from 
enforcing seven key congressional restrictions on grantee 
involvement in political litigation. The ruling specifically 
allows five LSC grant recipients to use non-LSC funds to pursue 
litigation in the critical areas of welfare reform, abortion 
advocacy, drug-related evictions from public housing, prisoner 
rights and other politically sensitive areas.
    This is clearly again, in my opinion, and I think most 
Members' opinion, a violation of their charge.
    On December 19, 1996, the Texas Rural Legal Aid, a major 
recipient of LSC funding, filed a lawsuit in Federal court to 
overturn the election of two Republicans in Val Verde County, 
Texas, by challenging the validity of absentee ballots of 800 
active duty military personnel and their families. The Texas 
Rural Legal Aid charges that the military vote violates the 
Federal Voting Rights Act because it dilutes Hispanic voting 
strength, and were it not for the military votes, the Democrats 
would have held on to those offices. The Texas Rural Legal Aid 
claims that the Uniformed and Overseas Citizens Absentee Voters 
Act only allows military personnel to vote for Federal 
candidates in Texas, but not for State and local candidates.
    These are people who are dedicating their lives to their 
country; they are overseas, and they are trying to stop them 
from voting. U.S. District Court Judge H.F. Garr has issued a 
temporary injunction blocking the two Republicans from taking 
office. Again, this goes beyond the scope of the LSC's charge.
    There are also other examples of egregious cases in which 
grantees have defended Medicaid funding for sex change 
operations, have attempted to prevent public housing projects 
from expelling drug dealers from subsidized housing and have 
attempted to overturn New Jersey welfare reform law, arguing 
that it was a violation of welfare recipients' constitutional 
right to procreate.
    This sort of litigation is not the type of work that 
Congress intended for the LSC to do. And how can this Congress 
justify funding programs more intent on partisan political 
activities, disenfranchising military voters and suing to 
overturn congressional reforms, rather than assisting the 
intended group, the poor?
    LSC-funded programs already receive substantial resources 
from State and local governments, private entities, the United 
Way, the National Association for the Advancement of Colored 
People, and the American Civil Liberties Union, just to name a 
few. Non-LSC funding to Legal Services programs in 1994 alone 
exceeded $248 million. Various groups that favor the 
elimination of funding for the LSC in the 105th Congress 
include--and I am sure you are aware of these, Mr. Chairman--
Americans for Tax Reform, the Christian Coalition, the NRA, 
Citizens for a Sound Economy, the Farm Business Coalition, the 
Farm Bureau and Defenders of Property Rights.
    I will just end by saying, Mr. Chairman, I would like to 
urge Members of the Committee--and I know I am fighting an 
uphill battle here--I would urge Members of the Committee to 
support the agreement to zero out the funding for the LSC or, 
at the very least, phase out the LSC within a reasonable length 
of time. Funding for this abusive and arrogant program, in my 
opinion, must be eliminated.
    And we understand that you can't slow down a train going 
downhill just like that, so phasing it out may be a better 
approach, Mr. Chairman. But I can tell you, in the House, I 
think you are going to have some more contentious debate on 
this, especially in view of the fact that an agreement was 
reached.
    The initial legislation was passed at the $141 million 
agreed level, and then when you went to Conference Committee, 
it was kicked up to 200 and what--$38 billion--278.
    Mr. Rogers. When you say ``phasing out,'' what are we 
talking about here?
    Mr. Burton. Well, in the agreement that we reached, we were 
talking about a phaseout over a 3-year period. In the agreement 
that was reached on July 19, 1995, Mr. Chairman--and I believe 
you were a party to that meeting--it was in writing from the 
leadership; I still have the document signed by all the House 
leaders.
    Mr. Rogers. I know about that, but you say phaseout might 
be the best way to go. Tell me what you mean.
    Mr. Burton. I think following the pattern that we talked 
about in that meeting in 1995 would be acceptable. In other 
words, we would have LSC get a designated amount this fiscal 
year, a smaller amount in the next fiscal year--and that way 
they would know what is coming, they would see it coming--and 
then in the third year, phase them out completely. That would 
actually increase the phaseout period to 5 years, because we 
had agreed previously on 3, but 2 years have gone by.
    Mr. Rogers. Thank you.
    Mr. Burton. Thank you, Mr. Chairman. I appreciate it.
    [The information follows:]

[Pages 5 - 7--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. JAMES C. GREENWOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

    Mr. Rogers. Mr. Greenwood, we will insert your statement in 
the record, and if you can keep your remarks to 5 minutes or 
less, we would appreciate it.
    Mr. Greenwood. I understand, Mr. Chairman, and I will do 
that. I will ask that my statement be inserted in the record.
    I would like to introduce you to my daughter, Laura 
Greenwood. Today is Bring-Your-Daughter-to-Work Day and she is 
with me.
    Mr. Rogers. Would Laura like to sit with you?
    Mr. Greenwood. I asked her that and she said no.
    Mr. Rogers. Would she stand up so we can see her?
    Laura, stand up so we can see you. Okay.
    Mr. Greenwood. She is a little shy.
    Mr. Rogers. We are glad to have you here.
    Mr. Greenwood. I explained to her what I am doing, and she 
just said be calm and be rational. I am going to try to do 
that.
    I am here, Mr. Chairman, to ask an appropriation of 
$700,000 which would go to the National Oceanic and Atmospheric 
Administration, specifically to be used for research to be 
conducted by the National Academy of Sciences, National 
Research Council, regarding the state of our National Marine 
Sanctuary program.
    To summarize, we have had a National Marine Sanctuary 
program for 25 years. It is a relatively small program. We have 
12 marine sanctuaries. The Administration has asked for 
something on the order of one point--$13.2 million this year.
    It is the consensus of marine biologists across the country 
that we need to expand our marine sanctuary program. We need to 
do that because, what we are putting into the oceans, combined 
with what we are taking out of the oceans, is putting too much 
stress on our coastal areas, particularly those ecosystems that 
are very sensitive; and they are important for breeding a 
variety of species.
    If we try to expand that sanctuary program, we will run 
into controversy with the fishermen and so forth, both 
commercial and recreational. So what we think is necessary, 
after 25 years of this program, is to do an evaluation. How is 
this program faring? Is it doing what it is meant to do? Should 
it be expanded? If it should be expanded, how and under what 
circumstances?
    This $700,000 would pay for that research program which 
then in a year or two would provide us with the information 
that we need in order to make some well-based decisions about 
the sanctuary program.
    I would like to leave you, Mr. Chairman, with this quote 
from a very good friend of mine, Dr. Elliot Norse, who is a 
marine biologist. What he said is, the health of the sea itself 
is declining and we often don't understand why. Mysterious 
toxic red tides appear along our coasts. Florida coral reefs 
bleach and die. Alien species from Europe and Asia are 
overwhelming native animals in the San Francisco Bay. Deadly 
diseases kill hundreds of dolphins and manatees. The cod 
fishery that fueled the growth of New England is gone.
    Whether we realize it or not, millions of Americans, those 
who catch fish and market seafood, make boats and toothpaste, 
sell coastal real estate and diving gear, depend on the sea for 
their livelihood. Given the importance of marine ecosystems to 
our well-being and economy, we need to make understanding and 
conserving our marine resources a greater national priority.
    Mr. Chairman, I submit that this study would help us to do 
just that, and I would hope that the Committee would act 
favorably upon it.
    Mr. Rogers. We thank you for your testimony.
    Mr. Greenwood. Thank you.
    [The information follows:]

[Pages 10 - 12--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                               WITNESSES

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. WALTER H. CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Rogers. We now welcome Sam Farr, Lynn Woolsey, Walter 
Capps and Nick Lampson.
    Mr. Farr. Mr. Chairman, I have two issues before you, and I 
am going to use the first part of the time to deal with what we 
are all here at the table for, the National Marine Sanctuaries 
program.
    There are several members who want to testify. You have 
already heard from Jim Greenwood, and I understand Nancy Pelosi 
will come in at the 4:00 o'clock time.
    Basically, I look at that map and think one must realize 
how important the oceans are, and I think this is the one 
Committee--I am on the Resources Committee and on the 
Subcommittee with responsibility for oceans issues, but this is 
the Committee that really funds the oceans, and there is no 
doubt that what we invest in today will reap incredible 
benefits in the future.
    Here we are discussing the Space Station, and frankly, 
there is more that we are going to learn out of the oceans than 
we are ever going to learn in outer space; and I am here just 
quickly to say that there is incredible value to protecting our 
ocean resources in marine sanctuaries.
    It is a real tribute to this Committee that you have been 
able to establish the 12 that we now have, and hope that you 
will consider investing in their future. Just think, 
Yellowstone Park was developed before the car could get there. 
It was just a place of incredible natural beauty and ecological 
value set aside because we recognized the importance of 
preserving it.
    There are institutions in my district such as David 
Packards's research institute and the Navy, which are now 
looking at a vehicle that you can drive under the sea, and it 
is not unforeseeable that in our lifetime there will be a 
rental vehicle that can take you into the ocean and that these 
sanctuaries will be the Yellowstones, Yosemites, the great 
places to visit in our seas and Great Lakes.
    Mr. Rogers. So we can commute up the Potomac?
    Mr. Farr. If it is a sanctuary, sure.
    Many Members have come here today to speak on the value of 
their sanctuaries in their districts.
    And then I want to use the remainder of my time to talk to 
you a little bit about the Tiburon issue.
    For the FY 98 National Marine Sanctuaries budget, the 
President has requested $13.2 million, which is a little bit 
over a million increase over fiscal year 1997. I am essentially 
here to encourage further funding to the full authorized level 
of $15 million.
    We have 12 sanctuaries. They are our national parks in the 
ocean. Yet, they receive less than 1 percent of the funding 
provided to national parks. In my district, the Monterey Bay 
National Marine Sanctuary encompasses more than 4,000 square 
nautical miles and about 350 miles of coastline.
    I just found that since it has been created in the last few 
years that interest in it has gone so far that people are now 
even advertising to ``Come shop in our region'' because we are 
close to the National Marine Sanctuary. So it has had a lot of 
private appeal.
    I would like to introduce to you my colleagues who are 
here, Congresswoman Lynn Woolsey--I would like to submit for 
the record a letter on behalf of the santuary, signed by 14 
members, and also a statement from Rep. Faleomavaega, with 
copies available to everyone. And then I would also like to 
submit a letter of additional NOAA concerns that I have for the 
record.
    With that, I would like to yield to Ms. Woolsey.
    Mr. Rogers. Welcome.
    Ms. Woolsey. Thank you, Mr. Chairman. I am here today to 
support full funding for the National Marine Sanctuary program. 
I am especially privileged to represent 144 miles of northern 
California coastline. My district is just north of San 
Francisco, across the Golden Gate Bridge--you know, that is 
heaven in California--and my district is home to the National 
Marine Sanctuary. Cordell Bank and the Gulf of Farallones are 
two examples, both of them, of very successful and cost-
efficient national programs. But with the addition of new 
sanctuaries, it is more important than ever, we feel, that the 
funding for this program be increased to the full $15 million.
    So to save you time, I just wanted you to know, I strongly 
urge full funding of the sanctuary program at its authorized 
level of $15 million because of the value of the program and 
because I believe it is our responsibility to maintain our 
Nation's investment, the investment we have made that is proven 
and successful and effective in our National Marine 
Sanctuaries.
    You have played a major part in that, and I thank you for 
that. Thank you.
    Mr. Farr. Mr. Chairman, Mr. Walter Capps representing the 
Channel Islands Marine Sanctuary.
    Mr. Capps. Thank you. I come from the Santa Barbara-San 
Luis Obispo Counties of California, home of one of the twelve 
marine sanctuaries, the Channel Islands National Marine 
Sanctuary, as Mr. Farr indicated.
    Every summer we are blessed by visits from endangered blue 
and humpback whales as they feed in the sanctuary during their 
journey up the California coast, and the sanctuary is critical 
to the protection of the habitat for the whales and other 
marine life.
    The second point I want to make is that the sanctuary is 
also important to the children. The Channel Islands Marine 
Sanctuary hosts the ``Los Marineros'' program, which is a 
marine education curriculum for at-risk children, teaching them 
the sensitivity and uniqueness of the marine environment. The 
program has been so successful educationally that now every 
fifth grader in Santa Barbara participates.
    And then there is a very important P.S. I urge your support 
for full funding for the Bureau of Prisons, if I can slip that 
in today----
    Mr. Rogers. It is somewhat related, I guess?
    Mr. Capps [continuing]. And your support for the 
reprogramming of funding for the Federal Law Enforcement 
Dependents Assistance Act, because we had a penitentiary guard 
who was killed a couple of weeks ago in my district.
    Mr. Rogers. I was aware of that.
    Mr. Capps. A man named Scott Williams, and I have tried to 
be helpful to his family and his colleagues there. It is a very 
difficult situation. But these people are heroes in the kind of 
thing that they do, and I think are not recognized often enough 
for the way they maintain the peace in our society.
    Mr. Rogers. Well, the gentleman is exactly correct. In 
fact, the day of his funeral, the Director of the Bureau of 
Prisons testified in the chair you are sitting in.
    Mr. Capps. Right.
    Mr. Rogers. She testified just before flying out to the 
funeral, and we sent along with the Director our condolences.
    And you are exactly right, we have a lot of unsung heroes 
in these prisons that never get noticed until something like 
this happens to them, which is terrible.
    Mr. Capps. That is right. Thank you very much.
    Mr. Rogers. Thank you.
    Mr. Farr. Mr. Chairman, Nick Lampson, who represents the 
Flower Garden Banks Sanctuary.
    Mr. Lampson. Thank you, Mr. Chairman. I appreciate the 
opportunity to express my support of continued line item 
funding for the National Marine Sanctuary Program, the NMSP. 
This program is the only Federal program designed specifically 
to protect our country's most outstanding marine areas. The 
NMSP is instrumental in conserving America's most significant 
and sensitive marine ecosystems while sustaining vibrant 
economies in coastal communities.
    One of the twelve National Marine Sanctuaries is located in 
my district, the ninth district of Texas. The Flower Garden 
Banks National Marine Sanctuary is located about 100 miles off 
the coast of Texas and Louisiana. The Flower Garden Banks are 
surface expressions of salt domes beneath the sea floor.
    This premier diving destination harbors the northernmost 
coral reefs in the United States and serves as a regional 
reservoir of shallow-water Caribbean reef fishes and 
invertebrates.
    Together, the east and west Flower Garden Banks contain 350 
acres of tropical coral reef with approximately 21 species of 
coral. This area is one of the most important locations for on-
site marine research into educational activities. To find 
another coral reef, one would have to travel over 600 miles to 
the Florida Keys, or over 400 miles south to Mexico's Gulf of 
Campeche.
    The principal activities in the vicinity of the sanctuary 
are oil and gas extraction, commercial fishing, recreational 
pursuits, ship traffic and research. Accessibility for 
recreation and research is limited to vessels having adequate 
range and overnight facilities. There has been a history of 
scientific interests in this area since 1930.
    And I want to thank you, Mr. Chairman, for calling this 
hearing to order. I request also that the Subcommittee provide 
continued support for funding of the National Marine Sanctuary 
Program at the authorized level of $15 million for fiscal 1998. 
Thank you.
    Mr. Farr. Thank you, Mr. Chairman.
    Do you have any questions on the sanctuary issue? If not, I 
will move into the other.
    Mr. Rogers. I don't think so.
    Mr. Farr. Thank you. I would like to spend the rest of my 
time on an issue that is complicated because it is kind of a 
see-saw issue. It is about a Federal marine lab that has been 
in Tiburon, which is in Marin County. But because of the effort 
by the State and the university interests to relocate in an 
area where there is a collective of scientists, Monterey Bay 
has been determined to be the site of relocation, and I 
represent Monterey Bay.
    The State fishery has just built a marine mammal rescue 
center right next to the University of California at Santa 
Cruz's marine lab, and we have Stanford University that has a 
marine lab in Monterey Bay, and the California State University 
has a marine lab in the middle of the bay that is part of the 
National Marine Sanctuary. Monterey Bay has probably the 
greatest collection of marine scientists on any spot, including 
Woods Hole or Scripps, because of the incredible and unique 
marine environment there. So it is appropriate that the Federal 
Government be there.
    In fiscal year 1996, Congress appropriated money for 
relocation of the lab; but the $3.5 million was rescinded in 
fiscal year 1996, after being appropriated. For FY 98, the 
President has requested $15.2 million for construction, but 
unfortunately, what they missed in looking at this is that the 
construction doesn't allow for the land costs, because they 
thought that we had already been able to purchase the land.
    So I am requesting an additional $1.6 million for land 
acquisition and then an additional $2.3 million for the sea 
water system. So the total amount being requested is $19.15 
million for relocation of the lab, including construction, land 
acquisition, and the sea water system.
    This lab is in our Federal interest because it oversees 
management of the entire West Coast ground fisheries. 
California fishermen catch about 40 percent of the West Coast 
shore-based landing. It is also responsible for monitoring the 
Canada-U.S. Ground Fish Treaty. It manages the salmon resources 
of two of the three great West Coast salmon rivers. It manages 
the endangered species recovery plan for the Sacramento winter-
run chinook, the conservation and restoration of the San 
Francisco Bay area ecosystem, and it is responsible for 
conservation of the fishery resources in the three California 
National Marine Sanctuaries that you heard about today.
    So it is of vital interest to the Federal Government to 
ensure that this lab be relocated, and frankly, they must 
rebuild, the other lab has just deteriorated, but they decided 
that rather than just building it back into the same spot, why 
not be collaborative with all of these State, private and other 
Federal interests that are already there? So that is why they 
chose Santa Cruz as the site of relocation.
    As you recall, Senator Hatfield was very supportive of this 
effort in former sessions and took it into conference committee 
several times. I would hope that now that we have all of our 
ducks in order that we can get this Committee to fully 
appropriate the funds for that lab.
    I appreciate it very much.
    Mr. Rogers. Thank you for your testimony.
    Mr. Farr. Thank you.
    [The information follows:]

[Pages 18 - 29--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. SAM JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Rogers. We now welcome Mr. Sam Johnson. We will put 
your statement in the record and you are welcome to summarize 
it. We hope you can keep it within 5 minutes.
    Mr. Johnson. I can do that easily for you, sir. Because I 
know you know this issue that I am talking about which is the 
LSC, the Legal Services Corporation. I appreciate the 
opportunity for you to listen, and I know that you were in on 
the negotiations, as was I, of paring it down. So I am not here 
to ask for money. I am here to ask you to stop spending some.
    As you know, they embarked on a crusade that I think 
outraged all of us, and it ought to outrage every member of 
your committee. They called into question the voting rights of 
our fighting men and women and I think that is a complete 
disregard for human decency. You know, I was in the service for 
29 years and I fought for and believe that people are entitled 
to the basic constitutional right to vote. I think when 
somebody blatantly violates that sacred right, they should not 
be entitled to receive and spend taxpayer dollars, which is 
what the Legal Services Corporation does. The particular case 
that I am referring to, and I know you are aware of it, is the 
Val Verde county case in Texas, where two county officials were 
denied the right to take office because of the LSC, and they 
used public funds to stop it.
    A Federal judge threw out the election because the deciding 
votes were cast by 800 absentee members of the military. You 
know, when I was in the military, I served in a lot of 
countries away from home and my hometown of Plano, Texas, but I 
don't think it made any difference whether I was in Asia, 
Europe, Africa or wherever, I thought I was still a citizen of 
the United States and a citizen of the State of Texas and 
deserved the right to vote.
    So I think that it is up to us to protect the members of 
the military and make sure they do have that right. I don't 
think that we should allow another election to be overturned. 
We need to stop the LSC now. It is a taxpayer-funded group, and 
this particular instance is just the latest of what you know 
about, where they got involved in political cases involving 
lobbying, redistricting, union organizing, prisoners rights, 
welfare reform, defending drug dealers and class action 
lawsuits, none of which are appropriately helping the poor, 
which is what the LSC is supposed to do.
    And in addition, and I know you are aware of this, too, we 
put restrictions in the law last year and, believe it or not, 
those restrictions aren't going to stop them because they have 
filed a lawsuit against the United States for trying to 
restrict them. So since it is apparent that restrictions won't 
stop them and the class action suits are going to continue, I 
don't think we ought to allow anymore restrictions or 
compromise agreements. Let's just phase them out and quit 
funding them. And that is where I am coming from.
    Mr. Rogers. Well, I appreciate your testimony and, more 
than that, we appreciate your service to your country, not only 
in Congress, but even more importantly, I think, in the 
military before-hand. I have read your book and it is 
wonderful, although it tells a heartbreaking tale.
    Mr. Johnson. Thank you.
    Mr. Rogers. I don't think they allowed you absentee ballots 
where you were in Asia for 6 years, did they?
    Mr. Johnson. I didn't get to come back and re-vote in all 
of those elections. Isn't that something?
    Mr. Rogers. You might have overturned some elections had 
you been able to come back and do that. Thank you, Sam.
    Mr. Johnson. Thank you, sir. I appreciate the opportunity 
to be here.
    Mr. Rogers. Thank you for your service.
    [The information follows:]

[Pages 32 - 33--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Rogers. Let's hear from Duncan Hunter and then we will 
hear from Frank Pallone. Your statement will be made a part of 
the record, Mr. Hunter. We welcome your testimony. Hopefully, 
you can keep it within 5 minutes.
    Mr. Hunter. Mr. Chairman, thank you. This will take just a 
couple of minutes. I am back here to thank you, first, for your 
leadership in supporting the $8.6 million that was appropriated 
over the last two years for the triple fence on the first 14 
miles between the Pacific Ocean and the coastal foothills in 
California on the border, where most of the illegal narcotics 
and illegal aliens smuggled into the United States come 
through, that first Smugglers Corridor between San Diego and 
Tijuana.
    We passed, over great objection from the Administration, 
the triple fence legislation in the immigration bill. Before 
that, you funded two tranches of money, each for $4.3 million 
and the fence is ready--we have already started part of the 
triple fence about 5 miles from the ocean. That is a Bollard-
style fence, and we are putting in the other type of triple 
fence, that is, the so-called Sandia style. That is a 15-foot 
high fence with a curved overhang that Arnold Schwarzenegger 
couldn't climb on his best day, and we are putting that in at 
Otay Mesa. That starts in about two weeks.
    Now, I have drawn this map, it is kind of busy, just to 
show you. This is the Pacific Ocean, San Diego County, San 
Diego Bay here and this is Tijuana right here.
    This area designated by the red is the first 14 miles of 
Smugglers Corridor. Through that 14 miles most of the illegal 
narcotics and illegal aliens smuggled into the United States 
come between Tijuana and San Diego.
    The Administration now has approximately 1,600 agents in 
that 14-mile strip, so we have a little less than 25 percent of 
the entire Border Patrol of the United States in that 14 miles.
    As we build the triple fence--we already have a steel fence 
up, which is the first third of the triple fence. As we put up 
this 15-foot high secondary fence that is back about 150 feet 
on U.S. territory--it is impossible to climb--if we simply 
maintain that, we are going to be able to shift some of these 
1,600 agents that are in that 14 miles to the east.
    What is happening now is that the illegal alien smuggling 
operation is moving to the east to try to flank this 1,600 
agents who were deployed along the border in the first 
smugglers' corridor. They are moving basically to the second 
smugglers' corridor and they are moving out here in the desert 
where you only have about 150 agents on the entire Imperial 
County line, and that is about 100 miles of border--or about 80 
miles of border between the San Diego line and the Colorado 
River, which is the Arizona border.
    The smugglers are now moving their people through those 
smugglers' corridors because we don't have enough Border Patrol 
agents there to hold that area.
    So what we are asking for is the last $3.4 million of the 
$12 million that is authorized for the triple fence here in the 
most heavily trafficked smugglers' corridor. When you give us 
that money, we should have enough to finish, at least the 
second stage, which is a real stopper, of this triple fence 
along that entire part of the corridor. That will allow you to 
move some of your 1,600 agents to other areas.
    So the second thing we are asking you to do is to--is to 
allocate some of the thousand new Border Patrol agents, that 
you passed last year, only about 750 of whom are deployed. You 
have got about 250 agents that aren't deployed and the Border 
Patrol Chief Agent Krum said, ``We are going to wait and see on 
the rest of the deployments and field them when and where 
appropriate.''
    Let me suggest to you that Imperial County over here in the 
desert, because we have a lot of agents here in East County, is 
now being overwhelmed; massive smuggling of cocaine and people 
coming through our desert area. So if the Administration has 
250 folks on hand that they don't know where to place, we have 
got places for them. And I would suggest the Committee do what 
you have done in the past and that is exercise your leadership, 
put these folks on the border and if it looks like you can 
move--use them better somewhere else, then move them where you 
think you need them. But I would suggest that we field them.
    And the idea that the Clinton Administration has of waiting 
to see where they will best be deployed, I think, should be 
overridden simply with your action and leadership.
    Thanks for what you have given us in the past. We are 
moving out. The City of San Diego is giving us this land, at 
least the first areas of land that we need to build the fence 
on. They were going to charge us a million bucks for the first 
parcel, but they have got it down to about a dollar. We like 
that. So we are trying to save your money and we need that 
third tranche of $3.4 million.
    Mr. Rogers. Thank you for your testimony. The gentleman has 
been dogged in his pursuit of this triple fencing and I can see 
why, because it works. And it is working in the heaviest 
traveled border, and most illegally traveled border area in the 
country. The gentleman is to be commended for pushing this over 
the years, and it is beginning to pay off.
    Mr. Hunter. Well, Mr. Chairman only because of you are we 
successful because you had to appropriate the dollars, and we 
appreciate that.
    Mr. Rogers. Thank you very much.
    Mr. Hunter. Thank you, sir.
    [The information follows:]

[Pages 36 - 38--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY

    Mr. Rogers. Mr. Pallone.
    Mr. Pallone. Mr. Chairman, I will be brief so we can go 
vote.
    Mr. Rogers. Everybody has said that.
    Mr. Pallone. I promise to finish by the 5-minute bell. You 
have my complete testimony so I will just summarize.
    I wanted to talk about some coastal programs that are 
important to me, and I believe to the State and to the country. 
One is the National Sea Grant College Program. I was a sea 
grant extension specialist myself in New Jersey, and I think 
that the program really does a great deal not only working with 
local people like the fishermen and the marine owners and 
different people that are concerned about the shore and the 
coastal areas, but also in terms of educational functions.
    And I know that the request--what I am basically asking is 
that we at least get last year's funding level for the Sea 
Grant Program, which was $54.3 million. We have Sea Grant 
Fellows in Congress. We have Sea Grant people working in the 
field and Sea Grant people at the universities and they really 
do a lot in terms of promoting fishery resources and economic 
development related to the coastal area.
    For the National Marine Fisheries Service, I wanted to 
bring up again, you have been very supportive of this annual 
request for the marine lab, the Sandy Hook Lab, which is in my 
district, which is probably the most state-of-the-art fisheries 
lab in the country. We have this unusual relationship, which I 
have mentioned to you before, where we seek $2.25 million in 
construction funds, which is the Federal part of a lease that 
was entered into with the State of New Jersey, where that is 
the Federal Government's share for ongoing expenses at the 
Sandy Hook Lab. Obviously, that is necessary. Again, I am 
hoping that the Subcommittee will be supportive.
    With regard to the Coastal Zone Management Act, that 
program, again, is very important to my district and the 
coastal districts throughout the country. We actually have a 
coastal caucus now that has been promoting that program. And I 
have some very--some specifics about how I would like to see 
funding made available for that program in various accounts.
    I won't go through them all because I know the time 
constraints, but I did want to mention the Nonpoint Source 
Pollution Program because there the President has only 
requested $1 million. And I think that is inadequate. We really 
need $4 million in order to do the program effectively. I think 
in the other areas what I am basically doing is supporting the 
President's request, but there for that Nonpoint Source 
Pollution Program, we need additional dollars over and above 
what the President has requested.
    And lastly, the National Undersea Research Program, this is 
the only program devoted to advanced underwater sea research in 
coastal areas and the Great Lakes. They have done a lot in 
researching and developing new technologies. It is very 
important. I am again asking that the Subcommittee fund the 
program, at least at the $16 million level, which, again, is $6 
million more than what the President requested.
    I think in the past he hasn't even requested anything on 
some occasions for the program.
    And with regard to Legal Services, I just wanted to put 
in--say again, you know, again, the President requested a 
certain amount. If that level could be the amount that the 
Subcommittee supports, I haven't worked with Legal Services 
myself, but I have worked with them quite a bit when I was a 
lawyer and I know they, like in the State of New Jersey, they 
are really crucial.
    The fact of the matter is most lawyers, even with the 
amount of time they give on a voluntary basis, simply do not 
make up for the needs of the people that are served by the 
Legal Services Corporation.
    And with that, I appreciate all your help in the past and 
thank you for the time.
    Mr. Rogers. Thank you for being here. I appreciate it.
    Mr. Pallone. Thank you.
    Mr. Rogers. We will have a short recess while we vote.
    [Recess.]
    [The information follows:]

[Pages 41 - 45--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. PATSY T. MINK, A REPRESENTATIVE OF CONGRESS FROM THE STATE OF 
    HAWAII

    Mr. Rogers. We are delighted to have you with us.
    Mrs. Mink. Thank you very much.
    Mr. Rogers. Your statement will be made a part of the 
record and we hope you can summarize it in about 5 minutes.
    Mrs. Mink. Thank you. I appreciate this opportunity to give 
testimony on the East-West Center, which has not fared too well 
in recent years in the appropriations battle for funds. And I 
am here today to make a special plea to this Subcommittee to 
consider the uniqueness of this institution. I think too often 
when we talk about these programs, we tend to think that they 
are somehow related to the State in which they are based.
    The East-West Center really is a national institution which 
has an international responsibility, which reaches out into the 
Asia-Pacific region.
    The President, I believe, has submitted a request for $10 
million. This is a drastic cutback over the last several years, 
where I believe 2 years ago it was funded at the level of $25 
million, and it has been systematically reduced. Current 
funding would be around $10 million and we feel that this is 
essential.
    Both the previous Republican Administration and the current 
Administration recognizes the importance of the Asia-Pacific 
region, and I think it would be a serious loss if this center 
were to close.
    And I believe at the $10 million level they are really at 
their very base. The new President, Mr. Sumida, has worked 
very, very hard to keep the integrity of the mission in place; 
to carry on the responsibilities of educating American students 
at a graduate level; to stimulate undergraduate activity; to 
sponsor seminars and to attract the attention of the Asian-
Pacific community.
    I have, I believe, submitted, together with my testimony, a 
list of people who have gone through the center; not merely 
people within this country, but people from the Asian-Pacific 
region who now hold significant positions of responsibility. 
And it is their contact at the East-West Center that is an 
extremely valuable experience. They carry with them the 
associations, of course, that they made at the center, but also 
it is, as the title of the center depicts, an exchange of 
culture as well as the technologies of the various regions.
    So I think that this is a program that has been in 
existence now 37 years. It has proven valuable to the foreign 
policy of this country, and I would hope that we would be able 
to continue it. It has been used as a forum by leading scholars 
and economists.
    On both parties, the leadership has gone there. President 
Bush, I believe, had a hearing at the Center and numerous 
ambassadors passed through it.
    Forty-three thousand persons from 60 countries have 
participated in our programs at the Center. The Center also, 
since 1960, has had 4,700 individuals pursue post-graduate 
education; 1,460 from the United States.
    At a time when our Speaker has gone to Asia to emphasize 
the importance of our relationship with that area, it seems to 
me it would be really a shame if the House does not at this 
point understand the importance of the center and continue the 
level of appropriation, which is currently in existence at the 
$10 million level.
    I had invited others to join me, but they are not here and 
I realize that the time is very limited. But I would hope that 
the Subcommittee would concur with the Administration's request 
of $10 million and would include that in the overall 
appropriations recommendation of the Full Committee. Thank you 
very much.
    Mr. Rogers. Thank you very much for your testimony.
    Mrs. Mink. Thank you.
    Mr. Rogers. It was very useful. Please come back and see 
us.
    Mrs. Mink. Thank you.
    [The information follows:]

[Pages 48 - 52--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Rogers. Mr. Visclosky, welcome.
    Mr. Visclosky. Mr. Chairman, thank you very much.
    Mr. Rogers. Your statement will be made a part of the 
record, and we hope you can summarize it in about 5 minutes.
    Mr. Visclosky. Mr. Chairman, I would hope to do that in 
potentially less. I have five points I would like to testify 
on. The first is to request $2.65 million for new technologies 
to be inserted into a new courthouse to be constructed in 
Hammond, Indiana. I am making this request on behalf of the two 
senior judges who will occupy the building.
    My second request, Mr. Chairman, relates to immigration in 
my district, which has more immigration and naturalization 
activities than any other portion of the State of Indiana. I 
would just ask the INS, again, to formally study whether or not 
we should have an office in northwest Indiana. We did have one 
up until 1984, which was transferred to Indianapolis. Within 
recent years, understanding the dire needs in our area, the 
jurisdiction for our area--was transferred to the Chicago 
District INS office.
    My third request is for $500,000 for the Robert A. Pastrick 
Environment, Science and Education Center in East Chicago, 
Indiana. Finally, Mr. Chairman, I support two Administration 
requests; the first, $35 million for the Cooperative Agreement 
Program in full support with the good works that occur through 
the implementation of those dollars, and finally, for $1.4 
billion to continue police hiring grants that have been very, 
very helpful in the communities that I represent.
    Mr. Rogers. Thank you for your testimony.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Rogers. You are correct. You were briefer than others.
    [The information follows:]

[Pages 54 - 64--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

    Mr. Rogers. Chairman Gilman. We are delighted to have you 
with us.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Rogers. Your statement will be made a part of the 
record and we hope you can summarize it in 5 minutes or less.
    Mr. Gilman. I will try to make it brief, Mr. Chairman.
    Mr. Rogers. I am glad you are here.
    Mr. Gilman. I welcome the opportunity to talk about the 
U.S. Commission for the Preservation of America's Heritage, and 
I am requesting a minimum budget of $300,000 for its needs for 
fiscal year 1998. You are fully aware of the commission that 
was established back in 1985 for trying to preserve and restore 
the cultural sites around the world and the creation of a 
central listing for those needed sites. And they have done 
quite a good job.
    Under the expert guidance of Chairman Michael Lewan, who 
you are familiar with, their accomplishments have grown quite 
steadily and they have done a lot of good work in the Czech 
Republic, in Poland, in Romania, the Slovak Republic, Slovenia 
and the Ukraine, particularly.
    They have ongoing negotiations in at least a dozen other 
governments, primarily to try to preserve a good number of the 
old ancient cemeteries that are there and to try to preserve 
some of the old projects. This listing is the first step in the 
commission's long-range program for security support for 
immediate and long-term protection, preservation and the 
maintenance of sites that have been designated as having 
special significance.
    I would like to submit the full statement and just to state 
to you, Mr. Chairman, that I have known the commission members 
who have worked without salary, as volunteers, and have been 
doing outstanding work in preserving many of the ancient 
cemeteries in Europe and in Central Europe. And I respectfully 
request a moderate increase over last year's budget.
    I think last year's budget was a little over $200,000. And 
because they have taken on an expanded list of projects, they 
are asking for a moderate increase to $300,000.
    Mr. Rogers. Thank you for your testimony, Mr. Gilman.
    Mr. Gilman. I hope I kept within the time.
    Mr. Rogers. You certainly did. I appreciate that. Good to 
have you with us.
    Mr. Gilman. If I could take a moment, I would like to 
discuss something that you and I are working on for just a 
minute.
    Mr. Rogers. Yes. We will stand in recess for one moment.
    [Recess.]
    [The information follows:]

[Pages 66 - 71--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Rogers. Ms. Pelosi, we are delighted to have you with 
us. Your statement will be made a part of the record and we 
hope you can summarize it in 5 minutes or less.
    Ms. Pelosi. By all means, Mr. Chairman. Thank you very much 
for the opportunity, once again, to return to this room which I 
love because I served in my first years on the Appropriations 
Committee here, so I always identify with that great transition 
from being a Member of Congress to being a member of the 
Appropriations Committee.
    Mr. Rogers. Well, we miss you.
    Ms. Pelosi. You are nice, and I love the jurisdiction of 
this Committee.
    Mr. Chairman, I know you have heard from many witnesses 
today so I will be brief, but available to answer any questions 
you may have.
    Thank you, again, for the opportunity to appear today to 
discuss several programs of importance. I appreciate your 
serious consideration of my request. I also appreciate your 
attention to these requests in past years and thank you for 
your past generosity.
    Mr. Rogers. Thank you.
    Ms. Pelosi. Radio Free Asia, I am very excited about this 
request this year because in the beginning we were coming in 
prospectively. Now we can talk about accomplishments. It is my 
understanding that the International Relations Committee has 
authorized $10 million for Radio Free Asia for fiscal year 
1998, and I respectfully urge you to fund this important 
program for hopefully the 10, but at least the $9.3 million 
contained in the Administration budget request. Radio Free Asia 
is an important resource for providing unbiased information 
into countries which restrict free flow of information.
    I am aware of concerns that have been raised about Radio 
Free Asia in the past, but the problems have been resolved and 
Radio Free Asia is well on its way to becoming a successful 
proponent in our struggle to promote democratic reform and 
basic human rights in certain countries in Asia, and I think, 
Mr. Chairman, you should take great pride in that because 
without your leadership and cooperation that would not have 
happened.
    Radio Free Asia began broadcasting in September 1996, is 
currently broadcasting in Mandarin, Tibetan, Burmese, 
Vietnamese and Korean and will begin broadcasting in Khmer and 
Laotian this spring.
    The transmission is reportedly good in many areas, 
frequently excellent in Tibet, jammed in Vietnam but still 
getting through in some places in that country and heard 
throughout China. I would note that His Holiness the Dalai 
Lama, visiting Washington this week, noted that Radio Free Asia 
is beginning to have an impact in Tibet, too, and he, too, 
listens to our Radio Free Asia broadcast. I will submit that 
for the record.
    Next, the Asia Foundation. Again, thank you for your past 
support to the Asia Foundation, which works to support 
democratic and economic reform in Asia. The Asia Foundation has 
only 40 years of experience, contacts and relationships 
throughout Asia, which put it in a unique position to promote 
U.S. policy interests in the region.
    The fiscal year 1997 funding level of $8 million represents 
a 50 percent cut in funding for the foundation. The 
authorization committee is considering a $10 million 
authorization and there is $8 million requested by the 
Administration. So, hopefully, at least that, but hopefully the 
authorizing figure.
    Again, Mr. Chairman, when we go in and try to have these 
newly emergent democracies enjoy the benefits of democracy so 
they don't slide back, it is important for foundations like the 
Asia Foundation, which help in establishing an independent 
judiciary, a democratic electoral system, et cetera, to help 
hasten the benefits of living in a democratic society.
    Back home the National Marine Sanctuary Program, I join my 
colleagues who have testified maybe earlier, or who will be 
testifying, about the importance of providing adequate funding 
for national marine sanctuaries and support the President's 
request for a $1.5 million increase in funding but authorized 
$15 million for the program.
    I also want to call your attention to a letter for your 
review by 18 Members of Congress for the recovery of the Coho 
salmon in California. In the interest of time, I will submit 
that for the record, Mr. Chairman, and call your attention to a 
number of fisheries programs funded by the National Marine 
Fisheries Service budget. I won't go into those because they 
are in the statement for the record--and I think I am 
approaching the end of my 5 minutes.
    I will take the remaining seconds to once again thank you 
for your leadership on this Committee, your past support of 
these programs and your attention to my request. Once again, 
thank you, Mr. Chairman, members of the Committee.
    Mr. Rogers. Thank you. Let me ask you: Is Radio Free Asia 
being jammed anywhere except Vietnam?
    Ms. Pelosi. Well, that is the only place that I have a 
report of. But I am sure there are attempts to jam it in China 
as well. They certainly have registered their concern about 
those broadcasts, but I will get that definitive information to 
you, Mr. Chairman.
    Mr. Rogers. Well, you are to be congratulated on your work 
on Radio Free Asia.
    Ms. Pelosi. Thank you.
    Mr. Rogers. I think you and John Porter, maybe a few 
others, have been the chief promoters of that project from the 
very beginning. And if anyone can claim any credit for it, you 
certainly can. And I certainly give you credit for it.
    Ms. Pelosi. Well, I appreciate your saying that. Certainly, 
Mr. Howard Berman and Mr. Gilman on the authorizing committee, 
and others, have been very helpful. But as you know, we had 
much more ambitious plans in the beginning. Instead by fiscal 
necessity we had to start small and hopefully Radio Free Asia 
would prove itself and then have the confidence of this 
Committee. And so some have asked the question, if you wanted 
so much money in the beginning, how can you possibly be 
accomplishing anything for this small amount?
    Well, different approaches, but successful nonetheless. 
And, again, thank you for your support, Mr. Chairman.
    Mr. Rogers. Well, thank you. Thanks for coming.
    Ms. Pelosi. I appreciate it. Thank you, Mr. Chairman.
    Mr. Rogers. We welcome you back to your Subcommittee.
    Ms. Pelosi. Thank you, Mr. Chairman.
    [The information follows:]

[Pages 75 - 83--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Rogers. Ms. Waters, we are glad to have you with us. 
Your statement will be made a part of the record. We hope you 
can summarize it in about 5 minutes or less.
    Ms. Waters. Well, thank you very much, Mr. Chairman. First, 
let me thank you for allowing me the opportunity to come today 
and testify before this Subcommittee. I know that you have 
tremendous responsibilities and numerous requests. I come to 
add to your challenge.
    I am here because I would like to focus the attention of 
this Subcommittee on what I think is America's number one 
problem. I really do not believe that our national security 
interests are what we thought they were just a few years ago. 
They are not that today, for sure. I think that we are more 
threatened by drugs, both by the trafficking of drugs, the fact 
that so many people are addicted, the crime that is associated 
with it, and I commend the administration for asking for more 
money to deal with this problem and I have worked very closely 
with them on this issue.
    Let me just share with you that the eradication of drugs in 
our society is the number one priority of the Congressional 
Black Caucus. We go even beyond where the Administration is in 
funding. Even though we support everything that they are doing 
and we want the increased funding, we think we need even more 
money. We are concerned about drug courts. We believe that the 
Clinton Administration's request for $75 million is certainly 
good, but we think it should be funded at an even higher rate 
at about $200 million.
    We believe it is important to have the kind of courts that 
can deal with diverting people from the criminal justice 
system; recognizing the difference between small-time drug 
dealers and those who may be addicted who can certainly be 
helped with the certain kinds of programs diverting them away 
from the system, helping to mainstream them and keep them out 
of the criminal justice system and the cost that is associated 
with that.
    That is not for the big-time drug dealers, this is for, you 
know, small-time drug dealers. We think that youth courts are 
extremely important. We believe that the youth courts certainly 
can be involved in serious diversion from the criminal justice 
system. The Administration requested about $16.5 million. We 
think, the Congressional Black Caucus thinks, we should have 
about $50 million in diversion. We think that it is impossible 
to continue to put more and more money into the prison system. 
Lock them up and throw the key away is not working and 
basically we cannot continue to divert more and more of the 
taxpayer dollars into the prison system. We have got to be 
about the business of prevention, diversion and rehabilitation.
    By the way, in speaking about courts, the Congressional 
Black Caucus will be making a trip to a drug court up in 
Brooklyn where we have read some very encouraging information 
about what they are doing and how successful they are being 
with the program of case management, et cetera.
    We also believe that drug treatment in our prison system is 
very important. The Clinton Administration has put in about $26 
million. The CBC would put considerably a lot more money into 
it to the tune of about $250 million if we had our way. We 
believe that once people are incarcerated that it is a very, 
very good time to work with them and to get involved with them 
on drug treatment and making sure that when they are returned 
to the streets that they are returned having broken the habit 
and all that goes along with what we understand about drugs and 
the whole drug problem.
    In summary, let me just say this, Mr. Chairman and Members: 
We are spending on prison funding over $200 billion, and I 
believe that most people would concede that it is not cost-
effective; that with ``three strikes and you are out'' and the 
increasing costs that we could keep on spending and spending 
and spending, but it is time for us to get involved in 
prevention and diversion in ways that not only that we are 
rehabilitating people, but we are saving the taxpayers money 
and doing the kind of prevention work that will really hold us 
in good stead in the long run.
    Basically, I have my testimony in writing here for you. I 
will submit it for the record and I thank you for the 
opportunity to testify today.
    Mr. Rogers. Thank you for your testimony, and your written 
statement will be made a part of the record.
    [The information follows:]

[Pages 86 - 87--The official Committee record contains additional material here.]


    Mr. Rogers. Let me just say quickly, this Subcommittee and 
the Congress have over the last few years appropriated more 
funds than the Administration wanted or requested for drug-
fighting, crime-fighting and the like. It has not been the 
Administration that has been--in fact, they have been holding 
back on--funding these programs. It has been this Subcommittee 
that has been leading the charge and giving more money for the 
drug fight, whether it be DEA or the FBI or the prisons or the 
courts, what have you. We have beefed that up enormously.
    The Administration is just not engaged in the teen drug use 
fight. That is where the big problem is now. The charts show 
that crime is down, so I do think locking up the criminals does 
work. Something is working right because we are cutting the 
overall crime rate, and even the adult drug use. The problem 
now is the skyrocketing of teenage drug use and even pre-teen 
drug use, that is, 9 and 10 year olds.
    I would like to see, and I am not being partisan here, and 
I have told everybody that has testified here from the Attorney 
General on down, that the President needs to use that bully 
pulpit more than he has. No one else has that. You and I don't 
have it, although you come close. But the President has the big 
microphone and he needs to lead by using that bully pulpit, 
particularly for teenage drug use, which is the big 
skyrocketing problem we have now.
    I would hope that you would use your considerable influence 
to make that happen. I think that one of the major goals of the 
Black Caucus, should be to politic the White House and the 
President to use their moral persuasion on teenage drug use, 
which is, as you know, skyrocketing, particularly in the inner 
cities. That would be a major step in the right direction.
    Ms. Waters. Let me just say this, Mr. Chairman: I am 
mindful of the influence that this Subcommittee has had, and 
let me just say the Republican Party in the last election did a 
darn good job of really hitting the President quite hard on 
this whole issue. And I do believe that they have heard the 
message, and I do believe that this increase that they have 
come in with is kind of a result of the work that you and 
others have been doing to have them pay attention.
    I do believe that we are all focused on the problem of 
increased drug use with our youth, and let me just tell you, 
Mr. Chairman, that even though there are problems in inner 
cities, I think the problem in the rural communities and in our 
suburbs is just as devastating. And let me tell you, while we 
have a crack problem, say, in some of the inner city areas, 
methamphetamines and some of the other drugs are skyrocketing 
in suburban areas and in the rural communities.
    That is why we have all got to be very focused and very 
concerned, and we have all got to use whatever bully pulpits we 
think we have. And I have no problems, as you know, saying that 
to you, President, God and country. You are absolutely right, I 
mean, I take the opportunity to try and communicate whenever 
and wherever I can. And so I am going to do my share, and that 
is why I am here today, to say let's all do what we can to deal 
with this problem, because I do think that our national 
security interests are at stake.
    Mr. Rogers. I agree with you.
    Ms. Waters. Thank you.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. No. Thank you.
    Mr. Rogers. Thank you very much for being here.
    Mr. Capps, did you want to make a quick return?
    Mr. Capps. Very quick, very quick. Thank you. I was here 
once before today and we had a nice discussion about prisons. 
But I am looking at that map of the Pacific Ocean area and of 
Asia and, you know, serving on the Committee on International 
Relations, I understand how critical the relationships are 
between the United States and the Asian countries, particularly 
China.
    I wanted to put in a good word for two institutions: First 
of all, the Asia Foundation, which does excellent work in this 
regard, supported by the Ford Foundation in part. And the other 
one is the East-West Center at the University of Hawaii in 
Honolulu. I can testify to the good work of both.
    Before I came here just a few months ago, the 33 years I 
worked as a University of California professor in the 
comparative culture, comparative religion field, I know these 
institutions at very close range. I won't take any more time, 
but I simply want to put in a good word for both because I 
think they do excellent work. Without them, we would not have 
the ability to train people in kind of cross-cultural 
consciousness, and it is the kind of education we need as we 
move into the 21st Century.
    Thank you, Mr. Chairman.
    Mr. Rogers. The Subcommittee has been funding these two 
programs for some time.
    Mr. Capps. That is good. Thank you.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. No. Thank you.
    [The information follows:]

[Page 90--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

    Mr. Rogers. Mr. Saxton. We welcome you. Your statement will 
be in the record, and we hope you can summarize in 5 minutes or 
less.
    Mr. Saxton. Thank you, Hal. First, let me just say that 
this Subcommittee has performed like a group of champs on the 
issues that I wanted to discuss today. As you know, I am the 
Chairman of the Fisheries Conservation, Wildlife and Oceans 
Subcommittee, and as such we have authorization 
responsibilities for the National Oceanic and Atmospheric 
Administration.
    I would again just like to say thanks for what you have 
done in the past, and probably what I am going to say here is 
information that you already have available to you, and I 
probably don't need to be here but I just wanted to mention a 
couple of programs. For example, $55.3 million for the Sea 
Grant program, is a level of funding which I think is probably 
going to be acceptable to the Subcommittee in terms of past 
performance.
    But the reason I wanted to come here today was just to say 
that the oceans are under a tremendous amount of stress, 
primarily because we human beings have found it profitable to 
take resources out of the oceans for profit, and that is fine. 
We eat the fish that are in the ocean, and other sea life forms 
have been very beneficial to us as human beings.
    But as a result of that, we have put a tremendous amount of 
stress, as is demonstrated by the New England ground fishery, 
which for all practical purposes has collapsed because we 
overfished it. We are now searching for ways to support the 
life forms that are in the ocean, to make use of them as a 
resource as best we can, and all of the information that we 
have and all of the decisions that we make have to be based on 
science, and this field of science, I believe, is in its 
infancy. So the Sea Grant program is one of the basic pillars 
that we use to try to gather more information, as is the 
National Undersea Research Program known as NURP.
    Coincidentally, earlier today we also held a hearing on 
something that is also quite important to commerce, that is, 
the charting of, particularly the near shore waters of the 
United States, which NOAA is also responsible for. Because of 
the technology that we have available to us today of various 
types of satellite-connected communication systems, we are able 
to use new technology to better map the ocean floors and pass 
that information along to people who use it, like people who 
drive ships.
    Unfortunately, there is a cost associated with upgrading 
this technology, and a cost associated with the constant 
necessity of remapping the ocean's floors. And so we are asking 
that you support an increase over the level of funding 
requested by the Administration for that.
    Finally, last year there was an appropriation of $785,000 
which went to study a very interesting situation in the 
Atlantic Ocean, the bluefish-striped bass relationship. In the 
early eighties the striped bass almost disappeared, and our 
committee passed a bill that was known as the Striped Bass 
Conservation Act of 1984.
    As a result of that, there has been a resurgence of the 
striped bass population. As the striped bass population surged 
and ate everything in the ocean that bluefish eat, the bluefish 
population declined and so we are trying to figure out the 
relationship between these two fish and their food sources. 
Rutgers University in New Jersey has set upon a very ambitious 
research plan to try to figure out this relationship, and so we 
are requesting $800,000 this year for that project.
    And that's it. Thank you very much for what you have done 
for us in the past, and we hope that you will continue these 
levels of funding.
    Mr. Rogers. We enjoy working with you as Chairman of the 
NOAA Authorization Committee, which is a big part of our bill, 
as you know, and we have enjoyed our working relationship with 
you and your committee and we look forward to continuing it.
    Mr. Latham, any questions?
    Mr. Latham. No, I don't. Thank you.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Saxton. They would have been tough questions.
    Mr. Latham. I just want to compliment the gentleman for 
explaining the relationship with the bass and the bluefish and 
what have you. I appreciate that.
    Mr. Rogers. Is it true that you want to do a psychoanalysis 
of the bluefish to find out why they are declining in the face 
of the bass ascension?
    Mr. Saxton. Actually we want to do a psychoanalysis because 
they have big teeth and when people go in the surf we are 
afraid----
    Mr. Rogers. Thank you.
    Mr. Latham. Thank you, Jim.
    [The information follows:]

[Pages 93 - 96--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. ROBERT E. CRAMER, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF ALABAMA

    Mr. Rogers. Mr. Cramer was scheduled earlier, and I think 
was on the floor managing a bill, so I am going to let him 
testify next. If you would come forward, Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Rogers. Your written statement will be made a part of 
the record, and we hope you can summarize it briefly.
    Mr. Cramer. I will be very brief. Thank you for this time, 
and thank you for taking me somewhat out of order because of 
the floor schedule.
    I want to talk again to you about the national network of 
Children's Advocacy Centers, the Children's Advocacy Center 
program that is part of the Victims of Child Abuse Act of 1990. 
In October of '96 the President signed into law the Child Abuse 
Prevention and Treatment Act, which reauthorized this program 
through the year 2000.
    Mr. Chairman and members of the Committee, in my prior life 
I was a prosecutor for 10 years, the elected district attorney 
down there in Alabama. We saw that children coming through the 
system were not getting the kind of open doors that they 
needed, and in some ways as important as that, that offenders 
were escaping through the cracks.
    So what we did was, we joined with communities around the 
country at the front line and, at a time when the child 
protective services system couldn't meet the demands of the 
investigations that were being pressed onto them, we formed new 
front line programs. It got the private sector involved in 
this, because most of the Children's Advocacy Centers that this 
program act speaks to are primarily funded from the private 
sector, but they involve the public agencies.
    The police, the sheriff's department, the prosecutors, the 
child protective service workers normally all work together 
through this program out of one designated facility, a program 
that they didn't have before. They interview children. They 
understand better what children are saying. When they confront 
offenders, they hold offenders accountable. This is a 
remarkable program.
    Now this national network of Children's Advocacy Centers is 
a membership organization. There are almost 150 members of the 
organization, another 75 associate members and another 150 that 
are eligible for membership. This program has grown 
tremendously. There is a national board associated with it. I 
think it is an effective tool for prosecutors, and I think it 
is an outstanding partnership, small partnership, between the 
Federal Government and the private sector as well.
    So I want to thank you for your past support. I wanted to 
give you a brief update that these programs are growing in the 
State of Kentucky, too. I think one of the employees is in Iowa 
right now doing a field program there. So they intervene in 
communities where the programs don't exist, telling those 
communities how they can do a better job and how they can have 
a program like this, as well. All of that comes through this 
seed money.
    Thank you very much.
    Mr. Rogers. Thank you, Mr. Cramer.
    [The information follows:]

[Pages 99 - 131--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. BOB BARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA

    Mr. Rogers. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Rogers. Your statement will be made a part of the 
record, and we hope you can summarize it in 5 minutes or less.
    Mr. Barr. I have no problem doing that, Mr. Chairman, 
because I know the Chairman and probably other Members of the 
Subcommittee are very familiar with at least some of these 
items. The CALEA item the Chairman is very well familiar with, 
having worked with us very closely on that last year. I have 
laid out in my submitted statements some reasons why there are 
some continuing problems with that that do need to be 
addressed. What I recommend there is to amend CALEA to change 
the effective compliance dates for carriers.
    The other segment of the four items, Mr. Chairman, that I 
respectfully bring to the attention of the Subcommittee does 
include monies, and that is to appropriate once again, as we 
did last year, $2 million for the commission, the Law 
Enforcement Commission which was authorized and mandated be 
formed in The Effective Death Penalty and Antiterrorism Act of 
1966. As the Chairman remembers, we studied that issue fully 
last year, provided the funding for it, even moved forward with 
the appointment of several members of the commission, including 
the person selected by the Speaker. Then, of course, 
unfortunately at the last minute, the funds were taken out by 
the Senate in the omnibus appropriations bill at the very end 
of the last session.
    As the Chairman full well knows, knows full well, the 
recent allegations, mounting allegations of improper activities 
in our government, in the Administration, including those by 
law enforcement agencies, not only do not diminish but 
highlight and increase the need for this commission, and I 
would strongly urge the Subcommittee and the Full Committee to 
again appropriate those monies so we can move forward with that 
much-needed commission.
    The third item, Mr. Chairman, concerns a very disturbing 
note that came about when we had the so-called drug czar, the 
head of the Office of National Drug Control Policy, General 
McCaffrey, speaking to our National Security Subcommittee of 
the Government Reform Committee a few weeks ago. In reading the 
so-called Administration strategy on drugs, I came across an 
item in there that the Administration, although professing on 
the surface to be against the legalization of marijuana, is 
proposing to spend money, and subsequently I have found out a 
million dollars that they want to use for that purpose. I would 
strongly urge us to prohibit any such monies that this Congress 
appropriates being used to study in any way, shape or form the 
legalization of marijuana or any other mind-altering drugs.
    Finally, Mr. Chairman, I have concerns about an issue 
regarding the domestic violence gun ban, the so-called 
Lautenberg amendment. The reason I bring that to the attention 
of this Subcommittee is because the original legislation, the 
so-called Lautenberg amendment that would prohibit gun 
ownership to anyone convicted of a crime of domestic violence, 
a misdemeanor, was enacted as part of the omnibus spending bill 
passed by the last Congress at the very end of the Congress. 
The Administration, unfortunately, has been enforcing that law 
unconstitutionally, unfairly, by making it apply retroactively.
    I have proposed through separate legislation that I would 
urge this Subcommittee to look at, to include in the 
supplemental appropriations bill, that would stop the 
Administration from enforcing this law retroactively. Again, 
the only reason I bring that to the Subcommittee's attention is 
because the original bill that gave rise to this problem was in 
the spending bill and this would provide, therefore, I think, a 
very appropriate vehicle to correct at least that aspect of the 
problem.
    Mr. Rogers. Well, I thank the gentleman for his testimony. 
The Treasury, Postal Subcommittee on Appropriations handled 
that issue last year, so you may want to discuss that with them 
as well.
    On the Law Enforcement Commission, as you know, we funded 
it and the problem was, of course, in the Senate and the 
Administration. So do you have somebody in the Senate that you 
can turn to to help out?
    Mr. Barr. We are trying.
    Mr. Rogers. That would be of critical importance.
    Mr. Latham.
    Mr. Latham. Nothing. Thank you.
    Mr. Rogers. Thank you, Mr. Barr. We appreciate your 
testimony.
    [The information follows:]

[Pages 134 - 136--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. CAROLYN B. MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

    Mr. Rogers. Mrs. Maloney, glad to have you with us. Your 
testimony will be made a part of the record, and you are 
welcome to summarize it within 5 minutes.
    Mrs. Maloney. Absolutely, Mr. Rogers. I hope to use much 
less time than that, and I thank you for this opportunity to 
testify before you.
    I am pleased to be here today to talk to you about the 2000 
census. The census is critically important to this Congress and 
to the American people. Yesterday in the Government Reform 
Committee we had a hearing on measuring race in the 2000 
census. It was clear from the hearing that many Americans look 
at the census as a portrait of our country. It is essential 
that we get the picture right.
    Mr. Chairman, I come before you to ask two things. First, I 
hope that you will fully fund the Department of Commerce 
request for the 2000 census. There are things that must be done 
in 1998 in order to ensure a fair and cost-effective count. 
Second, I urge you to leave the decision on sampling to the 
authorizing committee.
    Let me elaborate briefly on my second point. A census 
without sampling will be less accurate and more expensive than 
one which uses sampling. As you have often said, we cannot 
afford to repeat the mistakes of 1990. A census without 
sampling will repeat the mistakes of 1990.
    In 1990, 10 million people were missed by the census. A 
third of those missed were in rural areas. For people who do 
not own their own home, the undercount rate in rural areas is 
consistently higher than the rate in urban areas. In the West 
the undercount rate for rural renters was twice that for large 
cities, and in the East it was 6 times as large. A census 
without sampling will repeat these mistakes.
    In 1990, the census counted 6 million people more than 
once. The plans to make forms available in stores and 
libraries, as well as through the mail, will make duplications 
more likely. The integrated coverage sample is designed to 
eliminate duplications. Without sampling, the census will again 
overcount some areas.
    In summary, Mr. Chairman, a more aggressive counting effort 
supplemented by sampling will give us a census that is more 
fair to rural communities, urban cities and the poor. I thank 
you for this opportunity to appear before appear before your 
Committee.
    Mr. Rogers. Well, thank you very much. It is a complicated 
question, and you have raised some of the more troubling 
aspects of the 1990 census. Thank you very much.
    Ms. Maloney. Thank you.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. No.
    [The information follows:]

[Pages 138 - 139--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

    Mr. Rogers. We now welcome Mr. Silvestre Reyes. Your 
written statement will be made a part of the record. You are 
welcome to summarize it.
    Mr. Reyes. Okay. Thank you very much. I appreciate this 
opportunity, and I believe I will be well under 5 minutes, at 
least I hope so.
    Mr. Chairman, I appreciate the opportunity to appear before 
this Subcommittee today because one of my primary goals as a 
Congressman is to call attention to the unique needs of the 
Southwest border.
    As you may know, I spent more than 26 years with the United 
States Border Patrol, 13 of them as chief in the McAllen and El 
Paso sectors. I know from personal experience that the policies 
adopted by this Subcommittee and this Congress will have real-
life consequences for our constituents back home.
    Today I want to try to help you visualize what is going on 
along our border between Mexico and the United States. For 
instance, did you know that last year there were more than 280 
million border crossings? As you may know, several Federal 
agencies are responsible for enforcing our immigration and drug 
laws. This includes the Immigration and Naturalization Service, 
which includes the Border Patrol, the United States Customs, 
the Department of Agriculture and others.
    Approximately 14,200 Federal agents are responsible in one 
way or another for patrolling, inspecting, enforcing, 
interceding and implementing the laws that we pass in Congress. 
That is one Federal agent for every 19,700 people crossing our 
border.
    I think the recent vote to decertify Mexico was a perfect 
example of just how little we understand the border and how 
important it is to work as a region.
    Illegal drugs are readily available almost anywhere in the 
United States. We have not done enough to deter drug use among 
our Nation's children. Illegal drug trafficking is not just a 
Mexican problem. It is our problem. We need to work with Mexico 
and foster a cooperative relationship with our neighbors to the 
south.
    If we don't want drugs in our neighborhoods, we have a 
responsibility to stop them at our borders. I have been on the 
front line in the so-called war on drugs and I am here today to 
tell you that we must do more. I agree with the finding of the 
General Accounting Office in its report to Congress in December 
of 1994, when it stated that despite law enforcement efforts, 
the flow of drugs continues, and unless Border Patrol efforts 
become more effective, illegal immigration is expected to 
increase over the next decade.
    If we want to stop drugs from coming across the border into 
the United States and we want to stop illegal immigration, we 
have to give our agents the tools and leadership they deserve 
and need to do this job.
    Allow me to illustrate what I view as an unequal, 
unbalanced and unfair distribution of resources along our 
Southwest border. During the three-year period of 1994 through 
1996, the San Diego sector received 957 Border Patrol agents. 
During that same period, the five Border Patrol sectors in 
Texas received a total of 428 new agents. That is less than 
half the number of agents that California received. In fact, in 
1996 alone San Diego received the same number of agents, which 
was 428, that the entire State of Texas did for the three-year 
period.
    While I was chief in El Paso in 1995, I had to fight for 
the limited number of agents I received to support Operation 
Hold The Line, and then I received only 78 new agents when 
California received 229 agents. It is this type of unfair and 
unbalanced distribution that continues to concern me.
    While we all agree that there is a great need along the 
southern California border for resources, the geographic 
disparity alone demands that Texas receive more attention than 
it has. Texas has more than 1,200 miles of border where 
California has 140 miles. Texas has 1.7 agents per mile of 
border while California has 16.7 agents. We must do more to 
correct the disparity.
    For example, one Border Patrol sector in Texas has only 7 
pairs of night vision goggles for 407 agents.
    Congressman Bonilla and Congressman Skeen and I have been 
working to try to do more for Border Patrol sectors along the 
entire border in what we call the high technology force 
multiplier initiative. This includes the following: 
surveillance systems that are both manned and unmanned; command 
and control systems that give our agents a better ability to 
conduct their operations; nondestructive inspection systems 
that allow our inspectors to do a better job inspecting cargo 
coming into the border area; and targeting and sorting systems 
to assist inspectors in identifying vehicles or containers that 
are at high risk.
    Mr. Chairman, I would like to extend an invitation to you 
and your Committee to come to the border, and specifically to 
my district, so you can see for yourself how real the needs are 
that I have articulated to you this afternoon. The rest of my 
statement is in the record, and again I want to tell you that I 
appreciate the opportunity to be here this afternoon.
    [The information follows:]

[Pages 142 - 147--The official Committee record contains additional material here.]


    Mr. Rogers. Well, I appreciate your being here, and you are 
talking about a subject close to our hearts as well, and that 
is the protection of the border.
    I just want to say this: that your work down there at those 
posts in Operation-Hold-The-Line stopped illegal border 
crossings, not with more agents, but with smart deployment and 
smart uses of your resources while you were at that post, and I 
want to commend you and thank you for that work. We could 
certainly use your expertise as we try to find our way through 
the maze of getting more money out to the border to stop 
illegal crossings. We appreciate very much your testimony.
    Mr. Latham.
    Mr. Latham. Well, I wanted to say that may be one reason 
that the gentleman is here today, as we visited up at the 
retreat up in Hershey, and that is the main reason I am here 
today. You are shocked to see another person sitting here.
    Mr. Rogers. You are so civil, both of you are so civil. I 
knew there was some reason for it.
    Mr. Latham. But the conversation we had I thought, to me, 
was very interesting. We have been hearing a lot of testimony 
about some problems with the INS, and I would just ask you to 
maybe give an opinion from your experience as to the 
relationship with the Border Patrol and INS and whether they 
should be independent of each other. Any kind of feelings that 
way?
    Mr. Reyes. Well, thank you very much. And, in fact, 
yesterday I was asked to testify before the Judiciary--before 
Lamar Smith. Before I answer your question, I would like to say 
that issues like this, like border control, our ability to 
monitor our border, support of our agents, whether they are 
Customs, Border Patrol, INS or whatever, is not a Democratic or 
Republican issue. It is an American issue. It is an issue that 
is important to border communities.
    Mr. Chairman, I know you represent a district that is poor, 
like the districts that are on the border represent, and 
oftentimes we are the only option that people that do not have 
the resources or the recourse to influence in any other way, we 
are the only representation that can really truly make a 
difference.
    I said yesterday that I believe that, based on my 
experience, I think Border Patrol should be a separate entity. 
I think that--and this is from personal experience--I think 
that to ask our officers to serve in an agency that does both 
service and enforcement is unrealistic. It creates a tremendous 
amount of frustration in the ranks.
    One of the biggest concerns that I have and that I have 
seen, frankly, is that when you have an agency that has a blank 
check in terms of the resources, they will target those 
resources to the priority of the moment or the priority of the 
instant in terms of whatever is being considered, whether it be 
an issue of inspection, an issue of enforcement, an issue of 
naturalization, whatever that may be.
    That is why I think that we ought to look at two things: We 
ought to look at separating the Border Patrol out of INS and 
letting it become strictly an enforcement entity that has the 
responsibility for enforcing our laws in between the ports of 
entry. And then we also ought to look at consolidation of the 
three agencies that have responsibility at the actual ports, 
and that is Customs, INS and Agriculture.
    I think in this day and age, where we have obligated 
ourselves to do a better job in the way we spend resources, we 
owe our taxpayers an opportunity to be able to reorganize to do 
a better job, to be more effective but at the same time get a 
better result for the amount of money that we are spending on 
that border. I am convinced that we can do both.
    Mr. Chairman, you were very kind in mentioning that I was 
able to control the El Paso part of the border by just simply 
redeploying the agents, and you are correct. The biggest 
problem with that is we can do things like that for a short 
period of time, but we need a system of support that allows a 
Border Patrol chief or a Border Patrol district director the 
ability to be able to move people in and out so that they don't 
get burned out on just doing one thing, being stationary at the 
border.
    I intend to write up my ideas, and I would be pleased to 
discuss them with anyone that wants to know more about the 
issue. I think we can truly make a difference in the way that 
we control and manage the border. It is not about sealing the 
border. It is about doing a better job so that we can elicit 
cooperation from Mexico, so that they can participate in 
monitoring a 2,000-mile border where we traditionally have had 
friendly relations between our two countries.
    I am pleased to have this opportunity to come before the 
Committee, and I am pleased once again to answer your 
questions.
    Mr. Latham. We will certainly be in contact. We are right 
down the hall.
    Mr. Reyes. Thank you. We are neighbors.
    Mr. Rogers. I am very pleased that you appeared before us.
    Mr. Reyes. Thank you.
    Mr. Rogers. We learned a little bit here about your 
background, and I am solicitous of your advice because this is 
one of the most vexing problems that the country has, not just 
the Committee or the Subcommittee. INS is an agency that, I 
have said before, is out of control. We have got enormous 
problems, and you bring to us an expertise that I doubt we have 
anywhere on the Hill.
    Mr. Latham. That is right.
    Mr. Rogers. Mr. Latham, thank you for encouraging Mr. Reyes 
to testify.
    Mr. Latham. Thank you.
    Mr. Reyes. Thank you. And I will be pleased to, and 
available at any time.
    Mr. Rogers. I assure you we will talk further.
    Mr. Reyes. Thank you very much for the opportunity.
                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                               WITNESSES

HON. GEORGE W. GEKAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Rogers. We now welcome Mr. George Gekas and Mr. Wayne 
Gilchrest.
    Mr. Gekas. Mr. Gilchrest is on his way.
    Mr. Rogers. Your written statements will be made a part of 
the record, and we hope you can summarize them briefly.
    Mr. Gekas. Yes. Thank you. Just yesterday, the entire 
Nation saw TV coverage of the President over the flood areas in 
the West and Midwest, and where the President talked about the 
need for additional funds for that area. No area of the country 
ever shrank from the responsibility of helping the other 
disaster areas. I remember the West Coast, the earthquakes and 
all, every time we have had such a situation the Congress, the 
House and the Senate have responded and we funded emergencies, 
floods and earthquakes and other natural disasters.
    What we want to plead with you here is to, if you can, 
recall the 1996, just last year, devastation in the Susquehanna 
Valley in Pennsylvania. That was the worse that Pennsylvania 
ever had, and according to the National Weather Service, my 
particular area, where we had the Hershey retreat just a few 
weeks ago, that was the hardest hit in all of Pennsylvania and 
was the worst ever in history.
    The point, though, is that we know from previous incidents 
that the flood warning system that we put in place about 10 
years ago, and which is funded through the appropriations 
vested in your Committee, has on a cost efficiency basis saved 
millions of dollars and lives, and that has been documented.
    In fact, I just wanted to point out that the National 
Weather Service said, quote, the Susquehanna Flood Forecasting 
System Improvement Project has a cost/benefit of 1 to 8.6 based 
on flood damage reduction for the Susquehanna River Basin.
    Very few Federal expenditures can boast such dramatic cost 
effectiveness. So that if we follow the President's lead, who 
says that we have to have additional funds for the West and the 
Midwest where these flood damages are occurring, then we ought 
to be able to do some preventive cost assessment for the 
Susquehanna River Basin, so that if something untoward happens 
there we will have minimized the damage. That is why we would 
like to see a replication of last year's appropriations or an 
improvement thereon.
    I thank the Chairman and the Members.
    Mr. Rogers. We thank you for your testimony.
    Do you think that the curse that befell Hershey was a 
result of the efforts of Mr. Skaggs and others?
    Mr. Gekas. Well, no.
    Mr. Skaggs. The sequencing doesn't work, Mr. Chairman.
    Mr. Gekas. We got there afterwards.
    Mr. Skaggs. We were part of the restorative effort.
    Mr. Gekas. That is right.
    Mr. Rogers. Thank you for your testimony. Mr. Gilchrest.
    Mr. Gilchrest. I would just like to make a few points, Mr. 
Chairman.
    Number one, I think the efforts of the Members in Hershey 
were a positive feeling for the people of Hershey regardless of 
the flood. I think they got together and realized that we were 
working together for them, and in response to that bipartisan 
effort in Hershey they were sure we were going to fully fund 
this program of the National Weather Service, the Susquehanna 
River Flood Warning System. But just a few points.
    You have three Federal agencies involved in here, the U.S. 
Geological Survey, the Army Corps of Engineers and the National 
Weather Service, and these entities working together, I think, 
provide an enormous benefit to the people that live along this 
particular flood plain.
    If we looked at the flood that Mr. Gekas was talking about, 
the river in that region of the Susquehanna rose 8 feet in 10 
minutes. That is an 8-foot wall of water within 10 minutes. And 
that was as a result of dramatic weather conditions, a lot of 
snow, a lot of rain and a lot of warm weather inside of about a 
week's time frame.
    These are dramatic, unexpected events. But because these 
dramatic unexpected events do happen, it is, I think, the 
responsibility of government in some ways to anticipate and be 
able to predict, not only to save lives, but that is a premier 
thing here, but also to save property and to save money.
    The other thing is, the President had requested $619,000. 
If you consider that 10 percent of all of the major floods in 
the country occur in the Susquehanna River Basin, and they 
estimate that in order to complete the job you would need $1.4 
million, we are all under a tight budget, but if you see the 
dramatic events in Sacramento, in North Dakota, the things that 
have occurred year after year in the Susquehanna River Basin, 
it doesn't always necessarily get the same kind of coverage but 
to a large extent is just as dramatic.
    If government is going to provide this service and 
coordinate it among the different agencies and do it properly, 
then we just need to fund this program the way it needs to be 
funded.
    Mr. Rogers. We funded it at $1,000,000 in fiscal year '97.
    Mr. Gekas. Yes.
    Mr. Rogers. The Administration's request for fiscal year 
'98 is $619,000 for the NOAA part of the problem.
    Mr. Gekas. Yes. And that makes no sense in the context of 
what the President is saying, that we need increased funds for 
the flooding out where he was visiting yesterday, while we know 
that there will be future floods, perhaps next year, perhaps 
this spring yet, in the Susquehanna River Basin area. So we 
have got to protect against it.
    Mr. Rogers. Well, we appreciate your testimony.
    Mr. Latham, any questions?
    Mr. Latham. No.
    Mr. Rogers. Mr. Skaggs.
    Mr. Skaggs. No.
    Mr. Rogers. Thank you all for being here.
    Mr. Gilchrest. I would like to say it is good for 
agriculture, too.
    Mr. Latham. Thanks.
    [The information follows:]

[Pages 153 - 159--The official Committee record contains additional material here.]


                                          Thursday, April 24, 1997.

                          MEMBERS OF CONGRESS

                               WITNESSES

HON. JAMES A. LEACH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    IOWA
HON. ELIOT L. ENGEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

    Mr. Rogers. We now welcome Mr. Jim Leach and Mr. Eliot 
Engel. Your written statements will be made a part of the 
record, and we hope you can summarize them briefly.
    Mr. Engel. Thank you, Mr. Chairman. We haven't seen each 
other since Friday.
    Mr. Latham. Could I ask that Mr. Leach's daughter be able 
to sit up at the table, too?
    Mr. Rogers. That would be wonderful. She is welcome.
    Mr. Leach. If I could introduce my new legislative 
assistant, my daughter Jenny.
    Mr. Engel. I will introduce mine, my daughter Julia.
    Mr. Rogers. Why don't you have them join you up at the 
table. We would like to have them join you. Thank you very 
much. Glad to have you all here.
    Mr. Engel. Thank you, Mr. Chairman. As I said before, we 
haven't seen each other since Florida, and it was a pleasure 
being with you then. It is a pleasure being here now, and I 
thank you for the opportunity to testify.
    I am here to express my strong support for inclusion of 
funding for repayment of U.S. arrears to the United Nations, 
and Mr. Leach is here for the same thing, and we are joined by 
Mrs. Lowey and Mr. Shays in our working group.
    I strongly believe that meaningful, reasonable reforms need 
to be implemented at the U.N., and that U.S. funds must be used 
in the most efficient and effective way possible. I am, 
however, concerned that our massive outstanding debt to the 
U.N. has resulted in resistance to U.S. policies and may 
restrict our ability to promote American interests abroad.
    During U.N. Secretary General Kofi Annan's visit to Capitol 
Hill in January he expressed a willingness to work with the 
U.S. and implement reforms to establish a more effective U.N. 
As you know, of course, he was strongly supported by the United 
States in his position. His recent announcement that he planned 
to cut a thousand jobs from the U.N. Secretariat represents a 
significant step in this regard, and it is clear that he cannot 
accomplish these goals without U.S. support.
    The U.S. prevailed in its efforts to secure a Secretary 
General who we believe will tackle U.N. reform issues. Now we 
must work to assure that U.S. leadership in the U.N. is 
maintained and strengthened.
    I would also like to call attention to the recent 
announcement of a bipartisan coalition formed to promote 
repayment of U.S. arrears. Members of the coalition's board 
include all living former Secretaries of State, including 
William Rogers, Henry Kissinger, Cyrus Vance, Al Haig, George 
Schultz, James Baker, Lawrence Eagleberger, and Warren 
Christopher.
    Therefore, as co-Chair, along with Jim Leach, Christopher 
Shays and Nita Lowey, of our newly formed House U.N. Working 
Group, I urge you to strongly support necessary funding to meet 
our financial obligation to the U.N., and I thank you for your 
time.
    Mr. Rogers. Thank you for your testimony.
    Chairman Leach.
    Mr. Leach. Thank you. I recognize there is no committee of 
the House that has a more difficult time in allocating 
decisions than perhaps this one. In any event, it is my own 
view that the greatest leadership challenge for the next 
century in international affairs could well be in the 
multilateral arena.
    If we look at the last 5 years, never in such a short 
period of time for less reason has a particular country started 
to lose its leadership role than the United States has in a 
series of international fora, most particularly the United 
Nations. A reason, although not the only reason, relates to the 
fact that in the eyes of the rest of the world, the United 
States is unable in a very commonsense way to meet its 
international obligations.
    It is for that reason, among others, that I put forth a 
bill early in the session to repay our U.N. dues in full. I 
know there are different definitions of what the word "full" 
implies. But for the greatest country on the face of the earth 
and the wealthiest country on the face of the earth not to be 
able to meet modest obligations that are treaty obligated is an 
embarrassment.
    More importantly, I think it undercuts our national 
security. Even though it is true that many of these arrears 
relate to peacekeeping efforts that might not be considered the 
highest priority of every Member of Congress, it is also true 
the United States supported all of those peacekeeping endeavors 
in the Security Council, where we have the veto.
    It is also the case that even though not every issue is the 
highest priority of the United States, now and again very 
important issues arise. For example, if you take the Gulf War 
circumstance, one of the odd things that we in this Congress 
and we in this government do not talk about is that the Gulf 
War did not cost the United States taxpayer a dime. If we had 
had to go it alone, that would have been in the neighborhood of 
30 times the cost of our current arrears to the United Nations.
    We don't know when another Gulf War is going to arise 
again, but I hesitate to have a serious challenge come into the 
picture, and the United States attempt to get other parties to 
participate and share the pain, when we can't pay the penny 
ante amounts, not that exactly they are penny ante. It is in 
round terms $1.3 billion, some would say a little bit less, but 
on a yearly basis about a dollar per American citizen.
    The rest of the world is wondering about American 
leadership. I think we should be examining ourselves, and it is 
my hope that this Congress will step to the fore and step to 
the fore fully.
    And here let me just say there is a temptation to say, 
let's spread it out. That will be a very un-well received 
position around the world. It will be kind of like the worst 
case scenario: A, we pay up but, B, we pay out without keeping 
current. There is also going to be a temptation to only pay a 
part. Again you have the same phenomenon.
    So it is my view we ought to bite the bullet, accept our 
responsibilities, and lead instead of lag. Thank you.
    Mr. Rogers. We thank you, Mr. Chairman. Those are 
thoughtful words. This is an issue that we are wrestling with. 
We have a task force with the Senate and the Administration, 
that is trying to work out a sensible way to achieve the 
reforms that we have been seeking now for many years and are 
beginning to realize. So I think the process that we have gone 
through, although distasteful, has achieved a certain result, 
and we are on the way, I think, towards solving both reform and 
the arrearage repayment that everyone admits we owe. Anything 
else, gentlemen?
    Mr. Skaggs. Mr. Chairman, I made a point of coming up to be 
present for this last panel just in a very modest way to lend 
moral support, and I hope when we get to markup to lend 
practical support as well. I think the mission that you are on 
is a worthy one and in our profound national interest, and that 
is something we need to take very seriously. Thank you.
    Mr. Rogers. Thank you, gentlemen, for your testimony.
    Mr. Leach. Both of us want to thank you, Mr. Chairman. You 
are working very hard on this issue.
    Mr. Rogers. Thank you.
    Mr. Leach. And it is understood that you have a lot of 
difficult decisions to make. Thank you.
    Mr. Rogers. We appreciate your testimony, and we especially 
appreciate the legislative assistants that you have with you 
today.
    Mr. Engel. And so do we. Thank you.
    Mr. Rogers. The meeting is adjourned.
    [In addition, the following Members submitted statements 
for the record subsequent to the hearing:]

[Pages 163 - 221--The official Committee record contains additional material here.]


                                          Thursday, April 17, 1997.

                            PUBLIC WITNESSES

            INTERNATIONAL COMMUNITY CORRECTIONS ASSOCIATION

                                WITNESS

MARY SHILTON, NATIONAL CAPITAL AREA REPRESENTATIVE

    Mr. Rogers.  The committee will come to order.
    Good morning. This morning we will begin the Subcommittee's 
public witness hearings on the Administration's fiscal year 
1998 budget requests. We will have the opportunity to hear from 
interested groups and individuals on a variety of matters 
within our jurisdiction.
    We're on a rather tight schedule and we will need the 
cooperation of all of those who are testifying to adhere to our 
five-minute time limit for each witness.
    We will have the panel of lights on the witness table as 
you can see. These lights are a part of a timer which we will 
use to alert you when your time is running out and then when it 
is finally up. The yellow light will appear when you have one 
minute remaining. And the red light indicates that your time 
has expired.
    The only reason we have to use this is because we have some 
48 witnesses and we have to keep to their schedules. We will 
insert your full written statement in the record. You may use 
your allotted time to summarize your issues and to highlight 
specific requests to the Subcommittee.
    We want to welcome each of you here today. We thank you for 
taking the time in your own busy lives to share your time and 
your ideas with us. Our first witness is Mary Shilton of the 
International Community Corrections Association. You are 
recognized.
    Ms. Shilton.  Thank you.
    On behalf of the International Community Corrections 
Association, I wish to express our appreciation to Chairman 
Rogers and Members of the subcommittee for this opportunity to 
testify concerning the United States Department of Justice 
budget with respect to Community Corrections Programs.
    The International Community Corrections Association is a 
membership organization representing more than 1,500 
residential and non-residential programs and over 250 private 
agencies throughout the United States. Since 1964, our 
Association has been dedicated to providing information, 
training, and other services to enhance the quality of care for 
clients and to promote effective management practices.
    My comments focus on Federal activities critical to 
improving community corrections and intermediate sanctions. 
They include a wide range of options, including pre-trial 
supervision, probation and parole, intensive supervision, fines 
and restitution, forfeiture, impoundments, ignition interlock, 
community services, victim offender reconciliation, home 
confinement, electronic monitoring, day reporting, halfway 
houses, residential treatments and boot camps.
    To reduce the offender's rate of return to the criminal 
justice system, a variety of programs for services, including 
drug testing and surveillance, job training, job placement and 
parent training are also important components. Such services 
are critical because recent research and longitudinal studies 
show that offenders who receive such transition programs as 
education, substance abuse intervention, and job training and 
placement are much less likely to return to prison as 
recidivists.
    Many programs with components in improved community 
corrections such as the National Institute of Corrections and 
the Federal Bureau of Prisons Community Corrections Centers are 
worthy of sustained and full support of a requested 
appropriation and should be funded.
    However, some Federal programs such as those in the Office 
of Justice Programs are lacking in necessary authority and 
resources to improve community corrections. And I am therefore 
going to urge this Committee to consider some necessary changes 
at OJP.
    First, I would like to comment on the Federal Bureau of 
Prisons briefly. ICCA supports the Administration's request for 
halfway houses and costs contained in the budget for contract 
confinement. Most inmates serve the last few months of their 
sentence preparing for release in a halfway house or community 
correctional center.
    During this time, many offenders seek employment and 
reestablish family and community ties. Over the past several 
years, the Federal Bureau of Prisons has taken numerous steps 
to improve quality and availability of halfway house beds in 
Federal Community Correctional Centers.
    As of February 24, 1997, there were over 10,493 persons 
placed in these facilities out of a total Federal Bureau of 
Prisons population of 107,559. The Federal Bureau of Prisons 
under the leadership of Director Kathleen Hawk has continued to 
set the standard in the field for offender accountability and 
effective reintegration.
    The Federal Bureau of Prisons has coordinated regional 
training and conferences that include staff from the Federal 
Bureau of Prisons, as well as all of the Community Correctional 
Centers and States as well. Training is also available 
concerning essential services and new initiatives.
    The Federal Bureau of Prisons has played an important role 
in oversight and management of resources provided for CCC beds 
and home confinement. And this has enabled more offenders to be 
placed in Community Corrections Programs at half of the cost of 
a prison bed.
    Similarly, the offenders in CCC beds are moved to home 
confinement as soon as appropriate. I now need to move on to 
the Office of Justice Programs. We urge Congress to direct the 
Office of Justice Programs to include funding Research and 
Technical Assistance Grants related to Community Corrections as 
a part of the categorical and block grant programs administered 
by the Office of Justice Programs.
    Federal support for community corrections should be 
incorporated in any omnibus adult or juvenile crime 
legislation. The points that I wish to make are, first, we 
should expand the use of the Office of Justice Programs' Prison 
Construction Grants to include Community Corrections Programs.
    They now only include prison construction and do not 
include programming. They do not give States enough flexibility 
and there is a limitation on how much money can be used by 
locals which is 15 percent, which is too little. Secondly, they 
should restore and retain the Correctional Options Grants 
Program, which used to be an earmark and before that was a line 
item and was zeroed out in 1996.
    It has funded a lot of alternatives which, in the States 
where they were funded such as Washington and Maryland and 
Vermont, have included a number of cost effective programs. And 
I have run out of time.
    Thank you very much. I urge you to look very carefully at 
the OJP budget.
    [The statement of Ms. Shilton follows:]

[Pages 226 - 237--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. Your entire written 
statement will be in the record. Edward Harrison with the 
National Commission on Correctional Health Care. Welcome.

                              ----------                              

                                          Thursday, April 17, 1997.

            NATIONAL COMMISSION ON CORRECTIONAL HEALTH CARE

                                WITNESS

EDWARD A. HARRISON, PRESIDENT

    Mr. Harrison.  Thank you, Mr. Chairman.
    My remarks will be brief. Thank you for the opportunity to 
appear before you. The National Commission on Correctional 
Health Care is a not-for-profit organization based in Chicago 
which addresses issues related to health care within our 
Nation's jails, prisons, and juvenile confinement facilities.
    I'm here today to report on the problems of our work with 
the National Institute of Justice to study the health status of 
soon-to-be-released inmates; a study undertaken as a result of 
language included in the fiscal year 1997 Omnibus 
Appropriations Bill, and to encourage continued support for the 
National Institute of Justice efforts.
    Following the President's signing of the fiscal year 1997 
Omnibus Appropriations Bill into law last year, the National 
Commission and the National Institute of Justice entered into 
discussions on how best to proceed with the formulation of a 
strategic plan to initiate the national study of the health 
status of soon-to-be-released inmates.
    An agreement was reached among all parties to extend the 
initiatives, activities, and funding allocations into fiscal 
year 1998. Of the $1 million that was appropriated, $500,000 
will be made available in fiscal year 1997, with the remaining 
$500,000 available in fiscal year 1998.
    The need for this study is more important than ever. There 
are approximately 12 million releases from correctional 
facilities each year; most of them from city and county jails, 
but a significant number from State and Federal prisons.
    The growing population of inmates and the large number of 
releases each year place considerable pressure on the health 
care system within correctional facilities to diagnose and 
treat serious health conditions within this high risk 
population.
    Community resources are also challenged to meet the needs 
of these individuals once they are discharged from correctional 
facilities. Absent effective intervention, the released 
individuals pose a threat to the public health of the 
community.
    This threat arises from the potential for released inmates 
to spread communicable and infectious diseases to the free 
population, as well as the potential that their undiagnosed and 
untreated health problems will, over time, become a financial 
burden on the community health care systems.
    Additionally, undiagnosed and untreated disease pose a 
serious threat to the health and well-being of individuals 
either working or incarcerated within correctional facilities. 
Accordingly, the principal goal of the proposed research 
project is to identify the health status of soon-to-be-released 
inmates.
    Further, the project will quantify whenever possible the 
potential threat to the financial well being of the community 
from undiagnosed and/or untreated health and medical problems 
or a lack of needed continuity of care unreleased to the free 
world.
    An equally important goal is to provide sound data and 
options for policy development on how best to address these 
issues. Since last fall, the National Commission and NIJ have 
been meeting to discuss the study's goal and scope of work. The 
Director of NIJ, Jereme Travis, has made available senior NIJ 
staff to review research methodologies and advise on the 
preparation of the research proposal.
    It is anticipated that a cooperative agreement will be 
signed later this spring and that this study will begin 
immediately thereafter. We have targeted for our study the 
areas of communicable disease such as HIV, hepatitis, and 
tuberculosis, chronic illness such as diabetes and a part of 
cardiovascular disease, and mental illness.
    With the Committee's help the Commission is confident that 
we will be able to assist corrections administrators and health 
officials address the impact of health problems of soon-to-be-
released inmates. We will provide data that will assist 
Congress in developing effective strategies and policies.
    Mr. Chairman, that concludes my testimony. Again, I 
appreciate your continued support and opportunity to appear 
before you today.
    [The statement of Mr. Harrison follows:]

[Pages 240 - 245--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Congratulations on not seeing the 
red light. Mary Callaghan, Commissioner of Salt Lake County. 
Ms. Callaghan, we're glad to have you with us.

                              ----------                              

                                          Thursday, April 17, 1997.

                      SALT LAKE COUNTY COMMISSION

                               WITNESSES

HON. JOHN S. TANNER, U.S. REPRESENTATIVE FROM THE STATE OF TENNESSEE
MARY CALLAGHAN, COMMISSIONER

    Mr. Cannon.  It's a pleasure to introduce Ms. Callaghan, 
who is the Chairman of the Salt Lake County Commission. Salt 
Lake is suffering a dramatic increase in crime for a couple of 
odd reasons.
    In the first place, we've had a lot of population growth. 
In the second place, we have a court ordered limitation on the 
number of prisoners we can have in jail. As a result, we've had 
a big influx of illegal aliens. Eighty-three percent of our 
drug arrests last year involved illegal aliens.
    Half of our murders, and we've already surpassed the number 
of murders this year that we had last year and that's in part 
because we have a gang war going on between these lawless 
elements. So, we have a particular problem that Ms. Callaghan 
would like to address.
    Mr. Rogers.  Thank you for being here too.
    Mr. Cannon.  My pleasure.
    Mr. Rogers.  Ms. Callaghan.
    Ms. Callaghan.  Good morning, Mr. Chairman.
    We in Salt Lake County have been greatly dismayed over the 
past years to see the ever increasing numbers of illegal aliens 
committing serious crimes in our community. The majority of 
such crimes are drug involved which has repercussions 
throughout our community.
    As noted, you know the stats. I know that as of January 
1997 narcotics officers arrested 71 persons for drug dealing 
and possession with intent to distribute. Of these, 86 percent 
were illegal aliens. The Salt Lake County Jail is overcrowded 
and operates under a federally mandated cap on its population.
    And yes, we have investigated the legislation you passed a 
while ago. We do not qualify. This has left us at a greater 
disadvantage to illegal alien drug dealers who simply give us a 
false name and are released after a couple of hours because of 
the Federal cap.
    They typically return to selling drugs within hours. The 
drug gang, which is consolidating its power in Salt Lake, 
originates in the Mexican state of Sinaloa. They are well 
organized and violent.
    Salt Lake County is moving aggressively to deal with crime 
by constructing a new jail, hiring additional officers, 
providing more immediate detention space and on and on. But we 
cannot do our job if the Federal Government does not do its 
job.
    Illegal aliens are a Federal responsibility and heretofore 
the Federal Government has not met the challenge of rampant 
criminal activities by undocumented aliens in our community and 
in many others across this Nation.
    The INS recently assigned some additional staff to Salt 
Lake. This has increased deportation. However, it is 
insufficient. This only represents to date 12 percent of all 
undocumented aliens arrested for criminal activity in Salt Lake 
County. And we estimate there are 600 to 800 suspected 
undocumented drug dealers who are active currently in the State 
of Utah.
    Also, within the last month, local INS, in conjunction with 
our courts, has implemented a program to incarcerate 
undocumented aliens charged with a felony and allow them to 
plead guilty. In return, they waive immediate deportation. And 
this has allowed INS to bring in a bus weekly and deport.
    But even this improvement requires a minimum 60-day 
detention per person. While this is an improvement, we are 
still left with the problem of many illegal alien drug dealers 
being turned out of the jail in the first few hours before they 
can be identified because of the shortage of jail beds.
    We cannot deport criminals if we cannot hold them in a 
jail. The high amount of bail warrant is meaningless. Under 
your leadership, Mr. Chairman, the Justice Appropriations 
Subcommittee recognized the need to increase funding for 
detention capacity.
    As a result, the Justice fiscal year 1997 appropriations 
provided the INS with increased funding. We are concerned, 
however, that the INS has chosen not to follow a practice 
common in other Federal agencies such as the Federal Marshals 
Service in which contracts are made with local jurisdictions 
for renting detention space. In Salt Lake County Jail, for 
example, the Federal Marshal has the right of first refusal on 
75 beds. It would appear equitable that INS would do the same 
to relieve pressure on local law enforcement.
    INS has built large facilities in a few locations in other 
parts of the country. This works well once INS has transported 
the individuals. However, in the meantime, local jurisdictions 
are unduly burdened.
    It is also my understanding that the President's fiscal 
year 1998 budget proposal includes a new initiative for the INS 
to work with State and local governments in addressing the 
inadequacy of detention space.
    This new priority to State and locals to house criminal 
aliens would be more cost effective than building new large 
detention spaces elsewhere. Despite the foregoing successes, I 
suspect many others around the country remain woefully 
understaffed at INS offices.
    We need more interior INS officers. Once they pass the 
border, the crime is committed in our communities. Another 
problem in reducing the criminal alien population is that they 
are not identified when arrested. Currently, efforts are 
largely aimed at identifying criminals housed in the prisons 
but not at the point of arrest.
    The Interstate Criminal Alien Working Group created by the 
Bureau of Justice Assistance provides recommendations on 
reducing the criminal alien problem. And one of their primary 
recommendations is to enhance and expand the Law Enforcement 
Support Center which quickly IDs persons at the point of arrest 
via a common and assessable fingerprint data base. It is vital 
that we and other local jurisdictions have access to funding 
this.
    In summary, it is detention space, officers, and immediate 
identification. Our citizens should not have to endure this any 
longer and we ask for your help. Thank you.
    [The statement of Ms. Callaghan follows:]

[Pages 249 - 259--The official Committee record contains additional material here.]


    Mr. Rogers.  Commissioner, thank you and Congressman Cannon 
very much for being here. Last year the Congress recognized the 
problem of INS detention shortages. This Subcommittee provided 
$78 million more than was requested by the Administration for 
INS detention and deportation.
    We provided 2,700 more detention beds. That's 2,000 more 
than was requested. We recognize that this is still a major 
problem and we're trying to address it.
    Ms. Callaghan.  Yes, sir. We recognize that too and we 
realize that most of the beds went to large facilities in 
Denver and elsewhere. That doesn't address the local detention 
space. We need to hold them so they can be deported to those 
larger facilities and we don't have the space any longer to 
deport them.
    Mr. Rogers.  Thank you very much.
    Ms. Callaghan.  Thank you.
    Mr. Rogers.  Felice Levine, Chairman of the Executive 
Committee of the Consortium of Social Science Associations. 
Welcome.
                              ----------                              


                                          Thursday, April 17, 1997.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

                                WITNESS

FELICE J. LEVINE, CHAIRMAN

    Ms. Levine.  Thank you very much.
    It is a pleasure to be here again this year and have the 
opportunity to meet with you directly, Mr. Chairman. I am 
Felice Levine, as you've introduced me, the Executive Officer 
of the American Sociological Association.
    I am testifying on behalf of the Consortium of Social 
Science Associations, which we affectionately call CSSA, an 
advocacy organization supporting the social and behavioral 
sciences made up of 100 academic societies, professional 
associations, universities, and research institutes.
    I am a Member of the Board. I do chair the Executive 
Committee. And also, I am a social psychologist and my own 
research area has focused on the areas of law for some 30 
years. CSSA has one overarching recommendation, to combat crime 
at the Federal, State, and local levels.
    Sound policies and programs require a foundation of sound 
research. The two really go hand-in-hand. For this reason, we 
urge the Subcommittee to embrace and support the Research and 
Statistics Programs of the Department of Justice. Specifically, 
I want to focus on the National Institute of Justice and the 
Bureau of Justice Statistics.
    We appreciate very much this Subcommittee's continued 
interest in crime prevention and its support for research and 
data collection. Last week the National Institute of Justice 
sent to Congress a report based on a team of researchers at the 
University of Maryland. The report, ``Preventing Crime: What 
Works, What Doesn't, What's Promising'' is an exhaustive 
examination of crime prevention strategies. This study leaves 
no stone unturned.
    Yet, this NIJ supported evaluation also cautions that the 
effectiveness of programs cannot be truly known because of 
insufficient funding for quality independent research and 
evaluation.
    Through the generosity of this Subcommittee and set asides 
in the 1994 and 1996 Crime Acts, NIJ's funding levels have 
increased in recent years. However, most of this has gone to 
support NIJ's DNA and less-than-lethal technology programs.
    Unfortunately, NIJ funding for social science research has 
been minimal for several years. I urge your Subcommittee to 
invest in all aspects of criminal justice research and 
development.
    CSSA also supports legislation, House Resolution 10 and 
Senate 15, that provide the National Institute of Justice and 
the Bureau of Justice Statistics the capability to conduct 
research and collect data on juveniles as well as adults.
    It does not make sense to fragment the research enterprise 
into juveniles on the one hand and adults on the other. There 
is a much more seamless web in interaction between the life 
cycle. In revamping the Office of Juvenile Justice and 
Delinquency Prevention, therefore, Congress should not divide 
research and statistics by age groups. NIJ and BJS are the two 
scientific agencies of the Office of Justice Programs that 
should be carrying out the research, data collection, and 
evaluation of the programs without being encumbered by an 
attachment to operational programs.
    That independence is of critical importance. The increase 
requested by the Administration for NIJ will help pay for the 
expansion of two important initiatives. NIJ proposes an Arrest 
Drug Use Monitoring System to build a unique local capacity in 
the nation's 75 largest cities.
    Second, NIJ also proposes, based on recommendations 
congressionally mandated by the National Academy of Science on 
understanding violence against women, an extended initiative 
where NIJ can invest in research that is both multi-year and 
multi-issue in this very important area of violence against 
women.
    Also, the Bureau of Justice Statistics needs further 
support for the National Crime Victimization Surveys, BJS' 
largest single data collection, and I don't have to reiterate 
the important insights that that Office provides both with 
respect to crime and also the victimization experiences in 
America. BJS also maintains a wide array of statistical 
programs and supports criminal justice statistic capabilities 
in 38 of our States. Still, without increasing funding for BJS, 
we will continue to fail to provide the comprehensive data that 
policy makers and practitioners need to meet their many 
challenges. In conclusion, Mr. Chairman, we must devote more 
resources to a strong and balanced research and statistics arm 
of the Department of Justice.
    The cost of inaction is far too high to forsake investing 
in criminal justice research and statistics; a major investment 
today, like early money, can enhance the quality of life and 
produce real savings now and for our future.
    I appreciate your attention. I'd be pleased to answer any 
questions or yield to my colleagues the additional time.
    [The statement of Ms. Levine follows:]

[Pages 262 - 275--The official Committee record contains additional material here.]


    Mr. Rogers.  We thank you very much for your testimony. We 
now welcome Mr. John Calhoun, Executive Director of the 
National Crime Prevention Council.

                              ----------                              

                                          Thursday, April 17, 1997.

                   NATIONAL CRIME PREVENTION COUNCIL

                                WITNESS

JOHN A. CALHOUN, EXECUTIVE DIRECTOR

    Mr. Calhoun.  Thank you, Mr. Chairman. It is good to be 
here again.
    Mr. Rogers.  Welcome.
    Mr. Calhoun.  I'm head of the National Crime Prevention 
Council. I am here to share with you what your money has gone 
for this past year.
    Crime prevention does indeed work. In Boston, no juvenile 
homicides astoundingly in 22 months. In San Antonio, through a 
comprehensive initiative, including tougher truancy laws in 
addition to summer jobs, after school programs, and work with 
fragile families has reduced crime by 20 percent.
    In Salt Lake City, interestingly, a combined effort of 
police, social services, and family work has reduced crime in 
targeted areas. Mentoring works. The research from the Big 
Brothers and Big Sisters shows less delinquency. Juvenile 
restitution in New Hampshire, almost no reoffending.
    And a unique program in St. Paul combining law enforcement 
and social services has cut truancy and day time crimes. 
Prevention and enforcement are not antithetical concepts, but 
they are inextricably bound. The U.S. Attorney in New York told 
me, we get rid of the gangs and then there is a vacuum.
    And often more gangs or more trouble comes back. We've got 
to fill that vacuum with a vital caring community. Prevention 
starts, we feel, with the jurisdictions saying that nothing 
will change unless everybody is involved; police, churches, 
business, the media, kids all making a commitment. And we have 
seen crime drop.
    You funded us to be the focal point for crime prevention in 
the U.S. Our mission is to prevent crime and build communities 
in which kids can be kids and isolated fearful people can get 
out from behind locked doors and become reengaged as citizens.
    Your investment has been leveraged enormously. We've 
trained police, schools, and local leaders, thereby multiplying 
your investment locally. And we've run probably the most 
successful public service advertising campaign in history 
featuring McGruff and Scruff.
    Those response materials are both in English and in 
Spanish. If you turn this over, it's in Spanish too. It 
generates between $50 and $100 million worth of free public 
service advertising annually and it spurs local action. That's 
the key.
    We produce a wide variety of books, booklets, brochures. 
I've burdened your staff with them. I'm not going to burden you 
with them. I've just got a couple here today. A lot of it is 
reproducible, Mr. Chairman. This particular piece went out to 
the Nation's Governors, Attorney Generals, law enforcement, and 
schools. Fifty thousand of these went out; 800 million pieces 
were reproduced and disseminated by others.
    So, for every dollar from the taxpayer we figure roughly 
$500 is generated locally. We leverage our funding with other 
foundations, individual gifts, corporations, and we have a 136-
member Crime Prevention Coalition made up of most states, 
Governors, Attorney Generals, AARP, and Boys and Girls Clubs.
    That keeps us close to the field. And if we've got 
information that they like, they get it out to their 
constituency. We provide technical assistance across the 
country, New York, schools, the State of Iowa, and at crime 
prevention conferences.
    The Olympic Games asked us to get involved and we produced 
material for visitors in English, Spanish, and French; hundreds 
of thousands of those; to refugee communities, many of whom 
have fled repressive regimes are scared to death at the 
criminal justice community. A lot of their kids have gotten 
into trouble.
    To Oklahoma City for comprehensive programming, and on and 
on. Your investment we feel has yielded enormous results. Last 
year we received $4 million from you through BJA and $1 million 
for the highly successful Teens Crime and the Community program 
through the Office of Juvenile Justice.
    In that program, we asked junior high school kids to roll 
up their sleeves and partner with us in designing and running 
crime prevention projects, student courts, peer counseling, 
graffiti removal, and escort services. Saying to these kids at 
an impressionable age, be a part of us. We need you. Given your 
budget constraints, we are not asking for an additional request 
from this, but for the same as last year.
    And I deeply appreciate your support and that of the 
Committee because what you are funding is not only stopping 
crime and building communities. But I really think what you are 
doing is giving the American public hope. So, thank you very 
much.
    [The statement of Mr. Calhoun follows:]

[Pages 278 - 289--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    That is interesting testimony about the great work that you 
are doing. We appreciate it very much. We see your slogan out 
there, ``Take A Bite Out Of Crime'' quite frequently.
    I understand you've just completed work with an ad agency 
on a new public service announcement to deal with juvenile drug 
use. I just wanted to remind you that we are now seeing almost 
a record-breaking climb in teenage drug use, even sub-teens 
down to nine years of age in the country.
    Juvenile drug use is just skyrocketing. So, your work is 
cut out for you. Thank you.
    Mr. Calhoun.  Thank you very much, Mr. Chairman.
    Mr. Rogers.  We now welcome Mohammad Akhter with the 
American Public Health Association. Your written testimony will 
be entered into the record. You are invited to summarize it. 
Mr. Akhter is President of the American Public Health 
Association.
                              ----------                              

                                          Thursday, April 17, 1997.

                   AMERICAN PUBLIC HEALTH ASSOCIATION

                                WITNESS

MOHAMMAD N. AKHTER, PRESIDENT

    Mr. Akhter.  Thank you, Mr. Chairman.
    I am grateful to be here to have this opportunity to 
testify before you in support of the World Health Organization 
and the Pan American Health Organization funding.
    I would briefly like to make two or three comments. But 
before I do that I want to say that we are a membership 
organization. We have 55,000 members working all over the 
United States in all communities protecting the health of the 
people. We also house the World Federation of Public Health 
Associations in our organization.
    Today, I'm representing in addition to APHA, the American 
Nurses Association, the National Council on International 
Health, and the American Association for World Health. All of 
these organizations strongly support continued U.S. involvement 
in the World Health Organization and in the Pan American Health 
Organization, and the support of the budget.
    Mr. Chairman, the world has become too small. Almost 27 
million people from the Third World countries come to North 
America by air each year. There are over 30 different new 
diseases that we have identified, including HIV, to the Border 
Virus, to Mad Cow Disease.
    The world is becoming so small. People come back and forth 
and then as we learn, because our workers are front line 
workers, it's not possible to protect the health of the 
American people within our own borders without paying attention 
to what goes on outside because these dangerous viruses and 
bacteria know no boundaries. They are transferred. They go from 
one place to another.
    Therefore, it becomes very important for us to get involved 
early on so that we know what's happening in the rest of the 
world. We could anticipate and we can prepare ourselves to 
protect our people. So, this funding that we're requesting for 
the World Health Organization and the Pan American Health 
Organization is not foreign aid.
    It's not a subsidy to another country, but it is in fact 
protecting the health of the American people. And we want to 
make sure that we express our opinion as professionals in this 
regard because alone we can't do the job. We've got to join 
hands with other people to be able to do that.
    The second point, Mr. Chairman, I want to make today is 
that it is cost effective for us to participate in the World 
Health Organization and in the Pan American Health 
Organization. They worked together to eradicate smallpox. If 
smallpox was here today, we'd be spending a lot more money 
every year than we pay now to the World Health Organization, in 
our qualified assessment.
    Now, they are moving forward to eradicate polio. And when 
polio is eradicated, it is the estimate of the Centers for 
Disease Control in Atlanta that we'd be saving $230 million a 
year. It is a cost effective way of really doing the work and 
lets the whole world community get together and take care of 
the problem that is affecting us.
    Also, these organizations more recently, since 1993, have 
carried out management reforms. They've become a lot more cost 
effective. They have set up mechanisms. They have linked 491 
countries of the world together so that we have early warning. 
We can share technical assistance, and we can be ready to 
really, at a moment's notice, to take action to protect the 
health of our people, our Allies, and the rest of the world.
    It is very fundamental then to support an organization 
that's cost effective, that's prevention-oriented, and that's 
doing such a wonderful job. I have a booklet here of their 
report which I will be leaving for your staff to really look at 
it.
    I want to make my last point before the red light comes on 
and that is that we have an absolutely tremendous track record 
of being tied to the rest of the world in our economic, moral, 
and social context. We do business all over the place. Our 
people travel all over the world. We have a moral obligation to 
help other countries to prevent unnecessary, unneeded deaths 
and disabilities, especially among children.
    But we also have our economic and our defense-related 
interests. We need to know what's happening in the rest of the 
world. So, before we send our troops, we can be prepared. And 
at the same time, we need to be in a position that we look at 
the world leader leading the world. Mr. Chairman, I urge you to 
support and provide the leadership necessary to move the World 
Health Organization agenda forward, as well as provide the 
necessary resources so these two organizations can do their 
jobs.
    I thank you very much for this opportunity and I will be 
glad to answer any questions you may have.
    [The statement of Mr. Akhter follows:]

[Pages 292 - 301--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much for being with us.
    We will now hear from Merle Boyd, the Acting Principal 
Chief of the Sac and Fox Nation. Mr. Boyd. Welcome.

                              ----------                              

                                          Thursday, April 17, 1997.

                           SAC AND FOX NATION

                                WITNESS

MERLE BOYD, PRINCIPAL CHIEF

    Mr. Boyd.  Thank you.
    Mr. Chairman, I will be very brief. My concerns are in 
writing. There is nothing mysterious about them. The Sac and 
Fox Nation three years ago, through the Appropriations 
Subcommittee, did acquire some money to build a juvenile 
detention center.
    We made a commitment that we would build it in less than 
three years. We have accomplished that. It was dedicated on 
January 3, 1997. What I brought with me is the rendering of 
that juvenile detention center.
    It's a 69-bed unit with a 14-bed transitional living center 
that is now drawn in there. Today we have contracts with the 
State and we have a working agreement with the State to 
contract 12 beds to them. That's their immediate need for 
today. We also have one bed with the U.S. Department of Justice 
and we have one bed with U.S. Bureau of Prisons which is a 
total of 14 beds. Like I said, we have 69 beds in the juvenile 
detention center, and 14 in transitional living. We're needing 
to fill those due to a problem of a lack of appropriations to 
the BIA and to the criminal justice portion of their 
appropriations.
    They had no money to effectively put their juveniles in our 
center because of their CFR Courts. Tribal Courts face those 
same situations. And until we can get to a point to where those 
Tribes and the BIA, the Bureau of Indian Affairs, Department of 
Interior, can get the appropriations to house the people that 
will go through their Courts, then we must maintain it. And we 
must maintain it at the highest level.
    What we're asking for is $2.9 million to get us through an 
18-month period until at which time we hope we have contracts 
for at least 80 percent of those beds, plus the transitional 
living center. We are also asking consideration for $800,000 to 
develop a program within the juvenile system to go into the 
communities to address juvenile problems within our Indian 
communities as well as local communities.
    And you can tell by the presentation I've got here in 
writing, we do work with the State and we have worked with the 
State. We are one of the few Tribes in Oklahoma that have 
ongoing commitments with the State, contracts and memorandums 
of agreement. We have treaties with the State.
    We are working diligently with the State, but the State 
cannot fill our facility today. And they can't fill it for the 
next year or maybe two. They may never fill it. The one thing, 
our facility won a national award for the design of and the 
structure of that building.
    We are very proud of it, but we also want to make it a 
useful tool for our community and the State of Oklahoma. That's 
my presentation.
    [The statement of Mr. Boyd follows:]

[Pages 304 - 307--The official Committee record contains additional material here.]


    Mr. Rogers.  It is a very nice presentation. Thank you very 
much. We appreciate your being here. And congratulations on a 
very handsome facility. We wish you well.
    Mr. Boyd.  Thank you very much.
    Mr. Rogers.  Thank you. We now welcome Mr. Martin Avery. 
Mr. Avery is the Executive Director of the Navajo Nation.

                              ----------                              

                                          Thursday, April 17, 1997.

                             NAVAJO NATION

                                WITNESS

MARTIN AVERY, EXECUTIVE DIRECTOR

    Mr. Avery.  Thank you, Mr. Chairman. We are here from the 
Washington Office on behalf of the Navajo Nation and President 
Albert Hale to present our views and recommendations regarding 
fiscal year 1998 appropriations for the Departments of 
Commerce, Justice, State, Judiciary, and Related Agencies.
    The Navajo Nation is the largest Indian nation in America. 
And our reservation extends through Arizona, New Mexico, and 
Utah, with an area of 17.5 million acres. It is slightly larger 
than the State of West Virginia.
    Our unemployment rate, however, averages between 38 to 50 
percent depending on the season. Over 56 percent of the Navajo 
people live below the poverty level. Basic necessities of life 
taken for granted elsewhere in the United States are sorely 
lacking in the Navajo Nation.
    For instance 77 percent of our homes lack plumbing; 72 
percent lack adequate kitchen facilities; and 76 percent lack 
telephone services. Ironically, the Navajo Nation is considered 
one of the most prosperous Indian nations in the United States, 
but these conditions are through hundreds of Indian 
reservations throughout the United States.
    The nationwide Indian reservation unemployment rate is 
averaging 56 percent. The enactment of welfare reform marks a 
similar reversal of Federal entitlement policies that will 
greatly affect Indian nations. The rationale that ending 
welfare assistance will force people to work ignores the lack 
of economic development and subsequent employment opportunities 
on Indian reservations. America must acknowledge the grim 
reality on Indian reservations that there simply are very few 
jobs available.
    We have previously pointed out major barriers to economic 
development; most significantly, double taxation and the lack 
of infrastructure and economic development incentives that 
Congress must address before economic development opportunities 
can occur.
    Unless our needs are addressed in a coordinated 
comprehensive manner, the unemployment outlook will remain 
bleak. The Federal Government must abandon its piecemeal 
approach resolving existing conditions in Indian Country which 
history has accurately demonstrated simply does not work.
    However, the Navajo Nation does remain optimistic. 
President Albert Hale just recently called for the 
establishment of a Navajo Business Development Council in an 
effort to develop economic development strategies, including 
easing regulatory burdens, enhancing development incentives.
    We acknowledge that we must take a more aggressive role in 
addressing these economic conditions. In our written testimony 
we've outlined several appropriation requests directly related 
to enhancing economic development on the Navajo Nation. One 
project in particular holds great promise. The Navajo Nation 
through the Navajo Agricultural Products Industry recently 
entered into a letter of intent for two major food processing 
companies for the development of a frozen food plant that will 
create hundreds of jobs and boost the local economy.
    Critical to this endeavor is the enactment of New Mexico 
legislation that will limit double taxation by setting a 
maximum tax rate and the sharing of revenue between the Navajo 
Nation and New Mexico.
    It is this type of cooperation that is needed to encourage 
economic development and we will continue to explore some of 
the proposals. We are confronted with increasing crime which is 
attributed to these socioeconomic conditions such as high 
poverty, high unemployment, and alcohol and substance abuse.
    These conditions directly contribute to family violence, 
juvenile crimes, gangs, and related criminal activity. The lack 
of adequate resources directly affects the community and 
hampers the ability of Tribal law enforcement to effectively 
handle crimes.
    For example, within the last two years two Navajo police 
officers have lost their lives in the line of duty. Due to the 
lack of resources, many Navajo police officers are forced to 
patrol alone and they cover vast areas.
    On the Navajo Reservation, there is .93 officers for every 
1,000 persons, as compared to 2.5 officers for every 1,000 
persons at the national level. Response for a call for back-up 
averages about one hour. And that was the situation where 
Officer Jean Hosky responded to a late night burglary call. He 
was found beaten to death.
    We have major problems related to the lack of Federal 
funding which has resulted in some Navajo jails being closed 
because they have been deemed to be inhumane. Of course, that 
affects our ability to remove violent criminals from our 
communities. And it certainly does not deter criminal activity.
    Also, the lack of juvenile detention facilities and 
programs targeted towards juveniles pose similar problems. The 
Navajo Nation does not have a residential program, and has 
experienced an increase in juvenile crime and gang related 
activities, while 60 gangs have been identified on the Navajo 
reservation.
    Currently, there are only two detention centers in our 
reservation. And we can only house up to 61 juveniles. Last 
year, we were able to open a new detention facility. Anyway, in 
closing, thank you, Mr. Chairman.
    [The statement of Mr. Avery follows:]

[Pages 310 - 313--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. I appreciate your 
testimony. We now welcome Terrance Farley, Director of the 
Division of Criminal Justice and the New Jersey Attorney 
General's Office. Mr. Farley, we are pleased to have you.

                              ----------                              

                                          Thursday, April 17, 1997.

                  REGIONAL INFORMATION SHARING SYSTEMS

                                WITNESS

TERRANCE FARLEY, DIRECTOR

    Mr. Farley.  Thank you, Mr. Chairman. It is a pleasure to 
be here representing the RISS project today.
    There are a number of national law enforcement agencies 
represented both here in this room today and in the hall 
because of the tight quarters here, but they do have nationwide 
support.
    We point out that Congress has supported this program for 
the past 17 years, and it's become known in the law enforcement 
community as one of the most beneficial and successful programs 
Congress has ever funded. We thank you for that wisdom and 
foresight in creating and maintaining these programs.
    Throughout the years, Congress has recognized the continued 
impact of drug trafficking, organized crime, gangs, street 
crime, domestic terrorism, street gangs, and violent crime in 
the society and has demonstrated its knowledge at combatting 
these problems requires the combined and coordinated efforts of 
local, State, and Federal law enforcement agencies through the 
funding of the RISS projects.
    They are providing a unique method for law enforcement to 
share information on organized criminal groups and criminal 
activity on a multi-jurisdictional level. Just one example, 
over the three-year period from 1994 to 1996 the service that's 
offered by RISS and utilized by law enforcement have resulted 
in over 21,000 arrests in the United States and the seizure of 
large quantities of drugs.
    Millions of dollars of cash and property have been 
forfeited. In a 17-year period since the RISS project started, 
for every dollar that Congress has applied to this program, law 
enforcement officers throughout this nation have returned $62 
in contraband and assets for every dollar spent.
    In my mind, that alone is a good reason to continue with 
the funding and to increase the funding for this project. At 
the direction of this very Committee, in 1995 RISS was asked to 
join with the National Institute of Justice in continuing their 
work toward the electronic connectivity of RISS' intelligence 
database and NIJ's Technology Information Centers across the 
country.
    They met the increase in demand on their databases with the 
law enforcement community and established what is known as the 
RISS Wide Area Network. RISSNET, a centralized database, became 
operational just this past December and permitted the six RISS 
projects to electronically query each project's databases.
    The next phase, funding permitting, will be the 
establishment of the RISS intra-net, which is a secured network 
utilizing Internet technology with smart cards and perching 
multiple fire walls and will allow law enforcement to query or 
submit information directly to those databases.
    By doing what you've asked them to, law enforcement has 
unfortunately encountered additional financial obligations to 
keep this program in place. While they have not had any 
increased funding in the last seven years, their membership 
from 1986 to 1997 has increased from 1,000 agencies to 5,000 
local, State, and Federal law enforcement agencies which 
encompass over 300,000 sworn law enforcement officers.
    With that increasing strain on local and State budgets 
competing demand for revenues is essential in my mind and that 
support be continued and in fact expanded. As I believe you are 
aware, RISS is requesting a $25 million appropriation for 
fiscal year 1998 with no matching fund requirement.
    That full funding would allow RISS to offset inflation 
factors, permit membership growth, and increase Internet and 
law enforcement communications by enhancing the RISSNET 
application. I have had a lot of personal contact. I am a firm 
believer and avid supporter of law enforcement training.
    The International Association of Chiefs of Police, the 
National Sheriff's Association, the National Association of 
Attorneys General, the Fraternal Order of Police, the National 
District Attorneys Association, and virtually every other law 
enforcement agency in the country supports the funding for the 
RISS projects.
    Just coincidentally, next week my agency, the Atlanta 
County, New Jersey Prosecutor's office and the New Jersey State 
Police are having a conference that is co-sponsored by 
MAGLOCLEN, which is our regional RISS project, called 
Combatting Multi-Jurisdictional Crime in America. We expect 
over 700 sworn law enforcement officers to spend five days 
hearing that kind of information.
    In June of this year, one of the most important projects 
that MAGLOCLEN, which I deal with on a regular basis, has as 
their Gang Information Sharing Conference in Baltimore which 
co-sponsored by both ATF and the Baltimore PD. I think you get 
the picture, Mr. Chairman.
    This is a very, very worthwhile law enforcement effort. We 
seek your help in this regard. Thank you.
    [The statement of Mr. Farley follows:]

[Pages 316 - 337--The official Committee record contains additional material here.]


    Mr. Rogers.  I agree with you. It is a great outfit. That's 
the reason we funded it very generously under our leadership. 
Thank you very much for your testimony.
    Mr. Farley.  Thank you, sir.
    Mr. Rogers.  We are going to have a short recess. We have a 
vote on the Floor. I shall return shortly.
    [Recess.]
    Mr. Rogers.  The committee will be in order.
    We now welcome Mr. James Martin, the Chairman of the South 
Carolina Division of SEARCH. It's good to have you with us.

                              ----------                              

                                          Thursday, April 17, 1997.

                   SOUTH CAROLINA DIVISION OF SEARCH

                                WITNESS

JAMES V. MARTIN, CHAIRMAN

    Mr. Martin.  Thank you very much. Please do not hold me 
responsible for the weather.
    Mr. Rogers.  I'm sorry?
    Mr. Martin.  Please do not hold me responsible for the 
weather.
    Mr. Rogers.  Oh.
    Mr. Martin.  Mr. Chairman, I am Jim Martin. And I am from 
the South Carolina Law Enforcement Division. I'm a Major at the 
Division. And I appear here today in my role as the South 
Carolina representative of SEARCH, the National Consortium for 
Justice, Information, and Statistics; and also as Chairman of 
SEARCH as you've mentioned.
    I'm accompanied by Mr. Gary Cooper, SEARCH's Executive 
Director. Of course, I'm here testifying in regard to SEARCH's 
request for appropriations support for its National Technical 
Assistance and Training program in the fiscal year 1998 
appropriation for the Bureau of Justice Assistance within the 
Department of Justice.
    As you know, we have submitted testimony for the record. I 
would like to highlight that testimony. SEARCH, of course, is a 
non-profit criminal justice organization, and is dedicated to 
assisting State and local criminal justice agencies in 
combatting crime through the effective and responsible use of 
information and identification technologies. SEARCH is 
comprised of Governor's appointees from each of the 50 States, 
the District of Columbia, Puerto Rico, and the Virgin Islands.
    The National Technical Assistance and Training program is 
very unique. It provides, at no cost, assistance to all 
components of the State and local criminal justice system. This 
assistance primarily is to small and medium-sized agencies for 
the development and improvement of their computer systems and 
most importantly the integration of all types of criminal 
justice systems.
    The program not only helps State and local agencies work 
more effectively and efficiently through the use of advanced 
technologies, but it creates a foundation for a national 
information infrastructure for the entire justice system.
    During fiscal year 1997, the National Technical Assistance 
Training program is accomplishing the following: providing in-
depth technical assistance at SEARCH's National Criminal 
Justice Computer Laboratory and Training Center to literally 
hundreds of State and local criminal justice officials.
    It is providing on-site technical assistance to dozens of 
State and local criminal justice agencies. We also provide 
technical assistance by telephone to officials from several 
hundred criminal justice agencies in virtually every State in 
the nation.
    We are providing training to nearly 2,000 criminal justice 
officials throughout the country; developing and publishing 
practical criminal justice information, technical bulletins, 
and reference guides. SEARCH's on-site technical assistance 
customarily includes helping a State or local law enforcement 
agency establish an automated justice information system, and 
to evaluate the plans for migration of existing information 
systems, or you can help enhance, expand, or implement a 
computerized criminal justice records system.
    Let me briefly site some of these examples very quickly. In 
Hennepin County, Minnesota, for instance, SEARCH is providing 
long-term technical assistance by assisting justice agencies in 
their planning of a country-wide integrated justice information 
system.
    This involves the County Attorney, the Sheriff, Public 
Defender, Public Corrections, the Police Department there, the 
Supreme Court, and the Bureaus of Criminal Apprehension and 
Public Safety. SEARCH has been at the forefront of developing a 
national strategy for integration of justice information 
systems in order to reduce duplication, to improve the accuracy 
of justice information, and to promote information sharing.
    In Golden, Colorado, SEARCH is assisting the First Judicial 
Probation Department with the review of its entire current 
information technology. In Baltimore, Maryland, SEARCH is 
assisting the police department there in their records 
management and automation planning project. In Ohio, SEARCH is 
assisting the Ohio Bureau of Criminal Investigation in the 
establishment of a State-wide computer crime unit. In my home 
state, South Carolina, SEARCH is assisting the Department of 
Public Safety, Planning, and Grants Division in an assessment 
of a very unique national instant base reporting system.
    In Arizona, SEARCH is assisting the Supreme Court Office of 
Court Administration in a disposition reporting improvement 
project.
    In Humboldt County, California, SEARCH is assisting justice 
agencies to migrate from a main port frame computer environment 
to a client server integrated information system. These are 
just a few examples of SEARCH's involvement with every aspect 
of the criminal justice community.
    Since the establishment of the National Technical 
Assistance and Training program in 1986, SEARCH has trained 
over 18,000 criminal justice officials from every state. SEARCH 
trains at its National Criminal Justice Computer Laboratory and 
Training Center in Sacramento.
    On behalf of SEARCH, its Governor appointees, and the 
thousands of criminal justice officials, I'd just like to say 
that SEARCH is an organization that when a law enforcement or a 
criminal justice agency picks up the phone, they are not trying 
to sell anything. They're asking for assistance. Thank you very 
much.
    [The statement of Mr. Martin follows:]

[Pages 341 - 351--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. I appreciate your 
testimony.
    Let me remind the witnesses in the room, because we have 48 
witnesses today, we're going to have to move expeditiously. I 
hate to time you, but we do have a timer on the table. When the 
yellow light comes on you have one minute left. And we will 
have to ask you to confine your remarks to the five-minute 
rule. Thank you very much.
    Mr. Bernie Whitebear, the Executive Director of the United 
Indians of All Tribes Foundation. We're very pleased to have 
you with us.
                              ----------                              

                                          Thursday, April 17, 1997.

                UNITED INDIANS OF ALL TRIBES FOUNDATION

                                WITNESS

BERNIE WHITEBEAR, EXECUTIVE DIRECTOR

    Mr. Whitebear.  Good morning Chairman Rogers and Members of 
the Subcommittee. My name is Bernie Whitebear. I'm a member of 
the Colville Confederated Tribes in Eastern Washington State, 
and currently serve as the Executive Director of the United 
Indians of All Tribes Foundation, headquartered at the Daybreak 
Star Center in Seattle, Washington.
    I also serve as the Secretary of the National Museum of 
American Indians with which our project coordinates. I am here 
this morning requesting the support of this Subcommittee in the 
appropriation of $13 million to the Economic Development 
Administration, Department of Commerce.
    This appropriation will cover one-third of the $36 million 
construction cost to the People's Lodge to be located next to 
the Daybreak Star Center in Seattle's beautiful Discovery Park, 
which is a former military base.
    On April 26, 1994, I testified before this Subcommittee 
seeking funding for this project in fiscal years 1995 and 1996 
congressional budgets. Following that testimony, we were 
successful in being the only project listed from Region 10, 
Economic Development Administration, for special review in the 
Senate Report.
    Unfortunately, the EDA only awarded a $490,000 grant 
restricted to pre-construction planning only. Mr. Leonard 
Smith, the EDA Regional Director of Region 10, said it would be 
impossible to make an award of $13 million to a single project 
due to the competing applications and could only do so if the 
project was a line item in the EDA budget for Region 10.
    Let me give you a brief history of the efforts to develop 
the People's Lodge and why this facility is of such importance 
to our community. The United Indians first approached the 
United States Congress for the People's Lodge funding 
assistance in February of 1974.
    You have in the packet there a letter signed by the late 
Senator Warren Magnuson, Senator Henry Jackson, a number of our 
Congressional delegation that also included Congressman Tom 
Foley and Congressman Joel Pritchard.
    Congressman Pritchard, after having left Congress, was the 
Lieutenant Governor for the State of Washington, recently 
retired, and had his kick-off campaign in our Daybreak Star 
Center. We are very proud of that fact.
    Since we did not receive funding as early as 1974, we set 
about setting up a comprehensive service for education delivery 
system for the Native American community in Seattle, beginning 
with the birth of three developmental disability centers, early 
childhood, Head Start, kindergarten programs, Indian child 
welfare assistance programs, education centers for dropout 
students, the GED testing center, City Nine Bed Runway and 
Homeless Youth Group Home, employment assistance program, and a 
nutrition and transportation program for our Indian elders. 
Although much work remains to be done in these areas, and we 
will continue to do so, we also need to concentrate on the 
capital development and investments of our community and 
complete our 20-acre master plan.
    The People's Lodge, combined with the Daybreak Star Center 
can become the cultural, educational and economic Crown Jewel 
of the Pacific Northwest located in a major port city near 
major international airports and railways; a hub of over three 
million people and home to the largest urban Indian population 
west of Tulsa and north of San Francisco.
    Seattle is also gateway to the Lower 48, the Tribes in 
British Columbia, and the State of Alaska. The People's Lodge 
will be located in a population center of Washington State's 26 
Federally-recognized Indian Tribes within a one and a half 
hour's drive of half of the State's 100,000-plus Native 
American population.
    The 1990 Census demonstrates that 64 percent of the Native 
American population reside off the reservation. This is at a 
time when cutbacks in tribal allocation due to welfare reform 
will force more of their membership to travel to the cities in 
search of employment and educational opportunities.
    The People's Lodge will not only solve these problems, but 
it can be the beacon of light and a symbol of hope for the 
future and the recognition that Congress is willing to help 
those who have demonstrated such a strong commitment to helping 
their communities.
    Let me say also that Senator Mark Hatfield is in support of 
this project, along with Senator Ben Campbell, and Senator 
Inouye and Senator Ted Stevens made a site visit to the project 
in June of 1996 and we expect the support of the Senate. Thank 
you very much.
    [The statement of Mr. Whitebear follows:]

[Pages 354 - 365--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you, Mr. Whitebear.
    We now welcome Mr. Everett Egginton, the Executive Director 
of the International Center at the University of Louisville in 
the great Commonwealth of Kentucky.

                              ----------                              

                                          Thursday, April 17, 1997.

       ALLIANCE FOR INTERNATIONAL EDUCATION AND CULTURAL EXCHANGE

                                WITNESS

EVERETT EGGINTON, DIRECTOR

    Mr. Egginton.  Thank you very much.
    Mr. Chairman, I appreciate the opportunity to testify 
before this Subcommittee today in support of the Educational 
and Cultural Exchange programs of the United States Information 
Agency.
    I am Everett Egginton, Director of the International Center 
and the Center for Latin American Education at the University 
of Louisville. I'm a member of the National Association of 
State Universities and Land Grant Colleges, and I'm affiliated 
with the Association of International Education Administrators, 
NAFSA, and the Fulbright Alumni Association.
    I work closely with the Latin American Scholarship Program 
of American University. All of these organizations are members 
of the Alliance of International Education and Cultural 
Exchange on whose behalf I am speaking before you today. I am 
accompanied by its Executive Director, Michael McGarrett.
    All of us in the Alliance are concerned about the funding 
reductions which exchange programs have suffered over the past 
several years and fear the further reductions will jeopardize 
the value and effectiveness of these programs.
    We believe that the limited Federal funding provided for 
these programs to be extremely cost effective. According to a 
GAO report each of these dollars yields an additional $12 in 
private contributions for business, schools and universities, 
civic organizations, private individuals, and others.
    Our own State of Kentucky is an excellent example of the 
benefits in community partnerships that accrue from 
international exchange programs.
    In the past 11 years, the University of Louisville has 
received approximately $10 million to support long-term 
academic and short-term training programs for highly talented 
Central American university students, university educators, 
Bolivian school principals, Honduran school supervisors, 
Guatemala elections officials, and hospital supervisors.
    These programs have drawn on the expertise of our faculty 
in combination with community resources allowing the citizens 
of Kentucky the opportunity to advance American foreign policy 
goals by supporting democracy and educational reform overseas. 
The University, the region, and the State have benefitted 
immeasurably from the USIA Central American Program for 
Undergraduate Scholarships, CAMPUS.
    Since 1985, we have received seven grants that have brought 
to our campus and community 97 highly talented and financially 
deserving Central American undergraduate students for English 
language training and upper division undergraduate study 
leading to bachelors degrees.
    From Los Angeles to Miami, the presence of these young 
Central American students would hardly be noticed. In 
Louisville, Kentucky, they have changed the face of our 
university Campus and the greater community.
    They have formed extensive friendships among students, 
faculty, staff, and members of the community. These friendships 
have resulted in Kentuckians traveling in Central America and 
then a network of Central Americans coming to the University of 
Louisville for formal study outside the CAMPUS Program.
    All together, CAMPUS has brought approximately 800 Central 
American students to U.S. universities over 12 years. 
Invariably, after these talented young people return to their 
home countries, they take high profile positions in business, 
government, education, and other fields that enhance our 
nation's development and offer them opportunities to positively 
influence relationships with the U.S.
    The University has also benefitted from USIA's University 
Affiliation program that linked us with a small university in 
San Salvador. This partnership is a prime example of the way 
exchange programs with very small investment initiate 
relationships that continue to flourish long after Government 
funding has ended.
    We currently have numerous joint projects with UFG in San 
Salvador including a University of Louisville MBA Program 
offered there and collaborative work with the Salvadoran 
Ministry of Education. Just this week, a delegation of ministry 
officials is completing a two-week visit to the University and 
the Commonwealth to learn about our statewide school reform.
    They have used their own funds for this purpose. There are 
a number of other USIA-sponsored programs that have enriched 
the international understanding and engagement of the citizens 
of Kentucky too numerous to describe in these few minutes.
    The J1 Exchange Visitor program, Sister Cities 
relationships, Fulbright lecturing and research grants. These 
programs enhance our competitiveness at home and promote 
improved relationships abroad at the personal and governmental 
levels.
    Mr. Chairman, I and those I represent in the exchange 
community thank you for the opportunity to testify here today. 
We recognize the difficult task before this Subcommittee in 
attempting to meet the needs of a diverse array of interests. 
As my testimony illustrates, however, we believe strongly that 
international exchanges provide a tremendous return on our 
investment and serve our most important national interest.
    With you, we hope to preserve these programs so that 
Americans in communities throughout our nation will continue to 
reap the benefits of this highly cost effective form of public 
diplomacy.
    We urge you to fund the agency and its exchange programs at 
the highest possible level.
    [The statement of Mr. Egginton follows:]

[Pages 368 - 391--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Ambassador Edward Rowell, Vice President for 
retirees of the American Foreign Service Association. 
Ambassador Rowell, we are very pleased to have you with us.

                              ----------                              

                                          Thursday, April 17, 1997.

                  AMERICAN FOREIGN SERVICE ASSOCIATION

                                WITNESS

EDWARD M. ROWELL, VICE PRESIDENT

    Mr. Rowell.  Thank you very much, Mr. Chairman.
    It's a pleasure to be here. Sir, we've submitted a written 
statement. If it's all right with you, I'd just as soon give a 
brief oral summary.
    Mr. Rogers.  That's what I expect of you.
    Mr. Rowell.  Thank you, sir.
    I am Edward Rowell, a retired United States Ambassador. I 
am the Vice President of the Foreign Service Association 
representing retirees. The American Foreign Service Association 
is the professional organization of 23,000 American Foreign 
Service personnel; active duty and some retired. It is also an 
employee representative.
    The Foreign Service is overseas to promote American 
prosperity, enhance American security, and advance American 
values. My testimony focuses on our professional concerns. Sir, 
the world is a messy and intrusive place. We cannot escape or 
avoid its problems. They are coming at us from every direction.
    There are more countries. There are fewer restraints on 
those countries. Even small countries that we used to be able 
to ignore from time to time are more aggressive in promoting 
their interests. We have to be able to deal with that.
    In addition, there are new global problems that go on top 
of the old issues we dealt with. But the old issues haven't 
gone away. There are new problems such as the globalization of 
trade and investment. Either we shape the international trade 
game or we are its victims.
    I'm proud to say, for example, that when I was spotting 
opportunities for U.S. coal exports as Ambassador to Portugal, 
we landed some important contracts, but the competition was 
fierce. It came from Australia, from Colombia, from South 
Africa. You have to have somebody out there on the spot doing 
it.
    Environmental calamities and disease know no frontiers. 
Population growth and other kinds of calamities create mass 
migration. And we still haven't figured out how to stop people 
from trying to sneak into this country. Other countries share 
the same problem.
    Crime, terrorism, drugs, opportunities to consolidate 
democracy, and market economies dealing with arms 
proliferation, these are all now global problems that threaten 
Americans and threaten our welfare. The problem is that the 
major cuts in foreign affairs resources have crimped our 
ability and it has hurt us.
    For example, when we were trying to stabilize Haiti, we had 
to cut back on our help with Turkey which is a major actor in 
the Middle East. When we tried to help with our share of 
finance for Cambodia's first free election, we had to defer 
help for comparable activities in several other countries. To 
rescue refugees in Rwanda, we had to cut funds for democracy 
elsewhere in Africa where delivering those funds on time would 
have made a much bigger difference.
    We didn't have $2 million to back a ceasefire among the 
Kurds in Northern Iraq. Saddam Hussein took advantage of it. 
There was a followon U.S. military action that cost many times 
$2 million.
    When we diverted people to Bosnia, we had to take them from 
the group that's monitoring and pressing the implementation of 
the Agreement on Conventional Force Reductions in Europe, a 
major agreement intended to enhance stability in Europe and 
prevent downstream problems from affecting us.
    These are major issues almost of strategy. There is a host 
of smaller signals that demonstrate how our preparedness abroad 
has been eroded. And any one of them you would say, well, 
that's all right. You can fix that. But collectively, they tell 
us the system is broke and desperately needs money.
    For example, we have posts that get business opportunities. 
They have to send faxes to get American firms to pay the phone 
bill. A junior officer travels and he has to get a room from a 
foreign diplomat in order to be able to attend a conference.
    We have 40 women in the embassy in Kiev; two toilets and 
one of them was frozen all winter because they couldn't heat 
the building. These are the kinds of problems. The American 
Foreign Service Association strongly supports the 
Administration's request for a 4 percent increase. Frankly, we 
don't think it's enough. We think it just pays to heal some of 
the infrastructure problems. It doesn't deal with the mass 
personnel shortages that we're already suffering.
    We think they need to install a system of concrete 
measurable goals, improve their management in effect. We think 
they need to have a stable intake of people. And we say that 
the USIA public diplomacy function is woefully under-funded. It 
needs much more because democracy is spreading and we have to 
speak to publics. Thank you, sir.
    [The statement of Mr. Rowell follows:]

[Pages 394 - 404--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you, Ambassador. Thank you for your time 
and your interest.
    We now welcome David Dickson, of the Center for Marine 
Conservation.
                              ----------                              

                                          Thursday, April 17, 1997.

                     CENTER FOR MARINE CONSERVATION

                                WITNESS

DAVID DICKSON, DIRECTOR

    Mr. Dickson.  Thank you, Mr. Chairman.
    The Center for Marine Conservation appreciates this 
opportunity to share our views regarding the President's budget 
request for the marine conservation programs of the National 
Oceanic and Atmospheric Administration. CMC is committed to 
protecting ocean environments and conserving the global 
abundance and diversity of marine life.
    In general, we support the Administration's request for the 
marine conservation programs of NOAA as described under the 
agency's strategic plan goals: building sustainable fisheries, 
recovering protected species, and sustaining healthy coasts.
    Of particular interest are the marine conservation programs 
of the National Ocean Service and the National Marine Fisheries 
Service. We urge the Committee to also support these funding 
levels and to provide for the additional needs described in our 
written statement.
    We also strongly urge the committee to allow the NMFS 
Office of Protected Resources to do its job in protecting 
threatened and endangered sea turtles from shrimp trolls. We 
ask the Committee to cease requiring the agency to waste 
precious resources by engaging in unnecessary activities as 
Congress has done over the last two years.
    We also urge the Committee to take no action to impede NMFS 
from requiring the use of by-catch reduction devices in the 
Gulf of Mexico Shrimp Troll Fishery. This fishery should abide 
by the requirements of the Fishery Conservation and Management 
Act just as all other fisheries are required to do.
    The living marine resources of our public oceans are of 
extreme importance to our nation. NOS and NMFS have stewardship 
responsibilities for these public resources within the vast 
realm of the nation's coastal waters and the exclusive 
economics of those waters out to 200 miles off our shores.
    This is an area of approximately 3.4 million square miles. 
I have attached a map of this area to our written statement 
that shows its magnitude. Within the National Ocean Service, we 
urge the Committee to provide $15 million for the National 
Marine Sanctuaries Program.
    This is the level authorized last year by Congress. The 
President's request will not allow the program to meet its 
basic operational requirements. We recommend the Committee to 
fully fund NOAA's portion of the South Florida Inter-Agency 
Ecosystem Restoration initiative.
    The $3 million requested by NOAA is a small but important 
portion of the overall initiative. We urge the Committee to 
provide $4 million for the control of polluted runoff of 
coastal waters under Section 6217 of the Coastal Zone Act 
Reauthorization Amendments of 1990.
    This program has been unfunded for the last two years. The 
President has requested only $1 million for fiscal year 1998. 
Polluted runoff is the largest source of pollution to the 
nation's coastal waters. It affects public health and natural 
resources. The program has now reached a critical stage where 
adequate funding is absolutely necessary to ensure that the 29 
coastal states and territories have the resources needed to 
finalize their programs.
    Within the National Marine Fisheries Service for the 
Resource Information line item, we are concerned that it is 
underfunded in the budget request in light of the tremendous 
need for more timely stock assessments for marine fisheries and 
other living marine resources.
    For fisheries management activities, we support the 
Administration's request to implement the new requirements of 
last year's reauthorization of the Fisheries Conservation and 
Management Act. For the first time, our nation's principal 
Federal fisheries management legislation directly addresses the 
issues of overfishing, by-catch, and essential fish habitat.
    CMC appreciates the Administration's increase of $7.7 
million for protected species management, but this increase is 
inadequate. Therefore, we recommend the Committee provide an 
additional $9 million for the implementation of the Marine 
Mammal Protection Act.
    While CMC does not oppose the large increase for Pacific 
salmon, we are concerned that for the last several years, this 
issue has drawn the bulk of resources available within NMFS for 
Endangered Species Act plans.
    And the additional increases slated for whales and sea 
turtles are inadequate. We are also concerned about the 
Administration's cut for acquisition of data. It makes no sense 
to reduce days-at-sea of NOAA's research vessels when the 
agency is severely lacking needed information.
    In addition to the marine conservation programs of NOAA, we 
urge the Committee to increase funding for the independent 
Marine Mammal Commission. We urge the Committee to provide 
$1.535 million. A fully funded commission is a source of 
rational and constructive scientific advice on marine mammal 
protection issues.
    In conclusion, Mr. Chairman, it is our sincere hope that 
the Committee is able to find sufficient funds for these 
programs so that we don't have to try to construct an amendment 
when the bill comes to the House Floor. Thank you.
    [The statement of Mr. Dickson follows:]

[Pages 407 - 419--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you for your testimony.
    We have a vote on the Floor. So, we will have a short 
recess.
    [Recess.]
    Mr. Rogers.  The Committee will come to order.
    I apologize for the interruptions we're having. This is a 
busy day on the Floor, and we've been delayed by some things 
taking place today that we didn't expect. So, I apologize to 
those of you who are held up because of our schedule.
    We are pleased to welcome Gary Taylor, Legislative Director 
of the International Association of Fish and Wildlife Agencies. 
Mr. Taylor, you are recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

        INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

                                WITNESS

GARY TAYLOR, LEGISLATIVE DIRECTOR

    Mr. Taylor.  Thank you, Mr. Chairman for the opportunity to 
appear before you today to share with you the perspectives of 
the 50 state Fish and Wildlife Agencies on the fiscal year 1998 
budget request for the National Marine Fisheries Service.
    My name is Gary Taylor. I am the Legislative Director of 
the Association. Mr. Chairman, we sincerely appreciate the 
continued support of this Committee in providing funding for 
the National Marine Fisheries Service to advance objectives for 
marine fisheries conservation.
    You have, Mr. Chairman, the Association's detailed 
statement with specific budget recommendations. So, I will try 
to quickly summarize here what we believe should be some 
guiding principals in considering the NMFS budget.
    Programs which have opportunities for partnerships between 
Federal and State fisheries agencies and private organizations 
we believe should receive high priority. Improving the ability 
of Federal and State marine resource managers to act 
cooperatively will substantially enhance the overall management 
of our living marine resources.
    National fishery management objectives can best be met 
through these partnerships through programs such as the 
following: the implementation of the revisions to the 
reauthorized Magnuson-Stevens Fishery Conservation and 
Management Act to meet goals for research, data collection, and 
the ability of the Federal Regional Fishery Councils and the 
State and the Interstate Fishery Management Commissions to 
collectively conserve and manage marine fishery resources.
    We support the Administration's requested increase of $8.8 
million for implementation of the Magnuson-Stevens Act, which 
includes vital funds for the eight Regional Fishery Councils 
which oversee fisheries in the exclusive economic zone.
    We are seriously concerned about reduction in funds for the 
Interjurisdictional Fisheries Grants and recommend funding at 
the fully authorized level of $5.6 million, which includes 
funds for the three Interstate Marine Fisheries Commissions 
which coordinate fisheries management in coastal areas from our 
shores to three miles out.
    We believe the grants under the Anadromous Fish 
Conservation Act are underfunded and would support funding to 
the authorized level of $5.5 million. We also respectfully 
bring to your attention the Atlantic Coastal Fisheries 
Cooperative Management Act which was enacted by Congress in 
1993.
    Perhaps this is a prime example of how the Federal 
Government, State agencies, and Interstate Marine Fisheries 
Management Commissions can work together and actively in 
partnerships for the conservation of marine fishery resources. 
We refer you to our detailed statement regarding funding 
recommendations for this effort.
    There continues to be a critical need for fisheries 
statistics to enable Federal and State agencies to manage 
marine fisheries stocks to ensure there is viability and 
sustainability.
    This goes to the foundation of what the National Marine 
Fisheries Service is all about; research, data collection, and 
management of marine fishery resources and their habitats. For 
those marine stocks where population statistics are known, 23 
percent are overutilized and 34 percent are fully utilized.
    For other species there is simply insufficient data for 
fisheries resource managers to assess their status. We, again, 
make recommendations in our detailed statement on necessary and 
appropriate funding levels for these measures. We strongly 
support increased National Marine Fisheries Service funding for 
protected species.
    A variety of endangered species have placed increased 
demands on the National Marine Fisheries Service and the 
affected states to provide data, assessments, and recovery 
protocols for listed species.
    We strongly support the Administration's request for $20.2 
million for Endangered Species Act implementation and urge that 
$2 million be used for increased Section VI Grants under the 
Act to the states to facilitate joint Federal and State 
recovery efforts so that species can be recovered and de 
listed. We make further recommendations for funding to 
facilitate these efforts in our detailed statement.
    Finally, we continue to support funding matching grant 
efforts with the fishing industry under the Saltonstall-Kennedy 
grants program and recommend that their focus continue to be on 
by-catch studies and recovery efforts for depleted stocks.
    Thank you, again, Mr. Chairman for the opportunity to share 
our perspectives with you today.
    [The statement of Mr. Taylor follows:]

[Pages 422 - 427--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Mr. Fred Sherman, Executive Director for the 
Merchant Marine Academy Alumni Association.

                              ----------                              

                                          Thursday, April 17, 1997.

            U.S. MERCHANT MARINE ACADEMY ALUMNI ASSOCIATION

                                WITNESS

FRED S. SHERMAN, EXECUTIVE DIRECTOR

    Mr. Sherman.  Good morning, Mr. Chairman.
    Mr. Rogers.  Good morning.
    Mr. Sherman.  On behalf of the 26,000 United States 
Merchant Marine Academy Alumni, parents, friends, and mid-
shipmen, we thank you and your Committee for affirming the 
importance of the academy through its funding for fiscal year 
1997.
    There are two points I'd like to share with you today; the 
value of Kings Point graduates to our Nation and the need for 
capital maintenance funding. There continues to be a strong 
national need for Kings Point. As you know, there is a 
declining pool of licensed Merchant Marine Officers who the 
Nation can rely on to crew the Ready Reserve Fleet; the vessels 
needed for military activities in time of national emergency.
    The U.S. Transportation Command believes that by year 2005 
they will require half of the active deep sea mariners just to 
get the RRF vessels out of port. The best way for the Federal 
Government to ensure experienced, licensed ship officers are 
available to meet sealift readiness, is to exercise control 
through the United States Merchant Marine Academy.
    Kings Point supplies about 80 percent of the new personnel 
entering the Navy's Merchant Marine Reserve Program; the only 
pool of licensed officers subject to a Federal call to duty. 
Further, Kings Point is the only institution where every 
graduate has a U.S. Coast Guard Merchant Marine Officer's 
license, and Armed Forces Reserve Commission, and a multi-modal 
transportation or engineering degree.
    Mr. Chairman, in addition to providing officers for ocean 
going transportation, the USMMA provides highly skilled 
professionals for the inland waterways. As river transportation 
of coal, grain and petra-chemicals continue to increase, the 
importance of our waterways will increase as barges carry over 
300 billion tons of cargo annually on the 25,000 miles of 
marine highways.
    Kings Point graduates help to ensure that vessels operate 
on our inland waterways efficiently and, most importantly, 
safely. The USMMA is cost effective. As the least expensive 
Federal academy, the cost per graduate is 45 percent below the 
average cost of the other four Federal academies.
    Also, Kings Point's costs are significantly less than those 
of private colleges of comparable stature. Kings Point produces 
leaders. Based on Standard and Poor data, the United States 
Merchant Marine Academy ranks 18th, that's 18th, of all U.S. 
colleges in percent of graduates holding executive positions in 
U.S. industry.
    Now, I'd like to address why additional funding is needed. 
For the past three fiscal years Kings Point has been funded at 
slightly under $31 million. This level funding has forced the 
55-year-old academy to forego needed capital maintenance 
projects.
    Since necessary capital maintenance must be addressed, 
continued level funding in an inflationary environment will 
eventually impact academic programs. Mr. Chairman, the United 
States Merchant Marine Academy needs $35 million for fiscal 
year 1998.
    Funding at this level will allow the Academy to start badly 
needed capital maintenance programs such as replacing the 
original 55-year-old piping and other utility infrastructure 
and replacing the collapsing seawall and the pier area.
    Thank you, Mr. Chairman, for supporting the United States 
Merchant Marine Academy. I hope that you and your colleagues 
will visit the Academy and see first-hand this outstanding 
national educational asset. I'd be happy to answer any 
questions.
    [The statement of Mr. Sherman follows:]

[Pages 430 - 437--The official Committee record contains additional material here.]


    Mr. Rogers.  We appreciate your testimony. Thank you.
    Mr. Sherman.  Thank you very much.
    Mr. Rogers.  We now welcome Philip Glover, the Northeast 
Regional Vice President, Council of Prisons Locals.

                              ----------                              

                                          Thursday, April 17, 1997.

          AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

                                WITNESS

PHILIP W. GLOVER, NORTHEAST REGIONAL VICE PRESIDENT

    Mr. Glover.  Hello, Mr. Chairman.
    Mr. Chairman, my name is Phil Glover. I am the Northeast 
Regional Vice President, Council of Prison Locals, American 
Federation of Government Employees. I'm accompanied by Mr. T.J. 
Bonner, President, AFGE's Border Patrol Council.
    The Federal Prison System is overcrowded and understaffed. 
We have over 100,000 inmates in custody and approximately 
20,000 line employees for a ratio of one staff member to five 
inmates. Although all of our employees are correctional workers 
first, most carry dual responsibilities.
    For example, our accounting staff handle payments of the 
institution's expenses, but will be called upon to stand patrol 
or assist during special inmate counts. Our main challenge is 
during the 4:00 p.m. to midnight and midnight to 8:00 a.m. 
shifts.
    During these hours the staff to inmate ratios jump from one 
staff member to 100 to 200 inmates, depending on the design of 
the particular institution. We seek an increase in FTEs 
specifically for correctional officer positions. The Council of 
Prison Locals understands the dynamics at work today.
    We understand downsizing, reinventing government, 
elimination of agencies, and other difficult decisions. 
However, the Congress and the President continue to promote no-
frills legislation, more minimum mandatory sentences, and the 
concept of lock-them-up-and-throw-away-the-key.
    In the wake of taking away programs, recreation, and 
activities and trying to curtail or eliminate the Federal 
Prison Industries, it is our view that employees must be kept 
safe. Frankly, there is safety in numbers. This has not been 
addressed since the pendulum swing of removing amenities in the 
prisons.
    Staffing at the line staff levels must be increased in 
order to handle an increasing aggressive, angry, and idle 
inmate population. We do not believe it is your intention to 
endanger correctional officers when you remove activities for 
inmates from Federal prisons, but when you do so without 
increasing staff, that is exactly the result.
    In general, we are supportive of the President's proposed 
budget request for the Bureau of Prisons. However, there are 
several sections that concern our organization. The first is 
the increase to $63 million in contracting confinement. 
Although the prison budget is increasing overall to handle the 
escalating inmate populations, we are now paying more to 
contractors as well, instead of handling the work in-house.
    It also appears that the language in the President's budget 
under salary and expense funds gives the Bureau of Prisons wide 
latitude in contracting out our future work; something the 
Congress has continually opposed. The only Federal facility 
authorized by the Congress to privatize is Taft, California and 
only for a five-year pilot project.
    We would like the Congress to again stress the limitation 
of Taft, California as the only contractor operated facility 
and wait for the pilot project to run its course. We also 
oppose plans to place the Federal Prison Industries Factory 
into the Taft facility and any other Federal taxpayer 
assistance to the contractor.
    A $65 million prison has been handed over with equipment to 
a private corporation which is there to make a profit. It is 
appropriate to see whether the contractor can succeed in terms 
of both cost to the taxpayer and safety before expanding this 
initiative.
    We support the President's budget request for staffing 
level increases to 31,268 FTEs. However, we believe these FTEs 
should be targeted to line staff positions. Make the requested 
FTEs line staff positions and you will decrease the cost of all 
Federally-operated prisons.
    In fact, this is how most contractors show a cost savings 
compared to the government running the operation by decreasing 
mid- and executive-level management. In addition, the overtime 
budget has been decreased in the President's proposed budget. 
Institutions right now have expended their entire overtime 
budgets.
    Many prisons are now offering staff compensatory time to 
handle emergency medical trips, providing security at outside 
hospitals, and when sick leave or annual leave are being used 
by other staff. The overtime budget will need to increase with 
the continuing influx of inmates into the system.
    Border Patrol. By now, it should be abundantly clear that 
INS ``prevention through deterrence'' Border Patrol strategy 
has failed miserably. Illegal immigration is higher now than 
ever before. Even though the Border Patrol's work force has 
been significantly augmented, its effectiveness has been 
greatly diminished by the ridiculous tactic of stationing 
agents in fixed positions, allowing untold multitudes of 
illegal aliens to circumvent these agents without fear of 
apprehension. With fewer than 6,000 agents nationwide to 
monitor 6,000 miles of land border on a 24-hour basis, it is 
obvious that this strategy is not feasible. Since the 
Administration appears to be unwilling to voluntarily abandon 
this foolish plan, the Committee should direct the INS to do 
so. The one-year deferral of the $5,000 increase in the 
overtime cap should be overridden, as a large number of 
employees were forced during the last calendar year to curtail 
their overtime hours, negatively impacting the ability of the 
INS to carry out its mission.
    The language concerning the San Clemente and Temecula 
traffic checkpoints should be deleted. The continuing operation 
of these vital facilities should not be held hostage to 
unreasonable directives.
    We thank you for your time, Mr. Chairman.
    [The statement of Mr. Glover follows:]

[Pages 440 - 449--The official Committee record contains additional material here.]


    Mr. Rogers.  We now welcome David Flemming, the Assistant 
National Executive Director of Big Brothers/Big Sisters.

                              ----------                              

                                          Thursday, April 17, 1997.

                  BIG BROTHERS/BIG SISTERS OF AMERICA

                                WITNESS

DAVID FLEMMING, ASSISTANT NATIONAL EXECUTIVE DIRECTOR

    Mr. Flemming.  Thank you Chairman Rogers for providing Big 
Brothers/Big Sisters the opportunity to present testimony this 
year.
    I serve as the Assistant National Executive Director for 
Field Operations with Big Brothers/Big Sisters of America, a 
federated movement of 512 Big Brother/Big Sister agencies 
located in all 50 states, including nine in your home state of 
Kentucky.
    The Big Brothers/Big Sisters Program began in 1904 to 
provide one-to-one services to boys and girls in need of 
additional adult support and guidance. We currently serve an 
average of 100,000 children and their families a year.
    Mr. Chairman, as you know, our Nation's children face 
greater obstacles today than ever before; violence, substance 
abuse, and teenage pregnancy challenge youth service 
organizations such as ours.
    Big Brothers/Big Sisters of America, however, is working to 
meet that challenge by helping at-risk children to lead 
productive lives. The one-to-one program works as a strategy 
for supporting children at risk. According to Public/Private 
Ventures, PPV, they did a landmark impact study.
    They concluded that having a Big Brother or a Big Sister 
results in young adolescents being 46 percent less likely to 
begin using illegal drugs; 27 percent less likely to begin 
using alcohol; 52 percent less likely to skip school; more 
confident of their performance in school work, less likely to 
hit someone, and getting along better with their families.
    PPV's research found that it was BBBSA's trademark approach 
to mentoring that made these one-to-one matches such a powerful 
force for influencing children's behavior. We offer positive 
broad based programs that focus less on specific problems after 
they occur and more on meeting these most basic developmental 
needs.
    As a result, children do better at school and at home and 
avoid violence and substance abuse at a pivotal time in their 
lives when even small changes in behavior or choices made can 
change the course of their future.
    Big Brothers/Big Sisters played the lead role five years 
ago in the drafting of legislation which has encouraged the 
development of mentoring relationships through the 
establishment of programs linking children in high crime areas 
with law enforcement officers and other responsible adults.
    This program which is known as JUMP, a juvenile mentoring 
program, provides local educational agencies and non-profit 
groups with the opportunity to compete for grants to implement 
juvenile mentoring programs.
    The funds may be used to hire mentoring coordinators and 
support staff to recruit, to screen, and train adult mentors, 
and to reimburse mentors for service related expenses. In 1995, 
the Department of Justice awarded the first JUMP Grants to 41 
sites. Just last week they announced and awarded 52 more 
grants. There are now 93 JUMP sites in 34 states. These two 
announcements represent a good start, but when only 40 or 50 
out of the more than 400 or 500 applicants are awarded grants, 
tens of thousands of kids are left unmatched.
    The problem, Mr. Chairman, is funding. Continued funding 
for JUMP will provide these other 400 organizations with the 
opportunity to start JUMP programs. Since mentoring programs 
work through the efforts of volunteers, the funds necessary to 
have a far reaching impact are relatively modest.
    Fiscal year 1998's funding request for JUMP is $20 million. 
We are aware that Congress and the Administration are in the 
process of reauthorization of the Juvenile, Justice, and 
Delinquency Prevention Act. BBBSA has requested and will 
continue to advocate the preservation of JUMP.
    In addition, we are asking that JUMP authorization be 
broadened to include the authority to provide training and 
technical assistance to JUMP sites.
    Over two years ago, Big Brothers/Big Sisters and other 
members of the National Mentoring Coalition, a collaboration of 
a wide range of mentoring programs, approached OJJDP to express 
our concern about the lack of training and technical assistance 
that was being provided to JUMP grantees. PPV's impact study 
showed a clear need for organizationsundertaking mentoring for 
the first time to develop the policies and procedures that are required 
to operate an effective mentoring program. OJJDP has continued to 
maintain that authorization for the JUMP program.
    The mentoring community realizes that this is the 
Committee's focus. We will be getting more bang for the buck. 
The PPV's study provides that JUMP is the type of innovative 
and effective program which has the potential to make a great 
positive impact on our Nation's youth with a small investment.
    Dollars for mentoring may come in small amounts but they 
provide real hope for the future of America's youth who, after 
all, are our most important resource. In so many ways, JUMP is 
a wise investment.
    Mr. Chairman, BBBSA thanks you for the opportunity to 
present testimony to this Subcommittee.
    [The statement of Mr. Flemming follows:]

[Pages 452 - 457--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much for presenting your 
testimony. We appreciate it.
    We are running quite a bit behind, so we are going to have 
to take a lunch break.
    I also have an engagement I have to attend. We will resume 
at 1:45 p.m. I will ask if you were scheduled to testify at 
this morning's session, please come back at 1:45 p.m. and we'll 
get right to you. Thank you very much.
    Mr. Rogers.  Good afternoon. The Committee will come to 
order.
    We will now hear from Traci Miller, Chair of the West 
Virginia Court Appointed Special Advocate Association Network. 
Ms. Miller, we are happy to have you with us.

                              ----------                              

                                          Thursday, April 17, 1997.

         NATIONAL COURT APPOINTED SPECIAL ADVOCATE ASSOCIATION

                                WITNESS

TRACI MILLER, CHAIRMAN

    Ms. Miller.  Thank you, Mr. Chairman.
    Good afternoon. I'm Traci Miller and I represent the 
National CASA Association of more than 700 State and local CASA 
programs across the nation. I am also the Chair of the West 
Virginia CASA Network. I operate the Randolph County CASA 
Program in Elkins, West Virginia.
    I appreciate this opportunity to appear before you to 
request $7 million in funding for the CASA Program. This is the 
amount authorized by Congress for CASA in fiscal year 1998 
under the Victims of Child Abuse Act, which is funded by the 
Crime Trust Fund.
    It is also the amount recommended by the Administration in 
its fiscal year 1998 budget. This funding supports the training 
and technical assistance provided by the National CASA 
Association, as well as the grants program to establish or 
expand State and local CASA programs throughout the country.
    Figures released by the Department of Health and Human 
Services in 1996 reveal that substantiated cases of child abuse 
and neglect have increased 27 percent since 1990. What's more, 
nearly half of these cases are very young children less than 
six-years-old, and then another quarter of the children are 
under the age of three.
    CASA are citizen volunteers who help the juvenile and 
family courts judges deal with the difficult and very expensive 
increase in these abuse and neglect cases. The volunteer is an 
independent voice focusing on exclusively what is in the best 
interest of the child. CASA handles just one or two cases at a 
time. So, they can give each child's case the sustained 
personal attention that it deserves.
    The volunteer reviews records, researches information, and 
talks to everyone involved in the case before making a 
recommendation to the Court about the child's future. The CASA 
remains on the case until it's resolved and acts as a child's 
tenacious advocate for a home safe from harm.
    Let me tell you a true story. Ruth was a CASA volunteer 
assigned to the case of two toddlers, ages one and nearly 
three. Before Ruth received this case, these toddlers had been 
placed in separate foster homes and then bounced into six 
different foster homes over a period of months.
    When Ruth received this case as a foster volunteer, she not 
only succeeded in having the young children placed together 
into a really, really wonderful foster home, she moved the case 
along so that a final adoption was able to be realized by the 
same foster parents that they had originally been placed with.
    I personally know these children and the difference in the 
two children is amazing. The joy on their faces speaks a 
thousand words. Whenever I become frustrated as a CASA 
Director, the images of these two young children in a safe 
permanent home keep me going. Today, there are nearly 40,000 
trained CASA volunteers like Ruth who work both in large and 
small communities across our nation. One advantage of CASA, 
because it's a program of citizen volunteers, is that these 
funds that are invested deliver a quick and impressive return 
in terms of the number of children served.
    Today, I'm pleased to report to this Subcommittee the 
results of a completed grant cycle for which funding was 
appropriated in 1994. The number of volunteers among the 
grantee programs increased by 55 percent. As a result, 4,000 
more children were served, which is a 60 percent increase.
    It is also of value to know that these CASA programs that 
received this funding have been successful in leveraging their 
grant funds to secure private funding. The congressional 
appropriations represents about 8.5 percent of the overall 
funding that CASA programs receive today.
    One of the strengths of the CASA Network is that the core 
notion of individual citizens speaking up for a child works in 
different court systems under distinct State laws in very 
diverse communities.
    National CASA recognizes the importance of this flexibility 
in its standards that it has established with the goal of 
providing an expanding quality representation of children 
through well managed CASA volunteer programs and well trained 
volunteers.
    This Congress is investing a great deal of its attention 
and resources in dealing with youth violence and juvenile 
crime. An investment in CASA will definitely help these 
efforts. By keeping a child's life on track before delinquency 
and violence has a chance to take root, the government and 
society as a whole can receive substantial long-term savings.
    A 1991 study found that children who suffer abuse and 
neglect are 53 percent more likely to become juvenile 
delinquents; 38 percent more likely to be arrested as adults; 
and 38 percent more likely to become violent criminals. When 
CASA's involvement in a case reduces this delinquency in 
placement, the cost of representation with one child will have 
paid off 40 times over.
    We respectfully request the continuing support of this 
Subcommittee to expand volunteer representation in fiscal year 
1998.
    [The statement of Ms. Miller follows:]

[Pages 460 - 465--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    Ms. Miller.  Thank you.
    Mr. Rogers.  We now welcome Mr. Raphael Bill, Commissioner 
of the Columbia River Intertribal Fish Commission.
    Let me remind you that your written statements are already 
in the record. And you are invited to summarize them in four to 
five minutes.
                              ----------                              

                                          Thursday, April 17, 1997.

               COLUMBIA RIVER INTERTRIBAL FISH COMMISSION

                                WITNESS

RAPHAEL BILL, COMMISSIONER

    Mr. Bill.  Good afternoon, Mr. Chairman.
    On behalf of the Columbia River Intertribal Fish 
Commission, thank you for the opportunity to present our views 
on the fiscal year 1998 budget of the National Marine Fisheries 
Service.
    My name is Raphael Bill. I'm a member of the Fish and 
Wildlife Committee of the Confederated Tribes of the Umatilla 
Chapter Indian Reservation and a member of the Columbia River 
Intertribal Fish Commission. The Commission was formed by a 
resolution of the Nez Perce, Umatillas Warm Springs, and Yakama 
tribes for the purpose of coordinating the fisheries management 
policy.
    The Commission believes that those portions of the NMFS 
budget dealing with salmon fisheries management and 
enhancement, like the Mitchell Act hatchery program deserve 
careful review of this Subcommittee. The Tribes support funding 
only the portions of the Mitchell Act program directed at 
restoring the national productions above the dams implemented 
in the Columbia River Fish Management Plan, developed pursuant 
to U.S. v. Oregon.
    We have been told by some NMFS staff that funds are scarce. 
We agree. That is why we believe no Mitchell Act monies should 
be wasted on mass marking programs. There is consensus by the 
co-managers that these programs should be implemented by the 
CRFMP.
    More importantly, such proposals deal with symptoms of a 
problem rather than the problem; a real need for hatchery 
reform. The Commission and its members have since 1982 
identified State and Federal hatchery practices at the 1998 
production facilities within the Columbia River Basin as a 
significant factor in the loss of naturally spun salmon stocks.
    However, we are not condemning the hatcheries, per se. 
Hatcheries have an important role in recovery. We are proposing 
a biologically credible integrated plan to modify hatchery 
management practices throughout the base in order to supplement 
rather than to supplant natural spawning.
    Only 4 percent of the Mitchell Act production is released 
above the Dallas Dam where most of the damage caused by the dam 
has occurred and where the majority of the Mainstream 
Contributary Treaty fishing sites were located.
    In addition, about one percent of the Mitchell Act 
production is utilized to assist and rebuild the restoration of 
naturally spawning salmon stocks which have been constraining 
most of the fisheries on the West Coast. Within the last ten 
years, the Commission has developed substantial scientific 
justifications supporting the use of Mitchell Act facilities 
for natural run enhancement.
    In fact, a procedure for supplementation was agreed upon by 
the Fish and Wildlife agencies, Tribes and Columbia Fish and 
Wildlife Authority. The Umatula Tribe has successfully restored 
enough chinook and coho stocks in the Umatula Basin that had 
been eliminated from the Basin for over half a century by 
irrigation.
    Given the current status of the Columbia River fish base 
and salmon stocks, these practices need to be implemented 
immediately as an alternative to current Mitchell Act hatchery 
practices. And instant interpretation of the Endangered Species 
Act, the definition of distinct population segments, further 
limits the ability of Federal hatcheries to comply with 
congressional mitigation mandates.
    Some of these hatcheries can make a substantial 
contribution to the recovery of the population of some of the 
species of the Endangered Species Act. In summary, The Spirit 
of the Salmon considers all areas that must be addressed in 
order to protect the salmon stocks and ensure the restoration 
to levels consistent with international obligations of the 
United States within their trust obligation to their Tribes.
    Salmon restoration will require change in the operations of 
the Mitchell Act hatcheries, as well as change the manner in 
which NMFS treats the use of artificial propagation or 
supplementation in restoring the decline in salmon population 
in the fisheries.
    We will do everything necessary to ensure that these funds 
will be rebuilt. And we appreciate this Committee's assistance. 
We trust this Subcommittee will take these concerns in account 
when considering the fiscal year 1998 National Marine Fisheries 
Service budget.
    This concludes my statement, Mr. Chairman. Thank you very 
much. I appreciate your time.
    [The statement of Mr. Bill follows:]

[Pages 468 - 472--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Thank you for being here.
    We will now hear from Dr. Edward Eyring, Executive Director 
of the Gospel Rescue Ministries. Dr. Eyring, welcome.
    We have put the lights in front of you in order to help you 
with your timing. When the yellow light comes on it indicates 
that you have one minute to conclude your remarks.

                              ----------                              

                                          Thursday, April 17, 1997.

                        GOSPEL RESCUE MINISTRIES

                                WITNESS

EDWARD J. EYRING, EXECUTIVE DIRECTOR

    Mr. Eyring.  Thank you Chairman Rogers and Members of the 
Subcommittee.
    It is a pleasure to have the opportunity to talk to you 
today about Gospel Rescue Ministries of Washington, D.C. and 
about a building that we acquired through your help two years 
ago. I'm Edward Eyring. I'm an orthopedic surgeon. This is my 
wife, Mary Jane, and together we are the Director and the co-
Director, respectively, of Gospel Rescue Ministries, which is a 
private, not-for-profit, faith-based organization serving the 
homeless here in Washington since 1906.
    Last year, for example, we provided about 90,000 meals, 
43,000 beds, and thousands of items of clothing to homeless 
men, women, and children. The name of our mission, Gospel 
Rescue Ministries, is intentional. We rescue people. Rescue, as 
I define it, is more than rehabilitation. It is transformation 
of lives; transformation from drugs to living clean, 
transformation from homelessness to dignity; transformation 
from being a welfare dependent to being a taxpayer.
    We believe we are successful in transforming lives because 
we treat the whole person; the mind, the body, and the spirit. 
Before I proceed with the rest of my testimony, I thought you 
might like to meet some special men that came with me.
    The first persons I'll introduce is Michael Ferarro, who is 
an attorney who had to go back to his law business and wasn't 
able to wait. He came to our mission because he was consumed 
with alcohol problems. And in two years he has turned his life 
around and he is now attending Georgetown Law School.
    Nate Jones, who is sitting right here, was a professional 
baseball player and had a restaurant in New Orleans before he 
got into the drug business. At the height of his drug dealing, 
Nate sold $10,000 worth of heroin and cocaine a day. Later he 
became a user and subsequently ended up at the front door of 
our mission.
    Since then he has straightened out his life and is now our 
food services manager. If you want the finest fried salmon you 
will ever taste, you ought to visit our kitchen on Friday when 
Nate is cooking dinner for the men.
    Mr. Rogers.  What time?
    Mr. Eyring.  At 5:30 p.m. James Washington, who is sitting 
here, saw three of his brothers die in drug related violence 
and nearly lost his own life. James went through our program in 
a rather short time of five months. Today now, believe it or 
not, he is an employee at the U.S. Senate.
    These are just three of the hundreds of men we've served in 
the last several months. Historically, the mission has served 
primarily men, but because our programs have been successful, 
we want to extend our services to needy women, which brings me 
to the reason I'm here.
    In early 1995, this Subcommittee got together with my 
predecessor, the Reverend John Woods, to pursue John's dream of 
taking a crack house located just around the corner from our 
mission, which is used basically to degrade women through 
addiction and prostitution, and transform it into a facility to 
rescue women from their addictions and street life.
    In fact, this property was so bad that the Washington Times 
described it as murder hotel in this color picture on the front 
page. In the 1996 fiscal year, you directed the Department of 
Justice, through the Weed and Seed Program, to provide $270,000 
for the renovation of this former Fulton Hotel.
    For this assistance, we are truly blessed. Gospel Rescue 
Ministries will operate this facility, providing more than $1.4 
million in services each year at no cost to the Federal 
Government and at no cost to the District Government. The 
process of acquiring this property has been very long; two and 
a half years.
    It has been costly, both in physical and human terms. We 
can only estimate the number of lives that have been lost to 
drugs during these times. But the physical costs are basically 
that the place is falling apart. The roof leaks. People have 
continued to use the bathroom after the water was turned off.
    Windows are broken, et cetera, and we are requesting that 
your Subcommittee consider supporting Gospel Rescue Ministries 
in its efforts to complete this renovation project. We 
specifically request $190,000 through the Weed and Seed Program 
for this purpose. Gospel Rescue Ministries will solicit the 
balance from private sources.
    Again, I emphasize that we operate almost exclusively from 
private funds. Our interest is as simple as it is profound. We 
want to help transform the lives of women who need it. With the 
investment I've requested today, Gospel Rescue Ministries will 
be able to transform even more lives.
    Thank you and God bless you.
    [The statement of Mr. Eyring follows:]

[Pages 475 - 480--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. What wonderful testimony. We 
appreciate you and the folks with you. Thank you for being 
here. And the gentleman can go back to the work in the Senate.
    Mr. Washington.  Well, thank you. Have a nice day.
    Mr. Rogers.  Thank you. We now welcome Mr. Dennis Malloy, 
Director of Community Relations and Development at Iowa Public 
Television. Welcome.
                              ----------                              

                                          Thursday, April 17, 1997.

        THE ASSOCIATION OF AMERICA'S PUBLIC TELEVISION STATIONS

                                WITNESS

DENNIS MALLOY, DIRECTOR, COMMUNITY RELATIONS

    Mr. Malloy.  Thank you.
    Mr. Chairman, thank you for the opportunity to appear here 
today to talk about the Public Telecommunications Facilities 
Program, otherwise known as PTFP. I am Dennis Malloy. I am with 
Iowa Public Television.
    I'm also representing America's 202 public 
telecommunications centers across the country that provide 
noncommercial educational television services to Americans. For 
30 years public broadcasters have relied on the equipment and 
the facilities that the PTFP has funded for our broadcast 
services into the local communities that we serve.
    And right now, public broadcasting is available to about 99 
percent of Americans. Local stations have matched that Federal 
support with private and other local contributions to form a 
Federal/private partnership that works. Continuing annual 
Federal investment will help guarantee that free over-the-air 
noncommercial educational television continues to be available 
to all Americans regardless of their ability to pay.
    The public television stations are asking this Subcommittee 
to fund the PTFP at $29 million in fiscal year 1998. That's the 
same as the 1995 appropriation. The equipment that this 
Committee has helped fund enabled us to provide valuable 
educational services to millions of Americans.
    The GED Program is one example on TV and is an excellent 
program that public television has provided. It's a product 
that incorporates local outreach in this series. It is produced 
by the Kentucky Educational Television network. It has enabled 
nearly two million adults to acquire a high school equivalency 
certificate.
    We are also devoted to kids and to K-12 education. We 
provide quality programs for children that educate, not sell, 
and we do seek support from our viewers, but a contribution is 
not a prerequisite for watching our programs. Most of our pre-
school viewers are from homes where the average income is below 
$30,000 a year.
    We remain the first choice among teachers for use in the 
classroom. Our stations use technology working with local 
schools to improve learning. And these technologies are 
possible also through the PTFP Program. Public television 
stations have gone beyond what have become almost traditional 
distance learning opportunities where high school students take 
live interactive math, science, social studies, and foreign 
language trips.
    They now take live interactive field trips through their 
local public television stations. In Iowa we've gone to 
wildlife refuges and we've studied the effects of the 1993 
floods through our interactive fiber optic network. Nationally, 
students have had an opportunity to participate in public 
television's third electronic field trip to the South Pole.
    As you know, the FCC recently issued a calendar for digital 
transition. Commercial broadcasters will have five years to 
fully digitize. Public broadcasters will have six. However, 
Iowa Public Television shares five of its eight towers with 
commercial television. We will have to convert on their 
schedule.
    We've submitted a proposal to PTFP this year that focuses 
on planning for that transition. An amount of $133,000 is the 
projected cost of that study. It will help identify and 
evaluate options for complying with the FCC mandate for digital 
transmission, examine the cost benefits for options, develop a 
time table for construction, and negotiate agreements with 
other broadcasters with whom our construction costs and 
facilities are to be shared.
    The Administration has not included a funding request for 
PTFP in its 1998 budget request to Congress. There is a huge 
demand for these funds. Last year, $49 million was asked and 
NTIA received 220 applications.
    I'd like to thank this Subcommittee and you, Mr. Chairman, 
for your part to support PTFP. You've made a very wise 
investment in public broadcasting. You've helped us improve 
millions of Americans' lives every day.
    We hope that you will agree with those who benefit from 
public television services that it is a cost effective way to 
reach people on critical issues of the day and not as a luxury. 
Thank you very much.
    [The statement of Mr. Malloy follows:]

[Pages 483 - 492--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. I appreciate your testimony.
    We now welcome Mr. Ed Subkis, General Manager of Station 
WCQS-FM in Ashfield, North Carolina.

                              ----------                              

                                          Thursday, April 17, 1997.

                         NATIONAL PUBLIC RADIO

                                WITNESS

EDWARD SUBKIS, GENERAL MANAGER, WCQS-FM

    Mr. Subkis.  Thank you.
    Mr. Chairman, my name is Ed Subkis. I am the General 
Manager of WCQS in Ashfield, North Carolina. We're a classical 
music, news, information, and jazz public radio station. WCQS 
operates as a network of two fully licensed transmitters and 
five translators that repeat our signal throughout Western 
North Carolina.
    We serve the 11 westernmost counties of North Carolina and 
also reach North Georgia and East Tennessee, serving over 
350,000 people. WCQS is also a member station of National 
Public Radio. I'm here to talk about the importance of the PTFP 
program to the citizens of Western North Carolina and 
throughout the country and also ask for your support in 
reinstating PTFP funding.
    Since 1984, PTFP has financed over $54 million in public 
radio facilities that deliver unique quality, informational, 
cultural, and educational programming. PTFP maintains and 
improves the equipment that delivers this valuable programming 
to over 20 million listeners.
    PTFP is one of the most efficient public/private 
partnerships in existence. It is a matching grants program 
requiring stations to raise 50 to 75 percent of the total 
project's cost. PTFP is the only capital improvements program 
available for public broadcasting. Public broadcasting's high 
quality programming is meaningless without sufficient hardware 
to produce and transmit it. In short, without this capital 
funding over time, many public radio stations will be unable to 
sustain the program service that the American people have come 
to rely on.
    PTFP benefits rural areas where topography or size make it 
difficult to transmit signals over mountains, deserts, and 
isolated areas and into local communities. For example, WCQS 
covers 4,000 square miles. Because of the Appalachian 
Mountains, however, we need seven points of transmission to 
cover this relatively small area.
    These mountains offer tremendous scenic beauty as 
Congressman Taylor on your Subcommittee well knows, but the 
mountains also offer tremendous technological challenges for FM 
broadcasting. Sustaining the public broadcasting system is a 
primary goal of PTFP.
    Many stations have old and increasingly unreliable 
equipment requiring frequent costly repairs. Replacement of a 
characteristic NPR station transmission system is likely to 
cost nearly $380,000 while replacing studio equipment could 
cost more than $110,000.
    PTFP will help stations replace older analog production 
equipment with newer more efficient digital equipment. And when 
the United States adopt standards for digital radio 
transmission, conversion costs are estimated at $150,000 per 
station.
    To ensure that America's broadcast services are able to 
compete in the global marketplace making this transition to 
digital broadcasting is essential. At WCQS our regional service 
was made possible by four PTFP grants.
    In 1985, we received $134,000 to acquire satellite 
interconnection and studio production equipment and to activate 
three translators to serve six small mountain communities. In 
1987, we received $170,000 for a transmitter to serve the 
Franklin area of western North Carolina, as well as begin a 
radio reading service for the print handicap population of the 
area.
    In 1990, a $25,000 grant allowed us to begin translator 
service to the rural reservation of the eastern band of the 
Cherokee Nation. Finally, in 1991 we were awarded $133,000 to 
increase the power of our main transmitter. Now, we serve over 
350,000 people. Before PTFP, we only served 200,000 people.
    I'm submitting a map that details the population and the 
areas served in western North Carolina. And it shows our 
coverage and how it was impacted by the PTFP program. I want to 
stress that the loss of PTFP funding cannot be offset by the 
Administration's recommended increase in funding for the 
Corporation for Public Broadcasting.
    CPB funds programming and not equipment. Also, the PTFP 
appropriation under discussion for fiscal year 1998 and the 
Administration's recommended CPB appropriation is for fiscal 
year 2000. And even if stations start using CPB funds for 
capital improvements, there would be a two-year funding gap.
    Please remember also that CPB is funded on a downward path. 
Stations now have to raise even more money from local 
communities to stay on the air. And because of funding 
shortfalls, WCQS had to eliminate a news reporter position. Our 
budget stayed in balance, but programming lost a valuable 
information resource as a result.
    A small station like WCQS would be unable to reallocate 
internal resources to replace a transmitter without crippling 
our program service. Radio is an inexpensive personal medium. 
There is a lot of talk about the information highway taking the 
place of radio. It's not an appropriate substitute.
    Radio is portable, inexpensive and the Internet means 
expensive computers. It's just not an acceptable substitute for 
the service that radio provides. Thank you.
    [The statement of Mr. Subkis follows:]

[Pages 495 - 513--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. I worked at one time at 
WFSC in North Carolina.
    Mr. Subkis.  Oh, you did?
    Mr. Rogers.  Right.
    Mr. Subkis.  We're one of the two or three cities that 
carry that now.
    Mr. Rogers.  Thank you.
    Mr. Subkis.  Thank you.
    Mr. Rogers.  Congressman Latham.
    Mr. Latham.  No questions, Mr. Chairman.
    Mr. Rogers.  Thank you. We are adjourned.

                             ---------

                                          Thursday, April 17, 1997.

                      JOHNSON AND WALES UNIVERSITY

                               WITNESSES

HON. WILLIAM LEHMAN, FORMER U.S. REPRESENTATIVE
MORRIS J.W. GAEBE, CHANCELLOR, CHAIRMAN OF THE BOARD

    Mr. Rogers.  The committee will come to order.
    We're delighted to have with us today one of our own, Bill 
Lehman, who served in the House for many, many years. He served 
on our Committee and was Chairman of the Transportation 
Subcommittee. He was a great asset to our Committee and to our 
country and rendered great service. We are glad to have you 
with us.
    Mr. Lehman.  I'm here today as a Member of the Advisory 
Board of Johnson and Wales University because they are trying 
to do something for the people that are coming out of the 
criminal justice system to retain them to entry level jobs in 
the food service business.
    I just happened to have with me one of the officials from 
the Miami campus of Johnson and Wales who happens to be from 
Kentucky.
    Mr. Rogers.  I knew there was a reason I liked her.
    Ms. Bassett.  I'm from Louisville, Kentucky, and a Kentucky 
Colonel.
    Mr. Rogers.  What's your name?
    Ms. Bassett.  Brenda Bassett.
    Mr. Rogers.  We're glad to have you with us.
    Ms. Bassett.  I will be testifying on behalf of the 
University, Johnson and Wales University, Florida Campus. We 
have the honor of having our Chancellor and Chairman of the 
Board, Dr. Morris J.W. Gaebe.
    Mr. Rogers.  Welcome. Do you live in Louisville now?
    Ms. Bassett.  No. I live in Miami, Florida.
    Mr. Rogers.  I see.
    Ms. Bassett.  Near this guy.
    Mr. Lehman.  Her father-in-law helped me in business during 
the hard times. He was the President of the Florida First 
National Bank. And he is the one that put me into the 
automobile business. This is Dr. Gaebe.
    Mr. Rogers.  Welcome. Dr. Gaebe.
    Ms. Bassett.  Thank you very much.
    Mr. Rogers.  Thank you.
    Mr. Gaebe.  This is not in my prepared notes, but I'm a 
Kentucky Colonel.
    Mr. Rogers.  We can go ahead here and have a formation and 
take over this city.
    Mr. Gaebe.  Right after I graduated from college I went to 
work for Joseph E. Seagers. How is that for a beginning?
    Mr. Rogers.  Now, you're doing well so far. You're getting 
off to a good start.
    Mr. Gaebe.  Shall I?
    Mr. Rogers.  Yes. Thanks for coming.
    Mr. Gaebe.  It is a privilege to be here and have this 
opportunity to talk about something that I have been doing for 
50 years. I've been at the University for the past 50 years. 
I'm never going to quit because I feel we're really adding 
something to the lives of other people by getting them jobs and 
making it possible for them to have better lives. What we have 
done today is I want to tell you about a Model Culinary Art 
Certificate Program that we have designed to place criminal 
justice clients and youths who are at risk in an entry level 
position in the food service industry.
    The food service industry is, of course, the largest 
employer in the United States. I'm active in the National 
Restaurant Association and other things like that. We just 
can't get enough help in the restaurants, in the hotels, and so 
forth.
    So, the job opportunity is certainly there for people. The 
training program that we are able to give them will qualify 
them for at least an entry level position. The program is a 
nine-months program, and it can begin at any time when we have 
the class organized.
    It's a hands-on education program. You don't have to have a 
high school diploma to get into it which is generally required 
for most collegiate programs, but we will give in addition to 
the Culinary Program educational components to assist them in 
getting a GED.
    Once they become qualified as a GED, they can enter into 
the University for the regular education program and proceed 
towards the earning of at least an Associate Degree in Culinary 
Arts. It's a pilot program. As I've said before, we are adding 
a number of things to it which are not typical of education 
programs. We are going to provide day care. We will provide it 
for children in families with dependent children.
    We will provide transportation to and from the classrooms 
for any participants who need it. We are looking for a class of 
33, but in any class that they would take, there would be a 
maximum number of students per faculty member. Placement 
service is provided by the University. We have always 100 
percent placement of our graduates.
    So, we intend that the same would be here also. We will 
have counseling and tutorial support. We will work on non-
violent crime and drug prevention workshops will be provided. 
We will go to school from 4:00 p.m. until 10:00 p.m. That's 
when some of the facilities at the University become available.
    It will be six hours per day, a total of 864 hours. We want 
to start with 33 participants. That is a class size that we 
think will work the best. We hope that we can finish 90 percent 
of those that we get. We estimate that 13 would be male and 
perhaps 20 would be female.
    The projections of enrollment that we think would come 
close would be that 28 percent of them will be Black. Three 
will be Hispanic, and two of other ethnic groups. This is in 
the Miami area. That goes along with the general enrollment 
statistics.
    Mr. Lehman.  You've got about ten more seconds.
    Mr. Gaebe.  Ten more seconds, all right. We'll meet in 
classes on Monday and Thursday. We have drug prevention 
counseling. We have a starting salary projected of $8 to $12 
per hour. Textbooks are provided. Meals are provided. Uniforms 
are provided. Shoes are provided and some of the other things 
are provided like a bi-weekly student progression will be 
conducted between the instructor and the student.
    Those are academic things. But what we're really going to 
provide is jobs. We're going to get these people back into a 
higher level of the mainstream.
    Mr. Lehman.  Mr. Chairman, the food business in Miami will 
absorb these overnight. We would offer the possibility that 
this grant be made contingent on the basis of the State 
matching funds if that's easier for you. How much are we asking 
for in money?
    Mr. Gaebe.  We're asking $575,000.
    Mr. Lehman.  Thank you, Mr. Chairman.
    [The statement of Mr. Gaebe follows:]

[Pages 518 - 529--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you, Colonel. And Colonel, it's good to 
have both of you. Bill Lehman, it's awfully good to see you. 
Thank you for coming. It is certainly good to see you, Bill.
    Mr. Lehman.  Thank you very much.
    Mr. Rogers.  We now welcome Ms. JoAnn Chase, Executive 
Director, National Congress of American Indians, of the 
Jamestown S'Klallam Tribe.
                              ----------                              

                                          Thursday, April 17, 1997.

                 NATIONAL CONGRESS OF AMERICAN INDIANS

                                WITNESS

JOANN K. CHASE, EXECUTIVE DIRECTOR

    Ms. Chase.  Thank you, Mr. Chairman. It is a pleasure to be 
here today.
    My name is JoAnn Chase, and I do serve as Executive 
Director of the National Congress of American Indians, the 
Nation's oldest and largest advocacy organization on behalf of 
Tribal Governments.
    Our President, W. Ron Allen, is also Chairman of the 
Jamestowns S'Klallam Tribe. I am not. I'm a Member of the Three 
Affiliated Tribes in North Dakota. He was unable, 
unfortunately, to be here, but does send his greetings.
    On behalf of President Allen and our 200-plus Member 
Tribes, I'd like to thank you for the opportunity to present 
some of the Tribes' concerns today under this Subcommittee's 
jurisdiction.
    We've submitted detailed testimony and I would request 
respectfully that those remarks would be entered into the 
record in full. I will simply address some of the major areas 
of concern and highlight the priority points.
    Mr. Chairman, also to my knowledge, this is the first time 
that the National Congress of American Indians has been invited 
to appear before the Committee. We are an advocacy organization 
on a myriad of issues, including those falling into the 
appropriations process.
    Again, on behalf of our Member Tribes, we certainly 
appreciate this unprecedented opportunity.
    It's been rare, if ever, that programs serving American 
Indians and Alaska populations have received the Federal 
funding required to fulfill even the most basic needs of 
Tribes.
    I could cite to you a host of devastating statistics which 
illustrate that of the 557 federally recognized Indian Tribes, 
the majority of our populations are characterized by severe 
unemployment, poverty rates, ill health, poor nutrition, and 
other sub-standard conditions.
    Further, and perhaps more significant to this Committee's 
jurisdiction are enormous obstacles in infrastructure 
development and business development. Certainly, we are also 
facing increased crime rates, such as violent crimes in our 
communities and child abuse.
    In addition, unprecedented reductions in Federal program 
funding have left many Tribes facing extreme circumstances. 
While we appreciate the commitment to balancing the Federal 
budget, Mr. Chairman, we would certain maintain that this 
laudable initiative does not and should not preclude the 
Federal Government from fulfilling its trust responsibilities 
to Indian Tribes throughout this great nation.
    Further, we would urge the Congress to continue to uphold 
the unique government-to-government relationships the Indian 
Tribes have with the government, and by its own commitments 
through treaties with the various sovereign nations.
    The Federal Government does have a fiduciary duty to Indian 
Tribes and such duty cannot be overlooked in the appropriation 
process. My first remarks would be addressing some of the 
programs under the Department of Commerce which have proven to 
be very successful for the Tribes which have created 
opportunities.
    The first being, the continued funding of the Minority 
Business Development Agency. Concerns over funding for the 
agency, which were slashed significantly in fiscal year 1996 
and which we understand may be even more threatened for the 
fiscal year 1997, remain significantly in Indian Country.
    The MBDA helps Tribal Governments in many ways, 
particularly through the establishment of Minority Business 
Development Centers throughout the Nation, nine of which are 
located in Indian Country and which are known as Native 
American Business Development Centers.
    The majority of Tribal Governments in Indian communities in 
which they serve are located in rural areas. Accordingly, often 
they're the only business development centers available for 
Tribes and clearly fulfill an important role.
    I would add that under the Business Development Association 
we do have a specific Native American Program which has 
addressed our special needs, and which has proven to be very 
helpful in Indian Country. We would encourage Congress to 
continue to fund the MBDA and not eliminate or further reduce 
this program, particularly its components that serve Native 
communities.
    In addition, the other area is in National 
Telecommunications and Information Administration. As 
development of economic opportunities in any country move 
forward, this particular Administration has played a 
significant role in the establishment of the information super 
highway in Tribal communities.
    In particular, the Telecommunications and Information 
Infrastructure Assistance Program has provided matching grants 
to Tribes. I've outlined some model programs in our submitted 
testimony. We would encourage that the President's fiscal year 
1998 budget request of $36 million be granted for this program 
and believe that it's the minimal level necessary to continue 
development in Indian Country and to the Nation's rural and 
disadvantaged communities.
    Within the Department of Justice, Mr. Chairman, there are 
programs. We have seen the Office of Justice Program make 
significant strides in addressing needs in Indian Country, 
including such programs as the Cops on the Beat Program, 
Violence Against Women Program, Violent Offenders, and Truth in 
Sentencing Incentive Grants are among those which Tribes are 
taking advantage of.
    We would urge that those programs continue to be funded at 
an adequate level. And add that there are other areas such as 
construction and maintenance and Tribal detention facilities, 
operating funds to provide rehabilitation, and education, and 
training programs, as well as continued funding for Tribal 
Courts that are essential.
    Finally, Mr. Chairman, we would ask that the Office of 
Tribal Justice be given a line item. It has proven very 
essential to the Tribes. It does not enjoy such status. This 
would serve to strengthen it within the Department so it could 
continue its very important role in Indian Country.
    Thank you very much for the opportunity to provide this 
statement today.
    [The statement of Ms. Chase follows:]

[Pages 533 - 542--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Ms. Beth Marks Clark, Director of the 
Antarctica Project.
                              ----------                              

                                          Thursday, April 17, 1997.

        UNITED STATES ANTARCTIC MARINE LIVING RESOURCES PROGRAM

                                WITNESS

BETH MARKS CLARK, DIRECTOR

    Ms. Clark.  Good afternoon, Mr. Chairman. Thank you for the 
opportunity to testify today on the fiscal year 1998 budget for 
the Department of Commerce; specifically the Antarctic Marine 
Living Resources Program of NOAA. I would like my full 
statement to be entered into the record.
    I am Beth Clark, Director of the Antarctica Project. I am 
presenting this statement on behalf of the Antarctica Project, 
Center for Marine Conservation, Defenders of Wildlife, 
Environmental Defense Fund, Friends of the Earth, Greenpeace, 
the Humane Society of the U.S., the Humane Society 
International, the National Audubon Society, the National Parks 
and Conservation Association, National Wildlife Federation, 
Natural Resources Defense Council, Sierra Club, and World 
Wildlife Funding.
    Our millions of Members urge that this Subcommittee approve 
an appropriation of at least $1.2 million to support the 
Antarctic Marine Living Resources Program or AMLR. This is the 
level at which AMLR has been funded for the past five fiscal 
years.
    In addition, we urge your Subcommittee to ensure that funds 
are available for a ship charter. Without a vessel, AMLR cannot 
carry out its research program. AMLR is vital to outstanding 
U.S. economic, environmental, and political interests in the 
Antarctic and supports our international obligations to the 
Antarctic Fisheries Agreement known as the Convention on the 
Conservation of Antarctic Marine Living Resources or CCAMLR.
    CCAMLR was established under the Antarctic Treaty System to 
provide a management structure that would both protect the 
ecosystem and to allow fishing activities in the southern 
ocean. It is unique among fisheries agreements and that the 
impact of the fisheries on the entire ecosystem must be 
considered when management measures are agreed; not just the 
impact on the harvest of species.
    In order for CCAMLR to work, Nations must adopt and adhere 
to sound conservation measures that limit fisheries to 
ecologically sustainable levels. The only way that fishing 
nations will agree to these measures is if they are presented 
with the scientific proof of a fisheries status.
    For CCAMLR to remain effective, nations need to continue 
funding research programs that generate the data to support 
these measures. The research conducted by AMLR has provided 
this information. Since its inception, this U.S. program has 
been critical to the proper implementation of CCAMLR because it 
has provided the scientific foundation for the adoption of 
ecologically sound conservation measures by Member governments.
    However, decreasing fish stocks in the rest of the world 
threaten to compromise CCAMLR's ability to sustainably manage 
southern ocean fisheries. At the last CCAMLR meetings it was 
evident that domestic pressures were influencing nations to 
gain consensus for catch levels that were economically 
beneficial without regard to the state of the fishery.
    Research results from AMLR allowed the U.S. to argue 
persuasively that fisheries should be regulated based on 
science, not economics. We believe that increased U.S. presence 
will make the implementation of conservation measures extremely 
difficult, however, fishing will persist.
    The region's marine living resources will be exploited 
beyond sustainable levels. Domestically, it is in the best 
interest of U.S. fishers to have the U.S. continue to be 
involved in this program. This has been demonstrated when we 
had an Alaskan fisherman start a crab fishery in the southern 
ocean.
    The presence of the U.S. at these meetings was critical to 
ensuring that his interests were properly represented. Also, 
having the U.S. involved gives the fishers a chance to 
understand the nature of the fisheries and to make a decision 
about whether they would like to be involved in the future.
    Politically, the continuation of AMLR will protect the 
leading role that the U.S. has played over the past 40 years in 
the Antarctic Treaty System in developing an ecologically sound 
and internationally acceptable approaches to Antarctic issues. 
It will send a strong message about our desire to maintain the 
Antarctic as a region dedicated to science and other peaceful 
uses, and to minimize harm to its environment.
    In conclusion, I would like to emphasize that continuation 
of NOAA's Antarctic Marine Living Resources Program has 
important implications for the U.S. from an environmental, 
economical, and political perspective.
    As an Antarctic fishing nation, it is especially important 
to the U.S. to maintain its credibility. This is not the time 
for the U.S. to decrease its research efforts. While we 
recognize that Congress must make pivotal budget decisions, it 
is important not to under-estimate the value of the United 
States Antarctic Marine Living Resources Program.
    The modest allocation of funds that is being requested for 
investment in Antarctic marine research will go a long way 
toward adjusting critical economic, environmental, and 
political issues at the U.S. bases in Antarctica.
    For these reasons, we respectfully request this 
subcommittee to approve an appropriation of $1.2 million to 
support NOAA's Antarctic Marine Living Resources Program.
    [The statement of Ms. Clark follows:]

[Pages 545 - 557--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. We now welcome Mr. Ramon 
Sierra, President of the National Weather Service Employees 
Organization.
                              ----------                              

                                          Thursday, April 17, 1997.

            NATIONAL WEATHER SERVICE EMPLOYEES ORGANIZATION

                                WITNESS

RAMON I. SIERRA, PRESIDENT

    Mr. Sierra.  Good afternoon, Mr. Chairman.
    Mr. Rogers.  Your statement will be in the record. We are 
asking you to summarize your statement orally. We've provided a 
timer to give you an indication of how much time you have. When 
the yellow light comes on, it means you have one minute to wrap 
up.
    Mr. Sierra.  Okay.
    Mr. Rogers.  Thank you.
    Mr. Sierra.  Thank you.
    Mr. Chairman, I appreciate the opportunity to convey the 
sentiments of the employees of the National Weather Service 
concerning the Agency's fiscal year 1998 budget.
    Regrettably, however, I must report the consensus of 
meteorologists, hydrologists, and technicians employed by the 
Weather Service is that the Administration's fiscal year 1998 
request is insufficient if we are expected to issue timely and 
accurate forecasts and warnings of severe weather.
    The Administration's fiscal year 1998 request for 
operations and research is a reduction from that of fiscal year 
1997, which itself was a reduction from the previous year. In 
addition, during the past two years the Weather Service has 
been required to absorb a 5 percent increase in costs due to 
mandatory pay raises and inflation.
    We consider these reductions to be penny-wise and pound-
foolish. Since the late 1980s, Congress has appropriated over 
$4 billion to modernize the National Weather Service. We now 
have state-of-the-art Doppler Radar, weather satellites, 
computers, and automated service weather observations systems.
    What the Weather Service no longer has is the money to 
employ and train meteorologists and technicians to operate this 
equipment. Congress reduced the Administration's fiscal year 
1997 request an additional $10.5 million relying on an audit 
conducted by the Department of Commerce Inspector General, 
which concluded that 258 administrative personnel could be 
eliminated from the Weather Service Headquarters.
    Regrettably, many of the positions which are being 
eliminated because of this particular $10.5 million reduction 
are operational personnel. The Weather Service's budget has 
been reduced by $3 million as a result of a misguided attempt 
to reinvent government by privatizing agricultural and food 
frost forecasts.
    In January, the State of Florida suffered $300 million in 
crop losses during a single freeze, which is six times more 
than the Agency will save over a five-year period by having 
eliminated the food frost program. Had the Agricultural and 
Food Frost Program not been eliminated, the farmers in Florida 
would have received a warning of the freeze in sufficient time 
to take efforts to save their crops.
    These services were eliminated last April, but funding for 
them should be restored. As NOAA's Administrator testified 
before this Subcommittee that no forecaster positions would be 
eliminated during the current reduction in force, we must 
inform the Subcommittee that this is not the case. 
Specifically, two forecaster positions are to be eliminated at 
the Storm's Prediction Center in Norman, Oklahoma; two also 
from the Aviation Weather Center in Kansas City, Missouri, and 
amazingly two positions from the Hurricane Center in Miami, 
Florida.
    These two at the Hurricane Center are in addition to five 
vacant positions that will not be filled. This results in a 
loss of seven forecasters from the Hurricane Center in the last 
year; a staff decrease of 20 percent. The NWSEO agrees with the 
four Directors of the Weather Service and with the 26 past 
Presidents of the American Meteological Society.
    We have publicly stated that these reductions are ill-
advised and will jeopardize public safety. Mr. Chairman, I 
would like to digress a bit for a moment to address your 
Committee's ongoing consideration of the fiscal year 1997 
Emergency Supplemental Appropriations Bill.
    The NWSEO urges you to look carefully at Congressman Shaw's 
bill, House Resolution 1251, that will provide an additional 
$10 million to the National Weather Service to help alleviate 
some of the most critical budgetary problems facing the agency 
during this current fiscal year.
    I'm confident that if necessary you will be able to find a 
way to offset this in other NOAA or DOC programs that could be 
modified or temporarily delayed in order to ensure that 
activities of the Weather Service will be able to continue. The 
Organic Act of 1890 which created a Weather Bureau whose 
mission was not only the forecasting of weather and storm 
warnings, but also the display of weather and flood signals for 
the benefit agriculture, commerce, and navigation; the 
reporting of temperature and rainfall conditions for the cotton 
interest, and the distribution of meteological information in 
the interest of agriculture and commerce.
    American farmers, while its forecasters, mariners, as well 
as the general public are now paying for private weather 
forecasts that they have received free from the National 
Weather Service for over 100 years. Astonishingly, the taxpayer 
continues to underwrite this primary cost in preparing this 
forcecast.
    Weather forecasting warnings are one of the longest 
continuing services provided by the Federal Government and they 
remain an inherent government function. Private forecast 
vendors should launch their own satellites, build their own 
radar network, and automated observation equipment, and invest 
in super computers to analyze the data.
    Until then, Congress should have no part in forcing America 
to buy back its own weather information from a small number of 
companies who could not exist without your continuing 
investment. As my time is up, Mr. Chairman, I conclude my 
presentation.
    [The statement of Mr. Sierra follows:]

[Pages 561 - 570--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. We now welcome Mr. George 
Evans, Director of the Office of the Western Research 
Application and Council of TAAC Sponsors.

                              ----------                              

                                          Thursday, April 17, 1997.

             TRADE ADJUSTMENT ASSISTANCE FOR FIRMS PROGRAM

                                WITNESS

GEORGE EVANS, EXECUTIVE DIRECTOR, OFFICE OF WESTERN RESEARCH 
    APPLICATION CENTER

    Mr. Evans.  Thank you, Mr. Chairman.
    Thank you for the opportunity to testify on behalf of the 
Trade Adjustment Assistance for firms program, which is 
administered by the Economic Development Administration of the 
Department of Commerce.
    As the Executive Director of the Western Research 
Application Center at the University's Center in California, I 
serve a sponsor of the Western Trade Adjustment Center, which 
serves the States of Arizona, California, Hawaii, and Nevada.
    I am here today and accompanied with Ed Allington, who is 
the sponsor of the Southeastern Trade Adjustment Center. It 
serves the South from Florida to Kentucky.
    On behalf of all 12 trade adjustment program sponsors, I'd 
like to extend our deepest appreciation and thanks to you and 
your colleagues on this Committee and throughout Congress who 
have steadfastly supported trade adjustment assistance for 
firms for many years.
    As you may know, for the first time in over a decade, 
funding was included for trade adjustment in the President's 
fiscal year 1998 budget proposal at a level of $9.5 million.
    We believe the Administration's budget proposal reflects 
its recognition of the strong commitment to trade adjustment 
that has been demonstrated annually by this Committee and the 
Congress as a whole. As you are probably aware, the Trade Act 
of 1974, which created trade adjustment assistance for firms, 
requires domestic manufacturers to demonstrate a loss of jobs 
and a loss of sales due to import competition prior to program 
certification.
    By statutory definition, trade adjustment assistance 
focuses on reversing declines in both jobs and sales. Thus, and 
this is a point misunderstood by many, in the jobs area, trade 
adjustment assistance focuses on the dual goal of job retention 
and job creation.
    During the seven-year period extending through fiscal year 
1996, the Federal Government funded trade adjustment assistance 
for firms at nearly $75 million. These funds were used to 
assist over 650 firms and impacted around 86,000 jobs by 
helping to reverse company declines and plummeting sales.
    This includes the creation of over 10,500 new jobs and 
increased sales of an astounding $2.6 billion. On average, the 
trade adjustment programs net only $868 per job saved or 
created. These jobs in turn produced an estimated $7,260 each 
in annual, Federal, and State tax revenue.
    This is above market return on the investment of Federal 
dollars. More importantly, this return was accomplished with 
the full participation and commitment of client firms who, on 
average, now pay 50 percent of the cost of their assistance.
    The Trade Adjustment Assistance program is truly an example 
of successful public/private partnership. And I'd like to cite 
just one brief example. A Tucson, Arizona manufacturer of 
custom fabricated metal products, who happens to be in Mr. 
Kolbe's District, sales declined by 25 percent as the result of 
import competition from Mexico.
    With the assistance in the Western Trade Adjustment Program 
of developing and implementing a recovery plan, the results 
were that employment increased 100 percent from 60 employees to 
120 and sales increased 130 percent from $6.5 million to $15 
million annually, half of which were exports.
    The Federal cost per jobs saved or created in this instance 
was a mere $629, which is the equivalent of three and a half 
weeks unemployment compensation in the State of Arizona. I'd 
like to make two other brief points about the Program's growing 
importance.
    First, the Trade Adjustment Assistance for firms program is 
unique in its role as a trade remedy. Of the various federally 
sanctioned trade remedies utilized by the government today, 
Trade Adjustment Assistance is the only program that does not 
directly or indirectly interfere with free trade.
    Rather, the program helps existing firms remain competitive 
without creating artificial barriers, tariffs, or other 
mechanisms that impede the free-flow of goods.
    Second, the number of firms seeking certification into the 
program is growing, as is the size of the individual 
participating firms, suggesting that larger firms are also 
struggling to retain sales and employment against foreign 
competition. However, despite increased demand in strong 
program performance, Federal funding for trade adjustment has 
been reduced each year since fiscal year 1993.
    If this Committee does consider any increase in funding for 
EDA in fiscal year 1998 above the 1997 level, we would hope 
that you would also consider dedicating a modest amount of that 
increase to supplement the President's budget proposal for this 
program and allowing it to operate at a level of $12 million.
    In our opinion, funded at the proposed level of $9.5 
million, the effectiveness of the program will suffer because 
we will be unable to deliver the services necessary to the vast 
majority of the firms that seek our help.
    In closing, I'd like to thank you and your colleagues for 
your unwavering support for the Trade Adjustment Assistance for 
firms program over the years. I, again, encourage you to do all 
possible to increase fiscal year 1998 funds for trade 
adjustment to $12 billion. By doing so, you will continue to 
support one of the most effective job retention and creation 
programs available from the government to the working men and 
women of America. Thank you, Mr. Chairman.
    [The statement of Mr. Evans follows:]

[Pages 573 - 580--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. We now welcome Ms. M. 
Catherine Richardson, President of the New York State Bar 
Association.
                              ----------                              

                                          Thursday, April 17, 1997.

                     NEW YORK STATE BAR ASSOCIATION

                                WITNESS

M. CATHERINE RICHARDSON, PRESIDENT

    Ms. Richardson.  Thank you very much.
    Mr. Chairman, as President of the New York State Bar 
Association, on behalf of its 60,000 members, I am grateful for 
this opportunity to submit our expression of strong support for 
the Legal Services Corporation.
    The New York State Bar Association urges this Subcommittee 
to support appropriation for the Legal Services Corporation of 
not less than $340 million for fiscal year 1998. The Legal 
Services Corporation that exist today is vastly different from 
that, that existed a few years ago.
    It is leaner, more efficient, and closely monitored. It is 
dedicated more than ever to fulfilling its mission of assisting 
low income Americans with basic legal needs. Congress has 
demanded that LSC do more with less. And it is doing so.
    Congress has demanded that LSC avoid engaging in certain 
activities. And the LSC has responded by forbidding those 
grantees to engage in those activities and dealing sternly with 
those who fail to comply. Now, we ask that Congress do its part 
by providing LSC with adequate resources to do the job.
    In New York State, the cutbacks in LSC funding has had a 
significant impact on our ability to meet the legal needs of 
low income New Yorkers. Our 15 LSC programs lost nearly $8 
million of funding in 1996. It has forced the reduction of 
staff. They've closed local offices and they have to decrease 
client intake. As a result, the number of cases closed in New 
York in 1996 decreased by 20,000 from the year before, at a 
time when we know the legal needs are growing.
    This is not just a number. This figure represents no fewer 
than 20,000 individuals and families harmed by an inability to 
obtain assistance for the most fundamental legal needs. A study 
conducted by our Bar Association a few years ago found that we 
were not even reaching 14 percent of the fundamental, civil, 
legal needs of the poor in New York.
    We believe the situation is getting worse. The vast 
majority of matters handled by legal services employers help 
people with critically important legal problems, such as 
illegal evictions, child support and custody cases, access to 
benefits, and divorces; many involving domestic violence.
    We believe that these services keep families together and 
off public assistance. Some have expressed concern over 
lawsuits of challenging the changes made by Congress. LSC did 
not make or condone these challenges. LSC is a defendant in 
these lawsuits. It has promulgated appropriate regulations to 
implement the will of Congress.
    It is working aggressively to ensure that all programs 
comply with these existing laws. The existence of these 
lawsuits may be unfortunate, but I think it was unrealistic to 
think that no individuals or organizations would seek to 
challenge them.
    It is important, though, to realize that the vast majority 
of LSC grantees, including all grantees in New York, are not 
challenging these restrictions. We should not permit a pair of 
legal challenges to justify the reduction of government support 
for such a vital national program.
    We also understand that the Federal Government does not 
bear the sole responsibility for ensuring that the poor have 
access to justice. Society as a whole, including the private 
bar, must shoulder their fair share. That is why the New York 
State Bar Association has spearheaded the effort to increase 
pro bono participation in New York.
    We work with local bar associations, law firms, law 
schools, and independent pro bono programs who are also 
responding by stepping up and increasing their pro bono 
efforts. These organizations work very closely with LSC funded 
programs. And it is typical that they depend on them for their 
training and administrative support.
    A study released in 1994 estimated that the lawyers in my 
State provide nearly two million hours of pro bono work each 
year to the poor of our State. In addition to these pro bono 
contributions, State legislatures and private foundations 
around the country have contributed greatly to supporting 
access to justice by the poor.
    Since 1974, the Federal Government has been a vital partner 
in an effort to ensure that all Americans, regardless of means, 
have access to our judicial system. We urge you to continue 
your role as an important member of this unique partnership 
with the private bar and our local communities.
    We appreciate this Congress' efforts to reduce the deficit 
and curtail unnecessary spending. But we think Legal Services 
Corporation has already accepted more of its share of its belt-
tightening and cutbacks.
    I urge that you not make additional cuts in this vital 
program; rather, I urge you to support the $340 million level 
approved by the Senate last fall and recommended by the 
Administration for fiscal year 1998. Thank you very much, Mr. 
Chairman.
    [The statement of Ms. Richardson follows:]

[Pages 583 - 589--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. We now welcome Mr. Nathan Hurt, 
Chairman of the NIST Task Force for ASME, the American Society 
of Mechanical Engineers. Mr. Hurt, we're delighted to have you 
here.
                              ----------                              

                                          Thursday, April 17, 1997.

                AMERICAN SOCIETY OF MECHANICAL ENGINEERS

                                WITNESS

NATHAN HURT, CHAIRMAN

    Mr. Hurt.  Thank you, Mr. Chairman.
    The National Institute of Standards and Technology Task 
Force of the American Society of Mechanical Engineers, the ASME 
International, is pleased to have this opportunity to testify 
before you today on the NIST fiscal year 1998 budget request.
    I'm Nate Hurt. I'm a member of ASME. In fact, I'm the past-
President. I'm currently the Chair of the NIST Task Force. I 
work for IDM Environmental Corporation in Oakridge, Tennessee. 
Today, I represent the ASME NIST Task Force.
    Our Task Force has long supported the mission of NIST, 
which is to promote U.S. economic growth by working with 
industry to develop and apply technologies across a broad 
spectrum of areas appropriate for a civil, industrial sector 
and to develop and maintain world class capabilities in 
metrology and standards.
    We recognize the financial challenges facing Congress. We 
appreciate the difference and the difficulty of identifying and 
maintaining adequate levels of funding necessary to allow key 
programs to survive so they can continue strengthening our 
Nation's economic infrastructure.
    My primary message today is that NIST and its programs are 
important to ASME International and certainly to our Country's 
industrial strength. To this end, I'd like to emphasize for 
your consideration two areas of activities at NIST that are of 
particular importance to ASME.
    These are the NIST technology partnerships and their 
participation in our consensus standards in the United States. 
The technical programs of NIST are unique in that they foster 
government and industry cooperation through cost shared 
partnerships that create long-term investments based on 
technology.
    These programs are aimed at providing the technical support 
needed for our Nation's future economic health. The task force 
strongly endorses the role of NIST in facilitating, through its 
extra-mural partnership programs, the application of our public 
investment, and engineering and scientific research to 
strengthening the nation's industrial base.
    The Advanced Technology Program, ATP, and the Manufacturing 
Extension Partnership, MEP, are the partnership programs 
through which NIST accomplishes this part of its mission. 
Tailored to enhance U.S. technology leadership, NIST 
partnership programs are similar to successful programs carried 
out by other industrialized nations.
    Cooperative technology programs should continue to be 
supported so they can further implement transfer of new 
discoveries of science and engineering to innovative and 
profitable manufacturing activities on the shop floor. It is 
important to recognize that the kinds of jobs created from 
these partnerships are needed for an educated work force and an 
expanded economy.
    As standards continue to take on a greater significance in 
facilitating international trade, the role of NIST and the 
United States voluntary consensus standards community, and in 
the utilization of U.S. developed internationally accepted 
voluntary consensus standards become increasingly critical to 
the future competitiveness of the U.S. in the global market.
    This past March, ASME issued a general position paper which 
has been distributed throughout Congress entitled, Standards 
and Technical Barriers to Trade. This addresses the needs for 
our consensus standards which is well supported by NIST.
    NIST also will perform a vital service in overseeing the 
implementation of revisions of the Technical Transfer and 
Advancement Act of 1996 that calls for the utilization of 
consensus technical standards by federal agencies. NIST should 
proactively work to educate other Federal agencies in 
incorporating U.S. voluntary consensus standards in their 
procurement and specification issuances.
    Virtually, all industrialized and emerging nations of the 
world invest considerable public funds in the development of 
technologies believed to be important to their future growth. 
The Task Force urges you to find ways to reduce government 
spending and eliminate the Federal deficit that do not 
predestine the end of private sector, government partnering to 
address the complexities of a rapid changing global market.
    We need these programs. We need them to have a chance to 
work. Thank you.
    [The statement of Mr. Hurt follows:]

[Pages 592 - 602--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you, Mr. Hurt. It is good to see you 
again.
    Mr. Hurt.  Thank you.
    Mr. Rogers.  Glad to have you with us. Now, a personal 
friend of mine has traveled from Kentucky to be with us, John 
Bruner. He is the Executive Director of the Cumberland Valley 
Area Development District in London, Kentucky which is close to 
home. I'm glad to have you with us.

                              ----------                              

                                          Thursday, April 17, 1997.

    CUMBERLAND VALLEY AREA DEVELOPMENT DISTRICT OF LONDON, KENTUCKY

                                WITNESS

JOHN L. BRUNER

    Mr. Bruner.  Thank you, sir. I'm glad to be here this 
morning. I'm also pleased to represent NADO in testimony before 
this Subcommittee.
    Our purpose is to urge the Members of the Subcommittee to 
provide adequate funding for EDA so that the agency's public 
works, planning, technical assistance, and economic adjustment 
programs can continue to provide assistance in distressed 
communities throughout the United States.
    We'd also like to thank you and the other Members of the 
Subcommittee who have worked to keep EDA alive through the 
appropriations process. We are pleased that a simple 
reauthorization bill has been proposed by the Administration. 
It's our hope that that bill can be perfected through the 
authorizing committees and enacted by this Congress.
    Although the Administration didn't include it, we would 
like for the defederalization of revolving loan funds to be 
included in that bill. The largest programs of EDA, public 
works, defense conversion, and economic adjustment, account for 
about 82 percent of EDA's budget.
    We believe that these are very important programs. The 
investments in the infrastructure through public works grants 
are critical to creating jobs in distressed areas. But more 
central to the success of EDA and other development programs 
are the economic development districts and the planning grants 
program that EDA supports them with.
    Through the 320 economic development districts, to which 
EDA provides a grant, thousands of units of local government 
and local development organizations are touched daily by 
planning and technical assistance activities.
    Although many of our communities will never see a public 
works or a defense conversion or an economic adjustment grant, 
they have received and they continue to receive a huge benefit 
from the existence of EDA through the efforts of the economic 
development districts.
    Despite the great benefit of the service of the EDDs and 
increased workloads necessitated by reductions in EDA's 
staffing, district funding has remained nearly the same over 
the 30-year history of EDDs. In 1997, districts received $17 
million of the $24 million appropriated for all EDA planning, 
which was about 71 percent of the planning funds.
    This provided planning grants to 320 districts at an 
average of $53,000. We ask that the funding for planning be 
increased to $29.5 million and that not less than 71 percent be 
designated for EDDs. That would increase the average grant to 
$70,000.
    We understand EDA has recovered or is about to recover an 
old loan that would produce an unobligated fund of about $100 
million. We think that's the source of that additional $5.5 
million that we're asking for. EDA is a small program and we're 
concerned that empowerment zones and enterprise communities are 
given special priority for EDA project funds. While we 
understand that EZs and ECs have needs, thousands of other 
rural communities and towns should not be put at a disadvantage 
simply because they failed to be designated as empowerment 
zones or enterprise communities.
    We think EDA is important to America and we ask for your 
continued support. In closing, we urge you to support the five-
year reauthorization of EDA, increase funding for economic 
development districts, and EDA funds should be focused on 
communities that do not already have priority funding.
    Thank you again, Mr. Chairman, for taking our testimony and 
listening to NADO's position on the Economic Development 
Administration. I'll be glad to answer any questions.
    [The statement of Mr. Bruner follows:]

[Pages 605 - 608--The official Committee record contains additional material here.]


    Mr. Rogers.  Glad to have you with us, John. Introduce the 
folks that are with you here today.
    Mr. Bruner.  I have Sam Wallbrook, who is the Executive 
Director of the National Association, and Matt Chase, who is a 
Legislative Assistant.
    Mr. Rogers.  Well, we're glad to have them with us as well. 
This is a wonderful organization. These area development 
districts and the National counterpart do wonderful work. I 
appreciate it very much.
    Mr. Bruner.  We thank you very much for the time, sir.
    Mr. Rogers.  We're going to take a short recess, then we 
will resume the testimony.
    [Recess.]
    Mr. Rogers.  The Committee will be in order.
    I really appreciate the punctuality of our witnesses. 
You've done marvelously well keeping track of this live show we 
have out here. We do have 48 witnesses today. In order to get 
them all on, we have to limit our time. So, when the yellow 
light comes on, you have a minute left to wrap up.
    Your written statements will be made a part of the record 
automatically. So, you may summarize your statement. We now 
welcome Deborah Williamson, Administrator of the State Courts 
of Kentucky. We're glad to have you with us. Are you a Colonel?

                              ----------                              

                                          Thursday, April 17, 1997.

                 NATIONAL LAW-RELATED EDUCATION PROGRAM

                                WITNESS

DEBORAH WILLIAMSON, ADMINISTRATOR

    Ms. Williamson.  Thank you, and no, I am not.
    Mr. Rogers.  Maybe next time.
    Ms. Williamson.  Mr. Chairman, I am Deborah Williamson, 
Kentucky Coordinator of the Youth for Justice, the National 
Coordinated Law-Related Education Program. We have submitted 
written testimony for the record and I would like to briefly 
summarize and highlight that testimony.
    This testimony comes at a time of great crisis for the 
National Coordinated Law-Related Education Program. The 
national program, which has had great success for over 15 years 
in preventing and treating juvenile delinquency, already has 
been hit with a crippling reduction in its Federal support that 
in just a few years has reduced its funding to less than a 
third of previous levels.
    The National Coordinated Program is facing possible 
extinction if funding is cut again. The program has two 
components. One component, prevention, operates primarily in 
elementary and secondary schools. The second component is 
intervention. This program operates primarily in various kinds 
of juvenile facilities.
    Kentucky has implemented especially strong and effective 
prevention and intervention programs. Law-Related Education was 
instituted in the Commonwealth in 1990 by Chief Justice Robert 
F. Stevens of the Kentucky Supreme Court. LRE began in court 
diversion settings in twelve judicial districts throughout the 
State, and during the first year served approximately 100 first 
time offenders using the Street Law Program developed by NICEL, 
National Institute for Citizen Education and the Law.
    Today, the project is still overseen by Chief Justice 
Stevens and housed at the Administrative Office of the Court 
under the direction of the Honorable Paul Isaacs. However, 
today we serve you State-wide. This year alone we have had 
contact with more than 50,000 young people in schools, 
community based programs and correctional settings.
    The types of LRE programs that we offer have diversified 
considerably since the inception in 1990. Here are some 
examples from your Congressional District, Chairman Rogers. In 
Perry, Whitley, McCreary, Pike, Breathitt and Wolfe Counties, 
elementary school students participate in shoplifting 
prevention programs offered by Court of Justice workers, law 
enforcement, and loss prevention officers.
    Law-Related Education teleconferences developed by my staff 
at the AOC and delivered by KET are especially popular in rural 
areas such as Knott, McGoffen, and Wolfe Counties. A school 
based and juvenile justice based mediation program entitled 
``We Can Work it Out'', also developed by NICEL, is popular in 
Rockcastle, McGoffen, and Knott.
    Teen Courts, which are peer courts that hear real cases 
from District Court, are doing extremely well in Pike and 
Laurel Counties. A model Teens Crime and Community Program, 
also developed by NICEL for purposes of reducing violence and 
encouraging young people to get involved in community events, 
is rapidly growing in the 21st Judicial District which 
encompasses Menifee County.
    Finally, the Street Law Diversion Program that we began 
with in 1990 is still widely used by juvenile intake officers 
throughout the State as a diversion option for first time 
juvenile offenders. Many of these programs have undergone 
external evaluation by social scientists at universities 
throughout Kentucky.
    In 1993, Dr. James Fox and Dr. Kevin Minor from Eastern 
Kentucky University's Department of Correctional Services 
analyzed the Street Law Diversion Program. Their findings, 
which were released in the American Journal of Criminal 
Justice, indicated that as a result of participating in LRE, 
young people's attitudes towards persons and positions of 
authority, especially police officers and parents, did change 
and in a positive direction.
    Positive results were also noted in terms of behavioral 
changes and knowledge gained. The evaluators conclude by 
noting, these finds imply giving strong consideration to LRE 
when making decisions about what services to offer young 
offenders. This is merely a snapshot of the LRE Program 
activities ongoing in the Commonwealth.
    I would like to stress to this Subcommittee that this is 
only one State, that similar programs are underway throughout 
the Nation and that few of these activities in Kentucky or 
elsewhere would be possible or nearly as successful without the 
involvement of the National Coordinated Youth for Justice 
Program.
    Since 1990, we in Kentucky have maintained intensive 
involvement with this national group. They have provided 
juvenile justice practitioners, teachers, and law enforcement 
officers with numerous hours of training, technical 
consultation to my staff at the AOC, routinely invited us to 
national conferences to share our rich and diverse experience, 
and awarded seed and mini-grants to jump start new programs.
    They are an invaluable resource to the citizens of the 
Commonwealth and there must be provisions for them to continue 
these critical services. In conclusion, Mr. Chairman, this is a 
difficult time. Enormous challenges face the juvenile justice 
community and the Congress as we all continue to wrestle with 
the problem of frequent and increasingly violent juvenile 
crime.
    This is not, however, the time to let a multi-million 
dollar investment, which has proven to work, perish. We thank 
you, Mr. Chairman, and Members of the Subcommittee for your 
support over the years. We ask for your continued support. 
Thank you.
    [The statement of Ms. Williamson follows:]

[Pages 612 - 631--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. I appreciate you being 
with us. We now welcome Mr. Lawrence Molnar. Now, you're the 
Director of the EDA University Center at the University of 
Michigan.
    Mr. Molnar.  Yes, sir. I am.
    Mr. Rogers.  What's this about Western Carolina University?
    Mr. Molnar.  Western Carolina University also houses a 
university center funded by the EDA and they do wonderful work 
there too. I have a colleague, Carmine Clore, who is the 
Director of that center here supporting me and also a colleague 
from the University of Michigan, Cindy Banks.
    Mr. Rogers.  Glad to have you with us. You're recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

           EDA UNIVERSITY CENTER FOR ECONOMIC DIVERSIFICATION

                                WITNESS

LAWRENCE A. MOLNAR, DIRECTOR

    Mr. Molnar.  Thank you very much.
    I represent the University of Michigan and their 
Wolverines. I direct the Center for Economic Diversification 
that's funded by the Economic Development Administration. I'm a 
member of the Education Association of University Centers.
    We're a group composed of 68 university centers in 45 
States and Puerto Rico. We're located in institutions of higher 
education; our top colleges and universities. We provide 
economic development assistance to communities, as well as 
management and technology transfer assistance to business and 
industries.
    So, we're working in communities, as well as with 
companies. We focus on bringing the resources of the 
universities of our higher education system into play in local 
communities and in businesses. At the University of Michigan, 
we engage the College of Engineering, the School of 
Architecture for Urban Planning, the School of Information, the 
School of Natural Resources, Business School; all of the very 
great amount of expertise, resources, knowledge, and research 
that the universities can bring out and help with economic and 
community development issues.
    As we know, we have the strong need to compete globally. 
Economic security is related directly to national security. 
Economic development is an important part of economic security 
and that's what we do through the University Center Program is 
promote and foster economic development. A very important part 
of our program is collaboration with other programs. You've 
heard testimony about the Trade Adjustment Assistance Program 
for firms.
    We have a center at the University of Michigan located in 
our offices and we collaborate closely with them to bring a 
range of services to companies and communities. We also work 
with the Small Business Development Centers through the Small 
Business Administration. So, we do take advantage of other 
federally funded programs.
    We feel that this is probably one of the best deals 
provided to the U.S. Government; $6.8 million a year is our 
national budget. We leverage about $100 million in private 
sector funds for projects that we engage in. We also have at 
least a 2:1 match of the Federal funds from university sources 
and other matching sources within our programs.
    What we do is we create jobs. We retain jobs. We help 
communities attract and retain businesses. This impact is 
really something that would not take place if the universities 
weren't involved. We're the only federally funded program that 
does bring the universities and engage them in local 
communities and with firms.
    An example is in Kentucky where Eastern Kentucky Technology 
Center is funded and its university center is the secondary 
wood products industry. There was a tremendous initiative that 
took place over several years through the University's center 
there which has resulted in legislation in Kentucky and what is 
now a burgeoning secondary wood products industry.
    Other examples are provided in my written testimony. I can 
assure you that the types of activities that we are engaged in 
across the country create jobs, create tax revenues for the 
Federal Government, for state governments and local 
governments.
    When we look at it from a business school perspective, this 
is a high return on investment. We actually are in fact making 
money for the Federal Government by investing the money in this 
particular program. We operate 70 percent of our local programs 
to respond to local needs.
    We have a proven track record of creating these jobs. There 
is an impact statement in my testimony that was submitted. 
Again, $2 in local funds are applied for every one dollar of 
Federal funds. In the last year we leveraged $100 million out 
of the $6.8 million.
    We're requesting that you fund us at this level for this 
year. We'd also like to request that you consider doubling the 
amount of this investment over the next few years because if 
you double the investment we think you can double your return. 
We also very strongly support the reauthorization of EDA that 
you just heard about from NATO. I'd like to thank this 
Subcommittee for allowing me to appear here.
    I look forward to your continued support in the future. 
Thank you.
    [The statement of Mr. Molnar follows:]

[Pages 634 - 644--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. I appreciate your 
testimony. We now welcome Mr. Wayne Pacelle, Vice President of 
Government Affairs for the Humane Society of the United States. 
Glad to have you here.
                              ----------                              

                                          Thursday, April 17, 1997.

                  HUMANE SOCIETY OF THE UNITED STATES

                                WITNESS

WAYNE PACELLE, VICE PRESIDENT

    Mr. Pacelle.  Thank you very much, Mr. Chairman.
    I just want to touch on one subject in the oral testimony 
here. We generally are quite favorable toward the National 
Marine Fisheries Service and NOAA. Mr. Chairman, we were aware 
that you have expressed some concerns about some discretionary 
funding by NOAA; spending money without specific Congressional 
authorization.
    We want to raise a similar issue with you here and ask that 
specific language would be put in to prevent money, taxpayer 
money, from being spent for the purpose of funding the Makah 
Tribe in its effort to resume gray whaling.
    Gray whales are the subject of the Makah proposal. The 
Administration has been supporting this. You may be aware that 
the House Resources Committee met, on this particular effort by 
Jack Metcalf, and passed a resolution. When the International 
Whaling Committee met in Scotland last year, the Administration 
was pushing for the Makah proposal.
    The Resources Committee, all of the members, the 
Republicans and the Democrats, got together to pass a 
resolution against the Makah proposal. We were very troubled to 
learn that the National Marine Fisheries Service has provided a 
grant in cooperation with the BIA of $200,000 for this Makah 
whaling proposal.
    The Makah Tribe, as you may be aware, hasn't whaled in 70 
years. This is a group that is located on the Olympic 
Peninsula. We are just vitally concerned that taxpayer dollars 
are being spent to promote what the Makah are calling 
aboriginal whaling, but it's really a question of cultural 
whaling which they may move into commercial whaling.
    So, our request is very narrow and very specific. It is 
that no funds be spent for the purpose of supporting whaling by 
the Makah Tribe. I think it is important to note that the funds 
were designated in part prior to the granting of an IWC quota.
    The IWC is the International Whaling Commission. It's an 
international body. And no quota has been granted for the 
killing of gray whales, yet the National Marine Fisheries 
Service has given this $200,000 for that purpose. The funds 
granted to the Makah Tribe were discretionary.
    Therefore, the National Marine Fisheries Service could and 
should have disbursed them in a manner of more in keeping with 
the Marine Mammal Protection Act prohibition on marine mammal 
takes and with the will of the American public. The Congress 
has many times registered its views in a very bipartisan, 
almost unanimous way, against whaling.
    We see no reason to depart in this specific case. I just 
want to emphasize again that we would like to ask your 
Subcommittee to stipulate that for fiscal year 1998, in the 
National Marine Fisheries Service's budget that no 
discretionary or other funds be used to promote or otherwise 
support the Makah whaling proposal or the Makah Whaling 
Commission. Taxpayer dollars simply shouldn't be spent for this 
purpose.
    I think I'm the first one to conclude before my five 
minutes.
    [The statement of Mr. Pacelle follows:]

[Pages 647 - 653--The official Committee record contains additional material here.]


    Mr. Rogers.  You're the first one with the green light 
still on to get up and leave.
    Mr. Pacelle.  Thank you very much.
    Mr. Rogers.  I appreciate your being here. You've made some 
points.
    We're pleased to have here on board with us Mr. Harold E. 
Ford, a Member of Congress who represents the Ninth 
Congressional District of Tennessee. Mr. Ford, are you 
prepared?
    Mr. Ford.  Yes sir, Mr. Chairman.
    Mr. Rogers.  If you would take the microphone.

                              ----------                              

                                          Thursday, April 17, 1997.

                        SHELBY COUNTY, TENNESSEE

                                WITNESS

A.C. WHARTON, PUBLIC DEFENDER

    Mr. Ford.  Mr. Chairman, thank you sir, for the opportunity 
and certainly to all of the fellow colleagues on the Committee 
who may not be present.
    I'm here today to introduce one of our more accomplished 
figures from the City of Memphis, certainly one who has played 
an important role in our community back home in my city and in 
my county, Shelby County, City Public Defender, A.C. Wharton, 
who is here to introduce certainly an innovative juvenile 
transition program developed in conjunction with my County 
Mayor.
    The program is designed to provide juvenile offenders with 
a second chance to straighten up and make the right life 
choices by providing educational employment and mentoring 
opportunities through the assistance of local colleges, 
universities, and businesses, Mr. Chairman.
    The program is designed to ensure that participants who 
successfully complete the program, the requirements, will have 
a full-time job waiting for them or we will have the chance to 
pursue a college degree with tuition assistance from this 
program.
    Offering this kind of comprehensive rehabilitative 
environment is certainly a critically important step toward 
achieving our collective goal to producing juvenile crime and 
the rate of recidivism. However, as vital as this innovative 
juvenile offender program is, it ultimately could not 
achieveits goal without the inclusion of a preventative element that 
reaches our young people before they ever get in trouble with the law.
    That is not to say that initial prevention approaches alone 
are the solution either, Mr. Chairman, rather we, and by that I 
mean local, State, and the Federal Government, must find ways 
to create partnerships that will allow us to extend our limited 
resources in ways that have the greatest positive impact upon 
prevention and rehabilitation.
    I support Mr. Wharton and the County Mayor's Juvenile 
Offender Transition Programs and hope that this Subcommittee 
will work with my Mayor and Public Defender to find a creative 
way to fund and even improve the plan so that we do not have to 
tell our young people that we have an offender transition 
program that trains you for a job once you get in trouble, but 
nothing for you before you get in trouble in the first place.
    I thank you again, Mr. Chairman. I introduce to you, Mr. 
A.C. Wharton.
    Mr. Rogers.  Thank you, Mr. Ford, for being here.
    Mr. Wharton, we are pleased to have you. You are 
recognized.
    Mr. Wharton.  Thank you, Congressman Ford. May it please 
the Chair, I am A.C. Wharton, Chief Public Defender for Shelby 
County, Tennessee which is located in Congressman Ford's Ninth 
Congressional District there. We certainly appreciate the 
introduction, Congressman Ford. I serve as Chief Public 
Defender in the Criminal Courts. Unfortunately, on an ever 
increasing frequency, we are seeing young people coming into 
the adult criminal system at ages 15, 16, and 17 who tragically 
have been through a juvenile system but now find themselves 
coming into the adult system which simply is not prepared for 
these young individuals.
    As Congressman Ford pointed out, this should be only a 
portion of a continuum of prevention type programs. Obviously 
prevention would be the more favored and the preferable 
approach.
    Tragically, as we sit here today there are hundreds of 
young people who are trapped in the cycle of recidivism who, 
because after having completed their incarceration or whatever 
the punishment was in juvenile court, basically have no place 
to go once they have completed that particular punishment, 
whatever it may be.
    This is because their home situation, however that may be 
defined, may be accompanied by other criminal activity. It has 
been our experience, not simply anecdotal, but on actual case 
studies that many of these young individuals who, even though 
they have completed whatever punishment was imposed, go back to 
their home which is rife with the same negative environments 
that brought them there in the first place, but tragically when 
they come back to court, they come in having been accused and 
often in many instances found guilty of committing crimes of 
much greater severity.
    What we want to present today is a concept which is a form 
of supervised independent living. In those instances where a 
child has completed his or her punishment, but because of no 
fault of his own there simply is no place for them to go, this 
facility will serve as a transitional point through which they 
will go.
    They will be provided mentoring. And one innovative aspect 
of this program is that the mentoring will be done by local 
college students. The local universities have agreed to give 
them academic credit. And in many instances many of these young 
individuals will have come from similar socio-economic 
backgrounds. So, there will be an identification factor there.
    Secondly, we have gotten the business community to support 
this program, both in terms of giving these young individuals 
meaningful work opportunities while they are living in this 
facility. A part of their income will be allowed to be put away 
for future educational focuses for them, and also allow them to 
assist in their up-keep.
    The aspect of this program we wish to really highlight is 
that this does not take them away from their parents. They will 
be allowed to be in contact, because ultimately they're going 
to have to go back on their own. We hope that by allowing them 
to go through this process and to pick-up the life skills of 
the mentoring, the academic tutoring, the job training skills, 
or whatever, that even when they ultimately return to that 
home, however it may be defined, that they will have developed 
skills that they would otherwise have not had the opportunity 
to develop.
    We fully expect that this program will be taken over 
totally by Shelby County Government if it proves successful. We 
have every reason to believe that it will be. Already we have 
local financial assistance of roughly $1 million from the 
private sector, academic sector, and the local governmental 
sector.
    Mr. Chairman, we wish we did not have to come before you, 
Congressman Ford, and ask for this type of funding. But as I 
sit as Public Defender, there are hundreds of young people 
trapped in our system and I simply want to make certain that 
Shelby County, along with Congressman Ford's assistance, and 
hopefully the Federal Government's assistance will do 
everything that we can to keep those young individuals from 
penetrating more deeply into the criminal justice system.
    [The statement of Mr. Wharton follows:]

[Pages 657 - 667--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much for your testimony. 
Congressman Ford, we're delighted to have you here.
    Mr. Ford.  Thank you, again, Mr. Chairman.
    Mr. Rogers.  Mr. Wharton, we thank you very much.
    Mr. Wharton.  Thank you, Mr. Chairman.
    Mr. Rogers.  We now welcome Dr. Peter Eisenberger, Vice 
Provost of the Earth Institute at Columbia University. We are 
glad to have you with us. You are recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

                          COLUMBIA UNIVERSITY

                                WITNESS

PETER EISENBERGER, VICE PROVOST, EARTH INSTITUTE

    Mr. Eisenberger.  Thank you very much.
    Mr. Chairman, I hope to be the first witness to predict a 
green light performance before you.
    I'm delighted to appear before you on behalf of Columbia 
University and to testify about the funding for the Climate and 
Global Change Program of the National Oceanic Atmospheric 
Administration, NOAA.
    I'm Peter Eisenberger, Vice Provost of the Earth Institute 
at Columbia University in the City of New York and also the 
Director of the Lamont-Doherty Earth Observatory. The purpose 
of this statement is to request your favorable consideration of 
the funding level of $71 million for the Climate and Global 
Change Program implemented by the NOAA Office of Global 
Programs.
    I also urge your support for the $4.9 million increase by 
NOAA's Office of Oceanic and Atmospheric Research to provide a 
stable operational funding base for the tropical ocean 
atmosphere observing system. It provides critical support for 
the seasonal to inter-annual climate forecasting component of 
NOAA's Climate Global Change Program.
    These resources are essential to improving this Nation's 
ability to anticipate and respond to variations in climate. 
Anticipating climate variability and change is a natural 
extension of NOAA's historic weather and weather forecasting 
missions, and is a critical objective of the agency's unique 
contribution to the interagency U.S. Global Change Research 
Program. Since my testimony has been submitted, I won't repeat 
it here. Rather, I'd like to bring to your attention one 
particular point. Namely, we are entering a new era in human 
kind's ability to predict climate six to 12 months in advance.
    While we can't predict whether it will rain on a particular 
day, we can with increasing accuracy predict average rainfall, 
average temperature, and the frequency of natural disturbances 
like hurricanes six to 12 months in advance, and in some cases 
18 months in advance.
    The economic analysis has shown that this capability can 
provide prevention of losses in the U.S. alone of $5 billion a 
year. Furthermore, in consideration of various types of 
industries that are dependent upon climate, for example, like 
agriculture, studies have shown that one can increase the 
performance of those sectors of the economy.
    For example, a detailed study of the southeastern United 
States has shown in the agriculture sector alone, one could 
have increased productivity worth $100 million a year. A part 
of the increase that is being requested for NOAA would be used 
to increase our ability for disaster planning to enable when 
you take preventive measures in anticipation of, for example, 
increased frequency of hurricanes. As you can imagine, this has 
both increased economic and humane benefit. And thus these 
programs will provide the fruits of increased scientific 
capability to our citizens of our country. Therefore, I think 
your Subcommittee can by supporting NOAA's increase bring in a 
new era in human kind's relationship to nature. Thank you very 
much.
    [The statement of Mr. Eisenberger follows:]

[Pages 670 - 675--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. That's a green light performance. 
We appreciate your testimony.
    Mr. Eisenberger.  I predicted that.
    Mr. Rogers.  You get a $5 bonus.
    We now welcome Ms. Amy Taylor, Director of Congressional 
and Legislative Affairs, Commercial Weather Service 
Association. Ms. Taylor, you are recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

                 COMMERCIAL WEATHER SERVICE ASSOCIATION

                                WITNESS

AMY TAYLOR, DIRECTOR OF CONGRESSIONAL AFFAIRS

    Ms. Taylor.  Thank you.
    Thank you, Mr. Chairman for the opportunity to appear 
before you today related to the National Oceanic and 
Atmospheric Administration and the National Weather Service.
    Today, I am representing the view of the Commercial Weather 
Service Association which is the national trade association for 
private weather firms. Our members are forecasting and 
information services to private and public customers, including 
the print and broadcast news media, agriculture, 
transportation, marine, aviation, and other weather sensitive 
industries.
    Many policy makers are not aware of the already large role 
played by the private weather industry. Private meteorologists 
and for-profit companies provide the public upwards of 85 
percent of its weather forecasts through television weather 
casts and newspaper weather maps on the radio and over the 
Internet.
    Commercial weather companies play an indispensable role in 
our Nation's economy by providing tailored business specific 
weather information. Because of the significant and ever 
increasing role of the private sector, major budget savings for 
the government can be realized if Congress makes some needed 
legislative changes to the National Weather Service's mandate.
    The proper changes will allow the National Weather Service 
to put greater emphasis on fulfilling its core mission of 
collecting and achieving raw data, weather data, and providing 
severe weather warnings. The following is a summary of three 
major areas that should be considered by the new Congress.
    First is the National Weather Service should shift funding 
allocations to the core mission. Instead of blanket funding a 
vast array of services that the National Weather Service now 
provides, they should instead focus on instead funding services 
which fall under their core mission.
    The Commercial Weather Service Association has always been 
100 percent in support of fully funding the National Weather 
Services core mission services. The National Weather Service 
should concentrate on providing these services which include 
data collection, generation of a sophisticated suite of 
computer guidance models, and the implementation of the latest 
forecast technology through modernized field offices to 
generate general public forecast and emergency warnings of 
severe weather.
    To achieve this goal, the National Weather Service should 
have, and be, allocated sufficient funding each cycle. The 
second issue would be to eliminate specialized weather services 
from the government. Specialized weather services provided by 
the National Weather Service have been an area which the 
Reagan, Bush, and Clinton Administrations have all agreed 
should be eliminated.
    A large private sector capability exist which already 
provides these services directly at user cost, and at no cost 
to the taxpayer. There is no reason why the Federal Government 
needs to provide or to subsidize other government, or non-
profit institutions to provide site-specific tailored or 
specific forecasts and data to business industry media, 
governmental agencies, or special interests.
    Private sector entrepreneurs are ready and willing to 
absorb all demands for these types of services, thus allowing 
the National Weather Service to focus on its core mission. In 
the fiscal year 1998 budget request, the National Weather 
Service's only privatization request is a $2 million decrease 
for the privatization of the Regional Climate Center Program.
    The National Weather Service appropriately states that the 
RCCs provide specific regional climate information that can be 
more appropriately provided by non-Federal sources. This 
realization by the National Weather Service should also be 
applied to other specialized services which the National 
Weather Service currently is providing at taxpayers' expense.
    The exact scope and extent of these specialized services is 
believed to be extensive, but they do not show up as budget 
line items and are difficult to identify. However, it is safe 
to say that significant budgetary savings can be realized if 
provision of specialized services by the National Weather 
Service will be appropriately handled by the private sector.
    There are too many examples of government competition with 
the private sector and the weather industry to relate to you 
today. However, the following example illustrates the extent of 
this problem. The National Weather Service provided specialized 
weather forecast warnings and personal consulting services to 
the Atlanta Organizing Committee of the 1996 Olympics.
    The National Weather Service's Office in Atlanta had to 
hire approximately a dozen extra on-site staff for the purpose 
leading up to and during the 1996 Olympics. Additionally, the 
National Weather Service opened an office in Savannah, Georgia 
staffed with five forecasters to provide services specifically 
for the Summer Olympics.
    Many areas where savings can be obtained have not yet been 
listed by NOAA. To identify the savings, a comprehensive look 
at current Weather Service activities are in order. Cutting 
these industry and company-specific services out of the Federal 
budget will not spell their termination, but allow the private 
sector to provide them to the weather sensitive industries at 
no cost to the taxpayer. Thank you.
    [The statement of Ms. Taylor follows:]

[Pages 678 - 693--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Mr. Brian Little, Director of Government 
Relations, American Farm Bureau Federation. You are recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

                    AMERICAN FARM BUREAU FEDERATION

                                WITNESS

BRIAN LITTLE, DIRECTOR, GOVERNMENT RELATIONS

    Mr. Little.  Thank you, Mr. Chairman. With a little luck, I 
may also be able to complete my statement before the green 
light goes off. I'll certainly endeavor to do that if at all 
possible.
    Mr. Rogers.  All right.
    Mr. Little.  Mr. Chairman and Members of the Subcommittee, 
I am Brian Little, Director of Government Relations for the 
American Farm Bureau Federation. One of the subjects of today's 
hearing is the fiscal year 1998 funding for the Legal Services 
Corporation.
    The Corporation and the activities of its grantees has been 
a matter of great concern to the Farm Bureau for a number of 
years. Almost since the inception of the Corporation, its 
grantees have shown a proclivity to sue farmers for technical 
and deminimus violations of the extensive laws regulating farm 
employment, often treating farmers unfairly in the process.
    The testimony of AFBF President, Dean Kleckner, at a June 
19, 1995, LSC oversight hearing in the U.S. Senate provides a 
comprehensive overview of these farmer related problems. I 
would request that this be submitted for the record of this 
hearing.
    For more than a decade, Farm Bureau has supported a package 
of performance introduced as legislation by Representatives 
Bill McCollum and Charlie Stenholm. In 1995,Congress enacted 
these reforms in the business practices of Legal Services Corporation 
and restrictions of the activities of the grantees as a part of the 
appropriation for LSC.
    This occurred in no small part due to your leadership, Mr. 
Chairman, and for your efforts we are grateful. Among these 
important reforms, we increased LSC staff resources to enforce 
grantee restrictions along with restrictions against grantee 
participation and class action lawsuits, representation of 
illegal aliens, and participation in a variety of other legal 
activities.
    In the months since the enactment of these restrictions, 
some of the legal aid community have taken a dim view of this 
Congressional effort to ensure that taxpayers' dollars are 
spent as wisely as possible. In one case recently brought by 
grantees of the Ninth Federal Circuit in Hawaii, the judge 
granted a temporary restraining order on Constitutional grounds 
against enforcement of seven key activity restrictions, 
including those against lobbying and participation in 
rulemaking.
    Should these grantees prevail in this lawsuit, presumably 
these activity restrictions will be invalidated for all 
grantees located in the Ninth Federal Circuit. At a minimum, 
such a ruling would set a disturbing precedent.
    Another alarming development in recent months has been the 
apparent ineffectiveness of the competitive bidding process. 
This was the subject of extensive discussion at the 
Corporation's appropriations hearing in February. Apparently, 
of more than 300 service areas created by legal services to 
determine territorial responsibilities for service providers, 
new bidders succeeded in winning a contract in 14. Worse yet, 
on March 18, one of these bidders withdrew its bid under 
intense political pressure from legal aid advocates.
    I should here call to your attention that my written 
statement is in error on the point of how many new bidders 
succeeded in winning contracts, although the difference does 
not diminish the overall point. I ask that the record in this 
proceeding reflect my verbal correction of this error.
    Mr. Chairman, this rash of problems with these reforms 
cause us to question whether these restrictions, in spite of 
their good intentions, will ever have their desired effect. 
Clearly a number of the grantees have no desire to be regulated 
as evidenced by their lawsuit campaign to invalidate the 
restrictions.
    One wonders why when legal aid advocates could find the 
funds to stage lawsuits to invalidate the restrictions and to 
create new funds shadow legal aid operations created for the 
purpose of evading Congressional restrictions. Those funds 
could not be put to Congressionally sanctioned purposes.
    Since it appears likely that the Ninth Federal Circuit 
Court will invalidate the 1995 restrictions for grantees within 
its jurisdiction, the Farm Bureau would recommend that the 
Committee phase in a delivery system like that specified in 
House Resolution 2277, introduced by Representative George 
Gekas in the 104th Congress and reported to the House by the 
Judiciary Committee for service areas within the Ninth Federal 
Circuit.
    Should the 1995 activity restrictions be invalidated for 
the rest of the Nation or any portion of it, we would recommend 
that the Committee move quickly to implement this nationwide. 
Should Congress chose not to move on the recommendation to 
adopt such delivery system, Farm Bureau would recommend that 
Congress give strong consideration to terminating the program 
all together.
    We made this recommendation with confidence that doing so 
would not result in the disastrous lack of legal aid for the 
poor, routinely forecast by LSC supporters should Congress 
terminate the program.
    In a November 1996 article in Perspectives in Philanthropy, 
former LSC Attorney Inspector General and Utah Attorney 
General, David Wilkinson, carefully studied alternative sources 
of funding in delivery for legal services for the poor.
    Mr. Wilkinson estimates that LSC grantees take in at least 
$324 million from other funding sources; 1,350 providers of 
indigent legal services who accept no government funding spend 
more than $200 million to do so. Additionally, 400,000 to 
600,000 lawyers perform 24 million hours of pro bono services 
annually valued at $3.3 billion. I would ask that a copy of Mr. 
Wilkinson's article be placed in the record.
    [The article referred to follows:]

[Pages 696 - 701--The official Committee record contains additional material here.]


    Mr. Little.  I'm almost done. Mr. Chairman, Farm Bureau is 
grateful for your efforts over the past two years to address 
the endemic problems of Legal Services Corp. and its grantees.
    We share your frustration that the Corporation and its 
grantees are not putting forth a good faith effort to comply 
with the wishes of Congress. We would recommend that you give 
strong consideration implementing an alternative delivery 
system or discontinue the program all together.
    At a minimum, we would recommend a significant reduction in 
LSC funding. Thank you for your time and attention.
    [The statement of Mr. Little follows:]

[Pages 703 - 716--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. You ran the red light, so 
it's a $5 fine.
    We now welcome Ms. Doreen Dodson, Member of the Standing 
Committee on Legal Services and Indigent Defenders, American 
Bar Association.
                              ----------                              

                                           Thursday, April 17, 1997

                        AMERICAN BAR ASSOCIATION

                                WITNESS

DOREEN D. DODSON, MEMBER

    Ms. Dodson.  Thank you, Mr. Chairman.
    I appreciate the opportunity to be here today. I don't know 
if I'll beat the green light, but I'll try to keep my remarks 
short because our testimony is before you.
    I'm a lawyer in private practice in St. Louis, Missouri, 
and as you've said a Member of the Standing Committee on Legal 
and Indigent Defenders of the American Bar Association. I'm 
here today on behalf of the ABA and its 380,000 Members, and at 
the request of our President, N. Lee Cooper, to speak in favor 
of funding for Legal Services Corporation.
    I would ask Mr. Chairman and urge that this Subcommittee 
approve an appropriation of not less than $340 million for 
fiscal year 1998. Let me just say a few words about why I 
believe this is so important to the ABA. Legal Services 
Corporation, and I must confess, I disagree with the gentleman 
who preceded me, Mr. Little.
    I believe it is our government's contribution to a national 
public/private partnership that fulfills the first enumerated 
purpose of our government set forth in the Constitution and 
that is to establish justice. LSC, I believe, is a 
fundamentally conservative program.
    It facilitates the peaceful resolution of disputes and 
allows people to grow in their respect for law. As you know, 
the 104th Congress, through its appropriation process, put many 
restrictions on the type of cases and the type of clients that 
legal service programs could accept. In addition, the funding 
was cut by one-third. LSC has been working extremely hard, Mr. 
Chairman, to make sure that all of its grantees comply.
    For instance, last July, even before the law went into 
effect, it passed 14 emergency regulations that specifically 
addressed some of the key issues that were of concern to you 
and to others last year, including class actions, non-LSC 
funds, and certain eviction cases involving drug offenders.
    I also want to point out that soon after the law went into 
effect, the legal service programs divested themselves of all 
of the class action lawsuits which they then had pending. The 
impact of the funding cuts, however, has been very painful and 
very deep.
    We have lost a little more than 200 neighborhood Legal 
Services Offices. In 1995, Legal Services served approximately 
1.6 million cases. In 1996, that dropped by 15 percent to 1.4 
million. Statistically, we know we still have 40 million 
Americans who live below the poverty line, but I would submit 
to you that this is not a poverty program.
    This is a legal program. It is important, it's sort of the 
bedrock of our democracy on the Constitution principle of 
establishing justice. It's a model of local community based 
partnership. I speak to you on behalf of the ABA and also as a 
person who has had 21 years of experience with local legal 
service programs.
    I've seen them from all kinds of levels. Their involvement, 
for instance, in the floods of 1993 when it was the best of 
that partnership when they worked hand-in-hand with FEMA and 
the Young Lawyers Division of the ABA to provide services. The 
same thing occurred in earthquakes in California. The same 
thing in the hurricanes that hit Florida.
    The Director of FEMA said that he could not have done the 
job he was supposed to and help the people he was supposed to 
do without the help of Legal Services. We submit, Mr. Chairman, 
that this is not the Federal Government's responsibility by 
itself. We know that.
    The private lawyers are prepared to shoulder that 
challenge. We are the ABA. We support pro bono programs. It has 
a center. It has special committees. It has put its money and 
its time where its mouth is. But private lawyers cannot bear it 
all. They cannot do the full task.
    The 60 percent of funding that the Federal money provides 
to legal services programs is essential leverage to bring in 
the other funding from United Way, from private bar 
contributions, from bar associations, law firms, and so on. I'm 
very aware of this Congress' commendable efforts to reduce the 
budget, curve the budget on necessary spending, and reduce the 
deficit.
    In fact, it being the week of April 15th and a taxpayer, 
I'm extremely appreciative of your efforts in that regard. I 
believe, however, legal services appropriation has borne the 
brunt of the budget cutting efforts in a highly 
disproportionate manner. I would urge that this Subcommittee 
approve the $340 million, approved last year by the Senate and 
recommended by the Administration.
    Thank you, Mr. Chairman.
    [The statement of Ms. Dodson follows:]

[Pages 719 - 728--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Mr. David Brown, President of SUNY Maritime 
Academy of New York. Mr. Brown, you are recognized.

                              ----------                              

                                          Thursday, April 17, 1997.

                   STATE MARITIME COLLEGES/ACADEMIES

                                WITNESS

DAVID C. BROWN

    Mr. Brown.  Good afternoon, Mr. Chairman.
    I am here today with my colleagues, Admirals Tyler and 
Breshnaham from the Maine Maritime Academy and Massachusetts 
Maritime Academy as well. We also represent State Maritime 
Academies in Texas, California, and the Great Lakes Region.
    Most of us have been designated or are being designated 
Regional Maritime Academies. We also represent 16 other States, 
each with strong interests in the maritime industry and 
maritime education and training.
    Our schools exist, Mr. Chairman, because the United States 
is a maritime Nation dependent upon waterborne commerce for the 
export and internal distribution of raw materials and 
manufactured goods. Our National security and our economy 
require that we have an adequate Merchant Marine and shore side 
support structure for both international and domestic shipping.
    Adequate sealift capability is absolutely essential to 
support and to sustain any military operation beyond America's 
shores. The state maritime academies are the primary recruiters 
and trainers of the men and women needed to meet those 
requirements.
    Let me put that last comment in perspective, sir, because I 
believe that there are some misconceptions about what the 
Nation's maritime academies do and what they cost the American 
taxpayer. The state academies are an ideal example of a 
successful State and Federal partnership providing trained 
professional mariners to meet a national need in the most cost 
effective manner. The Administration's fiscal year 1998 budget 
includes $8 million for the state schools, even when augmented 
by what we understand will be $1.5 million from the Ready 
Reserve Force.
    This request represents no increase since 1987. Let me 
point out why in terms of Federal expenditures, the government 
and the American taxpayer receive a very high return on their 
investment in the six state schools. Seventy-five percent of 
the Nation's licensed Merchant Marine Officers are educated and 
trained by the state schools, with the students and States 
underwriting 90 percent of the cost.
    Five of the schools operate training ships owned by and on 
loan from the Federal Government to provide our cadettes 
federally mandated sea time for licensing as Merchant Marine 
Officers. Two of them are Ready Reserve Force ships maintained 
by the schools at about one-third of the cost of the other RRF 
ships.
    State academy graduates enjoy a 100 percent job placement 
rate; the vast majority in the maritime. This, I think, is an 
enviable record of transition from student to gainfully 
employed taxpayer. Just like their Federal academy 
counterparts, but in greater numbers, our graduates can be 
found in the most senior levels of their profession, as ship 
masters, and chief engineers, maritime industry chief 
executives, and as flight officers in the Navy and the Coast 
Guard, up to the four-star rank.
    Our schools are recognized worldwide as centers of 
excellence in maritime education and training. Our graduates 
are able to meet both U.S. Coast Guard Safety and Oil Pollution 
Act requirements, as well as international standards for 
training, certification, and watch keeping.
    They are needed to help our deep sea and inland fleets 
safely and be in compliance with federal and international 
regulations. They also provide immediate expertise and 
professionalism in the vast shore side areas of the maritime 
industry, the intermodal industry.
    That industry, incidently, is robust and growing, not 
dying. Nationally, it contributes $780 billion to the GDP and 
generates over 15 million jobs. In my State of New York alone, 
it is a $15 billion industry. Waterborne commerce represents 
the most cost effective method of transportation and will 
always be a strong segment of the national economy.
    There will be a continuing need for the nearly 3,000 highly 
motivated young men and women from around the country who 
attend the state maritime academies in order to enter this 
growth industry. I spoke of the model Federal/State partnership 
which our program represents.
    To express it in numbers, the $9.5 million appropriation we 
require is allocated to the six schools as follows: $6.9 
million for maintenance and repair of the five federally owned 
training ships, two of which as I mentioned service RRF ships; 
$1.4 million for student incentive payments for cadettes 
enrolled in the Navy and Merchant Marine Reserve Program who, 
like their federal academy peers, incur reserve service 
obligations, and $1.2 million for the administrative costs of 
complying with the National Maritime Education and Training Act 
as state nautical schools, another Federal mandate.
    Every dollar of our Federal appropriation is used to meet a 
Federal mandate and directly benefits the Federal Government. 
The largest single item in our Federal appropriation, the 
training and ship maintenance and repair fund, is for 
regulatory, Federal work which cannot be performed by the 
schools or our students such as Coast Guard required dry 
dockings.
    The Maritime Education and Training Act, incidently, states 
that the Federal Government shall maintain these training ships 
owned by the Federal Government in good repair. In summary, Mr. 
Chairman, the Federal Government and the American taxpayer 
received a direct return on every dollar spent on the state 
schools.
    The state maritime academy system is a cost effective 
investment in education, jobs, and our national security. We've 
met this need since 1874 when the first of our schools was 
established. Our students contribute 51 percent and our States 
38 percent of the cost of these programs. But without the 
critical 11 percent federal investment, we will not be able to 
meet the federal requirements of the state nautical school or 
provide the sea time required by law for the licensing of our 
students.
    We will not be able to perform our federally mandated 
mission, sir. We respectfully request a favorable consideration 
for the funding requested in our programs for the Maritime 
Administration bill. We'd be pleased to answer any questions, 
sir.
    [The statement of Mr. Brown follows:]

[Pages 732 - 739--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We now welcome Mr. David Woodford, Branch Manager of Motor 
Vehicle Licensing for the Commonwealth of Kentucky.

                              ----------                              

                                          Thursday, April 17, 1997.

    COMMONWEALTH OF KENTUCKY, AMERICAN ASSOCIATION OF MOTOR VEHICLE 
                             ADMINISTRATORS

                                WITNESS

DAVID K. WOODFORD

    Mr. Woodford.  Good afternoon, Mr. Chairman.
    Commissioner Ed Logston from the Department of Vehicle 
Regulation in Kentucky wants to send you his personal regards 
and also wants to commend you for the leadership that you have 
shown in matters related to motor vehicles and law enforcement.
    Mr. Rogers.  Tell Ed hello for me.
    Mr. Woodford.  Yes, sir.
    I'm here today representing the American Association of 
Motor Vehicle Administrators to give you the good news 
regarding the progress that we are making on the National Motor 
Vehicle Title Information System and to seek your continued 
support.
    This Association and its subsidiaries represent State and 
Provincial officials in the United States and Canada who are 
responsible for the administration and enforcement of laws 
pertaining to motor vehicles and drivers. We're consistently 
searching for improved methods and new technologies to enhance 
service deliveries to our customers, including law enforcement 
agencies.
    The Anti-Car Theft Act of 1992 directed the States to 
participate in a National Motor Vehicle Title Information 
System which at the time did not exist. Since that time, the 
States have worked together to see how the concept of such a 
National system could be implemented. This system would not be 
intended to replace State primacy or the State role in motor 
vehicle licensing--but essentially to connect those systems 
together in a more modern and efficient way so that electronic 
checking could be done.
    As an example of this probably when you register your 
vehicles in Kentucky, you probably see Willard Hansford in 
Pulaski County Clerk's Office. Right now, Mr. Hansford is 
relying on the same techniques he has for 15 years or so. When 
he gets out of state documents that come in from another 
jurisdiction, all he can do is verify physically the piece of 
paper.
    With all of the electronic commerce that we have, doesn't 
it make sense for him to be able to validate that information 
electronically with the State that originally issued it. Also, 
the way we are doing things now, that original State will not 
know for months later that the Kentucky record is superseding 
theirs.
    So, there are a lot of foundations to this system that we 
believe will enhance the service deliveries. But also as a part 
of this, the driving force behind this system is not just to 
improve efficiencies for our regular operations, but to enhance 
the efforts against auto theft.
    There are still about 1.5 million vehicles stolen per year. 
In Kentucky, we have about 9,800 vehicles stolen each year. We 
are not particularly a high theft state. Also, as far as the 
other benefits in terms of this, this would not just be for 
that kind of verification of out of State documents, but other 
things that are used or for exported vehicles to give customs 
and other officials the ability to check the validation of 
State records before ships left through ports.
    We have attached as a part of our testimony here a week-
old, just this past week, resolution from the Florida units 
involving auto theft asking for the assistance of Congress in 
going ahead and implementing this national system.
    Another thing that we believe this system would do would be 
to help us with situations involving salvage vehicles and the 
other kind of checking that can occur as we check these records 
interstate. As I've said, there is good news we have of what is 
happening at this point.
    In the next few months, we're going to have seven States 
implement the National Motor Vehicle Title Information Pilot 
System. What we are asking for here is that there not be any 
kind of gap in funding so that the additional States who want 
to come on board if the pilot is working would have the funds 
available to connect their system so that they can make the 
changes necessary to their information systems so that we could 
move ahead and add additional States.
    We believe the fact that we can put a lot of States on 
board in a hurry is what is going to be necessary to make a 
national system truly operative. We believe that there are a 
lot of benefits to this. We believe that the motor vehicle 
administrators themselves are ready to do this and law 
enforcement is ready to do this. We ask, Mr. Chairman, that we 
have both the vision and the ability in terms of funding to be 
able to see that this system can become a reality. Thank you 
very much.
    [The statement of Mr. Woodford follows:]

[Pages 742 - 749--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much. It is good to see you.
    Mr. Woodford.  Yes, sir; likewise.
    Mr. Rogers.  We are pleased to have with us our colleague, 
Mr. Payne, from the Great State of New Jersey. Welcome, 
Congressman, the floor is yours.

                              ----------                              

                                          Thursday, April 17, 1997.

                       CITY OF NEWARK, NEW JERSEY

                                WITNESS

GLEN A. GRANT, CHIEF OPERATING OFFICER

    Mr. Payne.  I appreciate this opportunity. Thank you for 
giving us this opportunity to testify today about several 
projects that are very important to the Tenth Congressional 
District of New Jersey.
    It's a pleasure for me to introduce to the Subcommittee the 
Business Administrator for the City of Newark, Mr. Glen A. 
Grant as the Chief Operating Officer of New Jersey's largest 
city. He oversees more than 4,000 employees and a budget of 
approximately $500 million.
    He has shown innovative leadership in managing departments 
responsible for public safety, health, sanitation, revenue 
collection, and land use development. During Mr. Grants tenure 
as Business Administrator, the city's fiscal operation has 
shown a positive cash flow as a result of his emphasis on sound 
fiscal policies.
    Today, Mr. Grant is going to outline for this Subcommittee 
some of Newark's highest priorities. These include addressing 
the problem of abandoned industrialized properties, including 
the Waverly Yards site. As a former Member of the Municipal 
Government and being a Councilman there working with Mr. Grant 
I know of his great abilities.
    So, I'd like to once again thank you for this opportunity. 
We appreciate your interest in the future of the City of 
Newark. Mr. Glen Grant.
    Mr. Grant.  Good afternoon, Mr. Chairman.
    Mr. Rogers.  Good afternoon.
    Mr. Grant. Thank you for this opportunity to speak to you 
today about economic development opportunities in Newark, New 
Jersey. Newark is at the heart of a vast metropolis that now 
extends from Boston to Washington, D.C.
    Only one quarter of the population of this country either 
lives within or is easily accessible to this area. We're only 
eight miles west of New York City, within 100 miles of 
Philadelphia, and only a four-hour or a one-hour flight away 
from Boston or Washington.
    Our location is enhanced by a ready access to 
transportation, intermodal connections, including rail, sea, 
access to highway, and importantly our State highway system. 
The Port Authority of New York and New Jersey has become the 
largest container port on the East Coast because of our ability 
to move goods quickly and economically to and from the area.
    Newark International Airport is the ninth largest airport 
in the United States and is one of the fastest growing in the 
country. Despite our active port and airport facilities, 
however, Newark is faced with some immense problems. We are 
faced with a staggering unemployment rate that hovers around 15 
percent.
    We are the fifth most densely populated city in the nation 
where the mean family income is only barely above the poverty 
line. Our population is poor. The 1990 Census showed an 
aggregate poverty rate of 26 percent. An incredible 37 percent 
of our children live below the poverty level.
    A full 50 percent of our children in our public schools are 
from families receiving AFDC. Jobs for parents of these 
children will positively affect this population more than any 
other factor. We have lost many of the jobs that match the 
skills and the work experience of many of our people.
    Newark has been designated a federal enterprise community 
and the projects which I am proposing to you are for funding 
and consideration and will briefly provide the opportunity for 
more employment for these residents. The City of Newark is 
proposing two important and distinct projects in close 
proximity to Newark International Airport.
    Directly across U.S. 1 and 9 and the airport, is an under-
utilized site known as the Waverly Yards. The site is comprised 
of approximately 100 acres and is a former rail yard. The City 
now seeks to develop this property to its fullest potential.
    To do so, several critical infrastructure improvements must 
be accomplished. First, there is currently only one roadway 
leading into the site. Right-of-way acquisition through 
property owned by existing businesses and roadway construction 
is necessary for appropriate accessibility.
    Secondly, some of the area will require environmental 
remediation before facility construction can take place. Also, 
basic site services such as power, water, and communication 
lines need to be brought into the location. Site clearance and 
acquisition of several parcels from private owners will 
complete a building site of unparalleled attractiveness.
    Finally, the Port Authority of New York and New Jersey has 
begun operating the first phase of an airport monorail which in 
its second phase will cross U.S. 1 and 9 and connect to a new 
stop on the northeast corridor rail line in the Waverly Yards.
    This will provide a direct first rail linkage with downtown 
Newark and all of its rail connections. The City proposes to 
locate an international trade center which is currently in 
study and preliminary design on the site.
    We are requesting that this Committee make an appropriation 
of $6 million to help us reach our long-range goals for the 
Waverly Yards to enable the generation of jobs for our citizens 
and to enhance the regional transportation center.
    Only a mile or two away from the Waverly Yards lies an area 
in need of redevelopment which could have a tremendous impact 
on the economic well being of our city. There is an inventory 
of at least a dozen factories and warehouse buildings which 
have become under-utilized, even abandoned.
    Some of them are city-owned as a result of tax foreclosure. 
Many others have simply been closed by their owners. Thousands 
of manufacturing and shipping jobs have been lost in the 
Frelinghuysen Avenue area. Yet, Port Newark and the airport are 
directly in the eye's view of this area. The City is proposing 
a project which will provide supplemental funds to retrofit 
under-utilized buildings to enable them to reuse these 
industries. An appropriation of $3 million is requested for 
this area.
    To conclude, I have come before you today to ask for help 
in changing the situation in Newark. To ask you to help in 
obtaining funding for projects that will create long-term 
economic opportunities for people who currently have none. To 
ask for help in presenting the chance for some of Newark's 
currently unemployed population to earn a decent salary to 
which a family can be supported.
    Thank you for your time and attention.
    [The statement of Ms. Taylor follows:]

[Pages 753 - 756--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much for your nice 
presentation.
    Mr. Payne, it is good to see you and good to have you here.
    Mr. Payne.  Thank you.
    Mr. Rogers.  We now welcome Mr. John Snow from the 
University Corporation for Atmospheric Research. Mr. Snow, you 
are recognized.
                              ----------                              

                                          Thursday, April 17, 1997.

            UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH

                                WITNESS

JOHN SNOW, PROFESSOR

    Mr. Snow.  Thank you, Mr. Chairman.
    As you indicated, I am John Snow, Professor of Meteorology 
and Dean of the College of Geosciences at the University of 
Oklahoma. I also Chair the Board of Trustees at the University 
Corporation for Atmospheric Research. I am today representing 
that corporation. UCAR, as it is known, is a non-profit 
organization governed by 62 universities and grant Ph.D. 
degrees in the atmospheric and related sciences. UCAR operates 
the National Center for Atmospheric Research in Boulder, 
Colorado and numerous other programs that serve the atmospheric 
research and education needs of the nation. UCAR is committed 
to supporting research applications that protect lives and 
property from weather hazards which increases our nation's 
economic competitiveness. This commitment leads me to provide 
this testimony on the NOAA fiscal year 1998 budget, and 
specifically on the proposed budget of the National Weather 
Service.
    Our nation's need for a strong national weather service is 
found in the extreme weather and flooding prevalent in the 
United States. One only has to look at the evening news to see 
that today. During the period 1988 to 1996, the United States 
experienced more than 7,000 weather related fatalities and 
incurred $140 billion in weather related property loss.
    Experience has shown that better weather forecasts and 
timely warnings reduce fatalities and allow for better disaster 
preparedness which in turn significantly reduces the human and 
economic impacts of severe weather events.
    The $42.2 million shortfall in the National Weather 
Service's fiscal year 1997 budget will have a profound affect 
on the ability of the agency to perform its essential mission. 
Since 1994, the National Weather Service has received no new 
funds for cost of living adjustments and considering the fact 
that approximately 70 percent of its budget funds 5,000 
employees.
    The National Weather Service is forced to address built-in 
staff reductions of approximately 150 employees per year, which 
works out to be about one person per office per year by every 
annual cost of living increase voted by Congress. Even with the 
$10.8 million restoration of base proposed in the fiscal year 
1998 budget, the National Weather Service will face at least a 
$31 million shortfall in operating funds in the coming year.
    The $4 billion investment that the Nation has made over the 
last decade in the modernized National Weather Service has 
already paid enormous dividends in earlier warnings and more 
accurate forecasts.
    The modernization plan, a carefully crafted plan to 
modernize and streamline the agency that began in 1988, has 
significantly enhanced atmospheric observations through the 
addition of new Doppler Radars, new satellites, new wind 
profilers and new automatic observing stations.
    The information generated from the data collected by these 
tools has the power to save hundreds to thousands of lives each 
year. It would be a tragic waste not to follow through with the 
modernization when it is so near completion and the power of 
the new observing tools is so close to being fully realized.
    The National Weather Service is critical to the United 
States in providing meteorological data to the private and 
public sectors, the recreation industry, the insurance industry 
and the aviation industry to name only a few. NOAA and the 
Congress should fully fund observing systems and their 
maintenance so the American people can receive the high quality 
weather forecasts and timely warnings necessary to protect 
lives and property.
    The restructuring component of the modernization plan aims 
to reduce personnel while increasing forecast accuracy by 
incorporating major new technology and new operating 
structures. Developed by a large group of respected scientists, 
engineers, and administrators over a period of several years, 
the plan was accepted and funded by Congress.
    Over the last decade, the National Weather Service 
modernization plan was built on the assumption that the 
National Centers for Environmental Prediction would provide 
short-term guidance and extended forecasts. NCEP must continue 
to provide a full spectrum of centralized services in order for 
the modernization to be completed, the approved reductions in 
personnel carried out and the tenant of no reduction in service 
realized.
    The fiscal year 1997 and the proposed fiscal year 1998 
budgets significantly reduce the NCEP funding. Basically, 
altering the assumption under which the modernization plan was 
undertaken.
    UCAR encourages NOAA and the Congress to provide sufficient 
funding to maintain a vibrant, well-trained National Weather 
Service workforce, a fully function national observing system, 
and in particular, a strong National Centers for Environmental 
Prediction to operate a modernized National Weather Service as 
originally was approved back in 1988.
    A strong National Weather Service underpins our Nation's 
economy while providing for the safety and security of its 
people. UCAR encourages NOAA and the Congress to continue and 
fully fund the approved National Weather Service modernization 
plan. Thank you for this opportunity to appear before you.
    [The statement of Mr. Snow follows:]

[Pages 759 - 776--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you very much.
    We now welcome Mr. Kenneth Boehm, Chairman, National Legal 
and Policy Center.
                              ----------                              

                                          Thursday, April 17, 1997.

                    NATIONAL LEGAL AND POLICY CENTER

                                WITNESS

KENNETH F. BOEHM, CHAIRMAN

    Mr. Boehm.  Mr. Chairman, I'm Ken Boehm with the National 
Legal and Policy Center. I'd like to address the question of 
the Legal Services Corporation appropriation request for the 
coming year.
    As you know last July 23rd an historic debate took place on 
the floor of the House of Representatives about the future of 
Legal Services. Looking through the debate in the Congressional 
Record, every proponent of Legal Services reiterated one thing: 
That Legal Services should be given a chance for the new 
reforms and new restrictions to work.
    They've just been recently enacted and they really had not 
been fully operational. They said, give Legal Services a chance 
to show that they can comply with these reforms and then maybe 
we will have a de-politicized, cleaned up program. The critics 
argued that reforms attempts had been made for 20 years and 
they had always failed, that Legal Services had resisted 
reforms and they predict it would happen again. Well, we now 
have a lot of evidence in and I believe the record shows that 
the critics are right. Every aspect of the Legal Services 
community has risen up against the reforms, whether it's the 
Board of Directors which has passed regulation after regulation 
watering down the reforms, whether it's the Legal Services 
Programs who have filed lawsuits in Hawaii, in New York, in New 
York State. They have threatened other lawsuits across the 
country to challenge the reforms. The result is the same. 
They're challenging the reforms. They want the money. They 
don't want the reforms.
    A couple of specific points. At the February 1997 hearing 
it was pointed out that the LSC interim regulation on 
attorneys' fees allowed Legal Services attorneys to seek 
attorneys' fees. That's not just watering down a regulation, 
that's turning a regulation on its head.
    Perhaps more outrageous, they allowed the taking of fees 
from SSDI awards due to poor, disabled clients. That's a 
practice when I was in Legal Services was illegal. It was 
illegal for most of the 20-something years. You don't take 
awards from poor, disabled clients. Yet, they took a 
Congressional requirement that you not have attorneys' fees and 
turn it into a green light to take awards that otherwise would 
go to the disabled clients.
    That wasn't the only regulation that they monkeyed with. 
There is also the regulation on drug-related evictions. Just 
last week David Morton, Vice President of Housing for the 
Public Housing Authority Directors Association, testified 
before the Senate Banking, Housing, and Urban Affairs Committee 
about the Appropriations Act and drug-related eviction 
restrictions.
    He said that same act stipulated that LSC no longer spent 
either public or private funds to defend eviction actions 
against those charged with drug-related and other crimes. In 
our opinion, the recently published final rule, this is a rule 
passed by the LSC Board, subverts this intent and permits 
inappropriate involvement. On and on it goes.
    The reforms in the court; what are the reforms that they 
are challenging? Well the judge in Hawaii has given them a 
preliminary injunction now allowing use of non-LSC funds to get 
involved in lobbying, rulemaking, Congressional redistricting 
cases, challenges to welfare reform, litigation on behalf of 
prisoners, abortion related litigation, and litigation to stop 
drug-related evictions from public housing.
    These are just the reforms that Congress in a bipartisan 
consensus said Legal Services should avoid. They're now using 
their own resources--this is five Legal Services programs 
involved--to fight to get back into political activities.
    The case down in Texas received a lot of controversy. What 
was it? Legal Services intervened and basically tried to throw 
out the election of two Republicans down there. They tried to 
invalidate the votes of 800 military personnel. In the process 
they asked for attorneys' fees; also a violation of the law.
    The law clearly says they're not to be involved in 
political activities. They did. There is a lot of talk about 
competition. There isn't a single program at this point in the 
Legal Services Program that has lost its grant by being 
successfully challenged by a new group. The only case was in 
Pennsylvania.
    There they were picketed by the losing bidders. The 
Congressman from the District intervened on behalf and the 
bidder that won was forced out. So, right now competition is 
dead. Legal Services killed it. There isn't a single example of 
a program that wanted to keep its grant being able to keep it.
    The solution, I believe, is to give them a close out 
budget. They had a chance for reform. They've had 20 years to 
have a chance at reform. They haven't done it. At best today, 
less than 5 percent of the legal needs are being handled by LSC 
grantees. Half of that comes from non-LSC sources. Thank you 
very much, Mr. Chairman.
    [The statement of Mr. Boehm follows:]

[Pages 779 - 787--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. We now welcome Mr. Eldon Hout, 
Chairman, Coastal States Organization.

                              ----------                              

                                          Thursday, April 17, 1997.

                      COASTAL STATES ORGANIZATION

                                WITNESS

ELDON HOUT, CHAIRMAN

    Mr. Hout.  Good afternoon, Mr. Chairman.
    I'm the Coastal Program Manager for the State of Oregon and 
the current Chairman of the Coastal States Organization, which 
is referred to as CSO; an organization that dates from 1970. We 
are delegates of the Governors from our States. On behalf of 
CSO, I want to thank you for the opportunity here to testify.
    My testimony will focus primarily on the ocean, coastal, 
and Great Lakes programs administered by NOAA. I'd like to 
stress two points at the outset. While these programs are 
generally described as Coastal Ocean Programs, they do include 
the Great Lakes, territories, and islands. They provide 
substantial benefits to the entire nation.
    Secondly, these programs represent a model partnership 
between State, Federal, and private interests that allow the 
states to set locally based priorities and to leverage public 
and private resources to achieve a variety of purposes. As you 
know, our coastal waters are linked ecologically and 
economically directly to the nation's heartland by a network of 
navigable waterways.
    These waterways provide substantial recreational and 
economic benefit to the Nation. To cite a few examples, coal is 
transported from Kentucky and West Virginia. Petroleum products 
are distributed nationwide over navigable waterways. The 
coastal ports handle about 95 percent of the volume of imports 
moving in international trade. We believe that effective 
coastal resource management programs will be able to 
accommodate these expanding and essential uses of the 
waterways.
    I think the most important factor of the Coastal Zone 
Management Act is that it is State driven. It puts management 
at the State and local level. Thirty-four of the 35 eligible 
states and territories are voluntarily participating in this 
program. In fact, we have had two new programs come in this 
last year.
    We know that you face some very difficult budget choices. 
We are requesting only a modest increase from last year's 
funding to States so that we can sustain an existing level of 
services. It is the addition of Ohio and Texas into the CZMA 
program, along with the other 29 states and territories with 
approved programs that are facing proposed decreases of 
somewhere between 5 and 7 percent as compared with 1996 levels.
    Georgia and Minnesota are scheduled to come into the 
program this year. We, therefore, are recommending $49 million 
be provided for fiscal year 1998 to fund the Coastal Zone 
Management 306 Grants for State coastal zone management 
programs. This $49 million request is consistent with the 
authorization level provided by the Congress which last year, 
as you may remember, unanimously reauthorized the Coastal Zone 
Management Act.
    We believe this is a modest request, given the substantial 
economic return. I did want to make mention of the 
Administration's budget proposal to add $18 million in new 
funding for the Clean Water Initiative. We support that.
    My colleague, Gary Litton, who will come after me will talk 
to you about the National Estuarine Research Reserve budget. We 
support and believe that the managers of the Research Reserve 
have identified a $7 million figure which needs to be 
supported.
    We are also supporting the Administration's recommendations 
for the National Marine Sanctuaries Program; some $15 million. 
We support the program levels recommended for the Coastal 
Services Center in Charleston and the Coastal Ocean Program.
    We believe that these programs are justified by their 
national interest, by financial need, and by program merit. We 
appreciate the opportunity to submit our recommendations. We 
stand ready to assist you to explain in even more detail if we 
can. Thank you very much.
    [The statement of Mr. Hout follows:]

[Pages 790 - 796--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. We now welcome Mr. Gary Litton, 
Vice President, National Estuarine Research Reserve Program.

                              ----------                              

                                          Thursday, April 17, 1997.

            NATIONAL ESTUARINE RESEARCH RESERVE ASSOCIATION

                                WITNESS

GARY LITTON, PRESIDENT-ELECT

    Mr. Litton.  Thank you, Mr. Chairman. I believe I'm your 
last witness.
    Mr. Rogers.  Next to the last.
    Mr. Litton.  Next to last, okay.
    As you've pointed out, my name is Gary Litton. I'm the 
Manager of the Rookery Bay National Estuarine Research Reserve 
in Naples, Florida. I work for the Florida Department of 
Environmental Protection, and I'm President-Elect of the 
National Estuarine Research Association.
    My testimony is presented to you today on behalf of NERRA, 
the Association. It is a national non-profit organization with 
a membership of 21 designated sites in the Research Reserves. I 
appreciate the opportunity to present testimony to you today.
    Research Reserves were established under Section 315 of the 
Coastal Zone Management Act as a part of the Federal/State 
partnership to promote informed coastal decisions by local 
communities by establishing a national network of sites that 
serve as outdoor classrooms and laboratories. We take research 
information generated from our sites and get that out to local 
communities to help promote informed decisions through our 
education programs. NOAA is our Federal partner in the National 
Research Reserve System. Currently, we have 21 sites in the 
Reserves. The Association is requesting your support for a $7 
million line item for Research Reserves for fiscal year 1998. 
Reserve managers feel very strongly that a line item of $7 
million will meet the needs of this important partnership 
program. An Administration request for fiscal year 1998 
includes a line item of $4.3 million for reserves.
    It is important to point out that in the last three years 
Congress has funded reserves partially from Section 308 funds, 
which is a diminishing source of funds that is anticipated to 
zero out by fiscal year 1999, I believe. So, we are asking your 
support for a more stable line item of $7 million for the 
following reasons.
    Research Reserve, as I mentioned before, works directly 
with local communities to improve coastal decisions through a 
better understanding of local and regional issues such as water 
quality, storm water management and restoration. We reached 
thousands of local residents within our bioregions each year 
and we provide technical training for planners, managers, and 
regulatory staff at the city, country, State, and Federal 
levels.
    The demand for information services for existing research 
reserves has greatly increased over the last several years. A 
$7 million line item will enable each site to have a base of 
operation of $200,000. That is money that we use to literally 
pay the light bills, to cover the cost of our basic staff needs 
and to support research and education programs. It is 
anticipated that six additional Research Reserves will be 
coming on-line by fiscal year 1998. That includes States like 
Alaska, California, Florida, Mississippi, New Jersey, and New 
York.
    Now, the States want into this program because it works. We 
are very strongly supporting the addition of these sites. At 
the same time, we are encouraging the Federal partnership in 
this program to continue to reflect the needs of this growing 
system.
    Federal funds from NOAA to the States managing these 
reserves also go towards the completion of one of the Nation's 
only standardized water quality monitoring networks in which we 
collect the same parameters for water quality at 21 different 
sites around the country.
    The information is then available through the Internet as a 
centralized management site. This information is then available 
again to local managers and planners and regulatory staff. We 
also have this information available for high school students 
in college classes that work directly with the Reserves 
Education Programs.
    Lastly, Federal funds have enabled the initiation of our 
new Graduate Fellowship Research Program. This allows us to 
award stipends of $15,000 to graduate students as many as two 
per site to conduct research on priority research issues at 
individual sites. Again, it is important to note that the 
results of these research projects are then directly 
disseminated to our local coastal communities. These are on 
topics such as storm water management, restoration, and the 
affects of pesticides and nutrients on water quality in our 
coastal waters.
    In addition, we are also requesting your support for $6 
million in construction funds out of the NOAA Capital Asset 
Fund. With Congressional support, reserves can be available to 
complete needed construction of facilities like visitor 
centers, meeting rooms, classrooms, and research labs.
    A quick example, at Rookery Bay, we recently completed 
construction of a new headquarters facility which included a 
combination of funds from the NOAA Construction Fund. We 
received a match from the State of Florida and over $250,000 in 
local contributions from the community.
    So, again, it is important to know that Federal dollars 
invested in Research Reserves leverage significant support at 
the State and local level. I'd also in closing like to express 
our strong support for CZM programs, Section 306. We are 
strongly encouraging support at a $49 million level for Section 
306. Thank you.
    [The statement of Mr. Litton follows:]

[Pages 799 - 803--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    Mr. Litton. I appreciate it.
    Mr. Rogers. I appreciate it. We will stand in recess for 
just a moment.
    [Recess.]
    Mr. Rogers.  We will resume our hearing. When Okasis Meek 
arrives, I want to recognize her. We're going to ask our last 
witness, Cyrus Jollivette, Assistant Vice President of the 
University of Miami, to please begin his testimony. Welcome.
    [The statement of Okasis Meek follows:]

[Page 805--The official Committee record contains additional material here.]

                              ----------

                                          Thursday, April 17, 1997.

                          UNIVERSITY OF MIAMI

                                WITNESS

CYRUS M. JOLLIVETTE

    Mr. Jollivette.  Thank you very much, sir.
    Mr. Chairman, I will present only a brief summary of my 
testimony and ask that my full written statement be included in 
the record.
    Mr. Rogers.  It shall.
    Mr. Jollivette. Thank you so very much.
    Mr. Chairman, I really appreciate the opportunity to be 
here today on behalf of not just the University of Miami, but 
also Florida State University. I am representing the private 
University of Miami and public Florida State because of the 
unique research collaboration that we initiated with Florida 
State one year ago and that has been in effect.
    Both of these institutions have long enjoyed your support. 
My colleagues and I are deeply appreciative of your leadership 
and what is the Subcommittee's continuing confidence. I will 
start with the University of Miami request. We ask that you 
consider continued support for the North/South Center.
    This program has been included in the Administration's 
budget, and in addition the House International Relations 
Committee has maintained the Center's permanent authorization 
and recommended $4 million over the next two years in its 
authorization bill. We seek funding at the authorization level.
    The North/South Center continues to advance knowledge,serve 
as a catalyst for change and promote better relations among the United 
States, Canada, the nations of Latin America, and the Caribbean. It 
fulfills a singular role in American affairs as a national resource in 
the public interest. We hope that it will be possible for this funding 
to continue for this support program.
    Now, for our joint programs for the University of Miami and 
Florida State University. I want to commend you for your 
affirmative response to last year's request from the Florida 
delegation concerning the Florida Consortium for Climatic 
Research; a project that involves four Florida universities; 
the University of Miami, Florida State, the University of 
Florida, and the University of South Florida.
    Your declaration in last year's committee report and your 
colloquy were important for all of Florida. The El Nino 
phenomenon with which the Florida Consortium deals has been 
responsible for literally billions of dollars worth of damage 
to livestock, crops, and fisheries around the world; 
particularly in the Southeast U.S. and in Florida.
    Recent efforts creating reliable global and regional 
forecasts have resulted in greatly improved ocean atmospheric 
models for a global climate system. Florida's four research 
universities have been among the foremost leaders of this 
predictive modeling technology domestically and 
internationally. For 1998, we seek $2 million for the Florida 
Regional Application Center, one covering the Southeastern U.S. 
and one covering an international multi-region area. Again, for 
the University of Miami and Florida State University and 
approximately 80 other entities working on the South Florida 
coastal ecosystem in the Florida Bay Multi-Agency Plan, we seek 
your continuing support.
    The objective of this plan is to provide decision makers 
who are working to restore and maintain a healthy South Florida 
coastal ecosystem with reliable scientific information. This 
program deals very heavily--primarily with the Everglades, with 
the Florida Bay, and the problems in balancing that very, very 
delicate ecosystem.
    We respectfully request that you provide $6 million in 
dedicated NOAA funding for this multi-agency activity which is 
seeking solutions to some very critical environmental issues. I 
want to add, sir, that this is not an earmark. This is an 
amount that would be a portion of the NOAA funding that would 
allow the various types of research to go forward relating to 
the Everglades and seeking solutions to the problems that are 
endangering the Everglades.
    In addition to those three projects that I have mentioned, 
I bring to your attention five projects that we are requesting 
endorsement of the Subcommittee through NOAA. In connection 
with the Everglades, there has been a recent discovery of a 
sand channel in the Everglades from Lake Okeechobee down to 
Florida Bay that has implications for the supply of phosphate 
to Florida Bay. There is a developing South Florida Ocean 
Measurements Laboratory, which is a cooperative venture between 
Florida Atlantic University, South Florida Test Facility, and 
the University of Miami.
    In addition, the University of Miami operates an ocean 
surface current radar system, OSCR, which is very unique in 
tracking tides, tidal action, and sea action. The Southeast 
Consortium of Oceanographic Research, or SCOR, which is the 
consortium of institutions in the Southeast as far as Texas and 
Louisiana concerning the operation of a research vessel.
    Thank you very much for your consideration of these 
requests.
    [The statement of Mr. Jollivette follows:]

[Pages 808 - 813--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you very much.
    We will insert Ms. Meek's remarks before your testimony.
    Mr. Jollivette.  I appreciate that, Mr. Chairman.
    Mr. Rogers.  Thank you very much.
    Mr. Jollivette.  Thank you very much.
    Mr. Rogers.  The hearing is adjourned.
    [The following statements were submitted for the record:]
    Offset Folios 1278 to 1406/1700 Insert here


[Pages 815 - 943--The official Committee record contains additional material here.]

                                 <all>
</pre></body></html>
